<html>
<title> - H.R. 5780, TO PROVIDE GREATER CONSERVATION, RECREATION, ECONOMIC DEVELOPMENT AND LOCAL MANAGEMENT OF FEDERAL LANDS IN UTAH, AND FOR OTHER PURPOSES, ``UTAH PUBLIC LANDS INITIATIVE ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
   H.R. 5780, TO PROVIDE GREATER CONSERVATION, RECREATION, ECONOMIC 
  DEVELOPMENT AND LOCAL MANAGEMENT OF FEDERAL LANDS IN UTAH, AND FOR 
         OTHER PURPOSES, ``UTAH PUBLIC LANDS INITIATIVE ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 14, 2016

                               __________

                           Serial No. 114-51

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-547 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Wm. Lacy Clay, MO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
              NIKI TSONGAS, MA, Ranking Democratic Member

Don Young, AK                        Donald S. Beyer, Jr., VA
Louie Gohmert, TX                    Pedro R. Pierluisi, PR
Glenn Thompson, PA                   Jared Huffman, CA
Cynthia M. Lummis, WY                Alan S. Lowenthal, CA
Raul R. Labrador, ID                 Debbie Dingell, MI
Doug LaMalfa, CA                     Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT                    Vacancy
Jody B. Hice, GA                     Vacancy
Thomas MacArthur, NJ                 Vacancy
Cresent Hardy, NV                    Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio

                                 ------           
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 14, 2016....................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     9
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah..............................................    14
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     7
        Prepared statement of....................................     8
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Tsongas, Hon. Niki, a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Benally, Rebecca, Commissioner, San Juan County, Monticello, 
      Utah.......................................................    16
        Prepared statement of....................................    18
    Koontz, Clif, Executive Director, Ride with Respect, Moab, 
      Utah.......................................................    42
        Prepared statement of....................................    43
    Kornze, Neil, Director, Bureau of Land Management, U.S. 
      Department of the Interior, Washington, DC.................    19
        Prepared statement of....................................    20
        Questions submitted for the record.......................    29
    Lopez-Whiteskunk, Regina, Co-Chairwoman, Bears Ears Inter-
      Tribal Coalition, Towaoc, Colorado.........................    35
        Prepared statement of....................................    36
    Ure, Dave, Director, Utah School and Institutional Trust 
      Lands Administration, Salt Lake City, Utah.................    38
        Prepared statement of....................................    40
    Weldon, Leslie, Deputy Chief, National Forest System, U.S. 
      Department of Agriculture, Washington, DC..................    30
        Prepared statement of....................................    31

Additional Materials Submitted for the Record:
    Access Fund & Outdoor Alliance, Prepared statement of........    85
    Carbon County Board of County Commissioners, July 13, 2016 
      Letter to Congress.........................................    46
    Deseret News, August 26, 2016 Article, Amy Joi O'Donoghue, 
      Big money, environmentalists and the Bears Ears story......    10
    Emery County Board of Commissioners, Letter to Rep. Chaffetz.    47
    Enefit American Oil, September 15, 2016 Letter to Chairman 
      McClintock.................................................    88
    Friends of Cedar Mesa, July 19, 2016 Letter to Reps. Bishop 
      and Chaffetz...............................................    73
    Friends of Cedar Mesa, Prepared statement of.................    89
    Grand County Council, August 16, 2016 Letter to Reps. Bishop 
      and Chaffetz...............................................    75
    List of documents submitted for the record retained in the 
      Committee's official files.................................   111
    Madsen, Hilda, et al., Prepared statement of.................    94
    National Parks Conservation Association, September 12, 2016 
      Letter to Natural Resources Committee......................    65
    National Trust for Historic Preservation, Prepared statement 
      of.........................................................    68
    Natural Resources Defense Council, Sierra Club, & Southern 
      Utah Wilderness Alliance, September 14, 2016 Letter to 
      Reps. McClintock and Tsongas...............................    98
    Navajo Nation, Russell Begaye, President, Prepared statement 
      of.........................................................    99
    Outdoor Industry Association, Prepared statement of..........    70
    Pew Charitable Trust, Prepared statement of..................   100
    San Juan County Commission, May 3, 2016 Letter to President 
      Obama......................................................    47
    Savory Institute, Testimony given at September 13, 2016 
      Hearing of the Committee on Oversight and Government 
      Reform, Subcommittee on the Interior.......................    77
    Schwartz, Judith D., Testimony given at September 13, 2016 
      Hearing of the Committee on Oversight and Government 
      Reform, Subcommittee on the Interior.......................    79
    Summit County Council, September 21, 2016 Letter to Reps. 
      McClintock and Tsongas.....................................   102
    Uintah County Commissioners, Letter to Chairman McClintock...   103
    Ute Mountain Ute Tribe, September 9, 2016 Letter to Congress.    15
    Ute Indian Tribe, Prepared statement of......................   107
    Wilderness Society, September 13, 2016 Letter to Reps. 
      McClintock and Tsongas.....................................    64
                                     



  LEGISLATIVE HEARING ON H.R. 5780, TO PROVIDE GREATER CONSERVATION, 
RECREATION, ECONOMIC DEVELOPMENT AND LOCAL MANAGEMENT OF FEDERAL LANDS 
 IN UTAH, AND FOR OTHER PURPOSES, ``UTAH PUBLIC LANDS INITIATIVE ACT''

                              ----------                              


                     Wednesday, September 14, 2016

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 1334, Longworth House Office Building, Hon. Tom 
McClintock, [Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Lummis, Westerman, 
Hardy, Bishop (ex officio); Tsongas, Lowenthal, Dingell, Polis, 
and Grijalva (ex officio).
    Also Present: Representative Chaffetz.
    Mr. McClintock. The hearing will come to order.
    The Subcommittee on Federal Lands meets today to hear 
testimony on H.R. 5780, the ``Utah Public Lands Initiative 
Act.''
    Before we begin, I would ask unanimous consent that 
Representative Jason Chaffetz, the co-sponsor of this 
legislation, be allowed to join us on the dais and participate 
in today's hearing.
    Hearing no objection, so ordered.
    We will begin with 5-minute opening statements by myself, 
the Ranking Member of the Subcommittee, the Chairman and 
Ranking Member of the Natural Resources Committee, and without 
objection, Mr. Chaffetz.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The subcommittee measures bills according 
to three over-arching objectives for Federal lands management: 
to restore public access to the public lands; to restore sound 
management practices to the public lands; and to restore the 
Federal Government as a good neighbor to those communities 
directly impacted by the public lands.
    Of all the bills I have seen during this Congress, I 
believe no one has tried harder to adhere to these principles 
than Chairman Bishop in the bill before us today, the ``Utah 
Public Lands Initiative Act.''
    Although the Federal Government owns only seven-tenths of 1 
percent of the state of New York, 1.1 percent of Illinois, 1.6 
percent of Massachusetts, and 1.8 percent of Texas, it owns 
nearly half of my home state of California, four-fifths of 
Nevada, and two-thirds of Congressman Bishop's and Congressman 
Chaffetz's home state of Utah.
    This creates enormous problems and economic distress on the 
communities that are impacted by Federal land ownership, and 
the bill before us is a result of many years of work, 
collaboration, and compromise by Chairman Bishop and 
Congressman Chaffetz that has produced a locally-driven 
solution to some of Utah's most daunting land management 
issues.
    His bill promises to expand public recreational access, 
protect grazing, and ensure the continued use of off-highway 
vehicles. The PLI includes protections against Federal over-
reach and ensures the state of Utah can have control over its 
own economic and energy future.
    This bill is a give-and-take for all who were involved, but 
ultimately ensures certainty and resolution in land use policy 
in the state of Utah. And, by the way, to be clear, I would not 
support the compromises in this bill if they were stand-alone 
legislation. It designates millions of acres for wilderness 
that makes scientific land management nearly impossible. It 
confers 360 miles of new wild and scenic river designations 
that have proven disastrous at Yosemite, where the Merced River 
designation is now being used to remove long-standing visitor 
amenities, including bicycle and horse rentals, historic stone 
bridges, and lodging.
    But these concessions were made in order to provide 
certainty and stability for other lands that are exchanged and 
consolidated for the beneficial use of the public, and 
inclusion of local and tribal governments in many land 
management decisions from which they were previously excluded.
    Most importantly, this bill preempts arbitrary and 
capricious designations threatened in the final throes of the 
Obama administration. Mr. Obama's threatened national monument 
designations are focused on appeasing out-of-state interests at 
the expense of local people who are struggling to have good 
paying jobs and keep their public schools open after national 
monuments engulf their communities.
    In contrast, this bill seeks to create a national monument 
that the people of Utah and its tribes actually support.
    This President has relied on the Antiquities Act, 
originally written in 1906, to provide temporary protection for 
archeological sites from looting, to lock up 548 million acres 
of land and water on a whim. That is an area larger than the 
states of California, Texas, Oregon, Wyoming, Colorado, and New 
Mexico combined. This abuse of power means the public is 
largely forbidden from enjoying traditional recreational 
pursuits on the public lands, including snowmobiling, hunting, 
fishing, shooting, and off-highway vehicle use.
    In my own district, these same special interests are trying 
to convert the Sierra National Forest into a 1.3 million acre 
Sierra National Monument, obliterating the last remaining 
timber jobs in our communities and making the management of our 
public lands impossible at a time of severe drought and beetle 
infestation. If successful, I think a more apt name for it 
would be the ``Burnt Forest National Monument,'' where 
schoolchildren can come to see what leftist environmentalism 
has done to the environment.
    I am not sure who President Obama thinks he is accountable 
to, but here in Congress, we believe it is our constituents. 
Ultimately, it is up to our elected officials, such as Chairman 
Bishop, Congressman Chaffetz, and Commissioner Rebecca Benally, 
who is here today, to represent their local residents and be 
held accountable for their land use choices.
    I hope the Administration officials here today pay close 
attention to the loud and resounding opposition to a unilateral 
national monument designation and let local elected officials 
decide the fate of local lands in Utah.
    With that, I look forward to hearing testimony from today's 
witnesses.
    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    Good morning. Today, the Subcommittee on Federal Lands meets to 
hear testimony on H.R. 5780, the Utah Public Lands Initiative Act, 
brought to us by the Chairman of the Natural Resources Committee, Mr. 
Rob Bishop.
    This subcommittee measures bills according to three over-arching 
objectives for Federal lands management: to restore public access to 
the public lands, to restore sound management practices to the public 
lands and to restore the Federal Government as a good neighbor to the 
communities directly impacted by the public lands.
    Of all the bills we have seen during this Congress, I believe no 
one has tried harder to adhere to these principles than Chairman Bishop 
in the bill before us today, the Public Lands Initiative (PLI).
    Although the Federal Government owns only .7 percent of New York, 
1.1 percent of Illinois, 1.6 percent of Massachusetts, and 1.8 percent 
of Texas, it owns nearly half of California, four-fifths of Nevada and 
two-thirds of Congressman Bishop's home state of Utah.
    This creates enormous problems and economic distress on the 
communities impacted by Federal land ownership, and the bill before us 
is the result of many years of work, collaboration and compromise by 
Chairman Bishop that has produced a locally-driven solution to some of 
Utah's most daunting land management issues.
    His bill promises to expand public recreational access, protect 
grazing, and ensure the continued use of off-highway vehicles. The PLI 
includes protections against Federal over-reach and ensures that the 
state of Utah can have control over its own economic and energy future.
    This bill is a give and take for all who were involved, but 
ultimately ensures certainty and resolution to the state of Utah.
    To be clear, I would not support the compromises in this bill if 
they were stand-alone legislation. It designates millions of acres for 
wilderness that makes scientific land management nearly impossible. It 
confers 360 miles of new Wild and Scenic River designations that have 
proven disastrous at Yosemite, where the Merced River designation is 
now being used to remove long-standing visitor amenities including 
bicycle and horse rentals, historic stone bridges and lodging.
    But these concessions were made in order to provide certainty and 
stability for other lands that are exchanged and consolidated for 
beneficial use by the public, and inclusion of local and tribal 
governments in many land management decisions from which they were 
previously excluded.
    Most importantly, this bill preempts arbitrary and capricious 
designations threatened in the final throes of the Obama 
administration. Mr. Obama's threatened monument designations are 
focused appeasing out-of-state interests at the expense of local people 
struggling to have good paying jobs and keep their public schools open 
after monuments engulf their communities. In contrast, this bill seeks 
to create a national monument that the people of Utah and its tribes 
actually support.
    This President has relied on the Antiquities Act--originally 
written in 1906 to provide temporary protection of archeological sites 
from looting--to lock up 548 million acres of land and water on whim. 
That's an area larger than the states of California, Texas, Oregon, 
Wyoming, Colorado, and New Mexico combined. This abuse of power means 
the public is largely forbidden from enjoying traditional recreational 
pursuits on the public lands, including snowmobiling, hunting, fishing, 
shooting, and off-highway vehicle use.
    In my own district, these same special interests are trying to 
convert the Sierra National Forest into a 1.3 million-acre Sierra 
National Monument, obliterating the last remaining timber jobs in our 
communities and making the management of our lands impossible at a time 
of severe drought and beetle infestation. If successful, I would 
suggest naming it the ``Incinerated Forest National Monument,'' where 
schoolchildren can come to see what the surface of the moon looks like.
    I'm not sure who President Obama thinks he is accountable to, but 
here in Congress we believe it's our constituents. Ultimately, it is up 
to our elected officials, such as Chairman Bishop and Commissioner 
Rebecca Benally, to represent their local residents and be held 
accountable for their land use choices.
    I hope the Administration officials here today pay close attention 
to the loud and resounding opposition to a unilateral monument 
designation and let local elected officials decide the fate of lands in 
Utah.
    With that, I look forward to hearing testimony from today's 
witnesses and I now recognize the Ranking Member for her opening 
statement.

                                 ______
                                 

    Mr. McClintock. I now recognize the Ranking Member for her 
opening statement.

 STATEMENT OF NIKI TSONGAS, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF MASSACHUSETTS

    Ms. Tsongas. Thank you, Mr. Chairman.
    Nearly 5 years ago, Chairman Bishop began the task of 
developing this bill. Along the way, he and his staff have 
conducted hundreds of meetings all over Utah. It is a worthy 
effort to develop a comprehensive blueprint for 18 million 
acres of land, roughly the size of Massachusetts and New Jersey 
combined, that are clearly so deeply cherished by all who live 
there; but this endeavor does not ultimately fulfill its 
potential of reaching a bipartisan solution.
    Our Nation's public lands protect some of the places that 
have shaped and defined who we are as a people and a country, 
and would not have been protected without support from the 
Federal Government.
    While necessarily resident in a particular state, states do 
not have the right to unilaterally set policy on these lands 
that belong to all Americans. Though state lands are often 
managed to maximize profitability, our Nation's public lands 
are managed for a wide range of activities and on behalf of all 
Americans.
    As stewards of these lands, we must work to find a balance 
between compelling, yet sometimes competing, interests and make 
sure that the Federal Government is a good neighbor to local 
communities.
    Unfortunately, instead of looking for bipartisan policy 
solutions to protect treasured natural resources and wild 
areas, promote recreation, and support responsible economic 
development, the legislation before us today fails to strike 
the appropriate balance between these priorities. In fact, a 
closer examination of the so-called conservation provisions 
demonstrates a clear pattern of loopholes, rolled back 
protections, and an undermining of Federal land management 
authority, all of which threaten the long-term conservation 
value of these areas. It could be said that this is a wolf in 
sheep's clothing.
    For example, Title I of the legislation purports to 
designate over 1.6 million acres of wilderness, but contradicts 
the Wilderness Act by indefinitely allowing motorized vehicle 
use and construction of new water infrastructure. This is a 
violation of the Wilderness Act's promise to preserve certain 
Federal lands, ``for the use and enjoyment of the American 
people in such manner as will leave them unimpaired for future 
use and enjoyment as wilderness.''
    The National Conservation Areas and Special Management 
Areas in Titles II and IV have loopholes that allow for 
thousands of miles of off-road vehicle routes, mining, 
drilling, deforestation projects, and livestock grazing, 
activities that are inherently inconsistent with a Federal land 
manager's duty to protect the natural, cultural, educational, 
and scientific resources.
    The National Conservation Area that is intended to protect 
Bears Ears, a Native American ancestral homeland, would allow 
motorized recreation, grazing in areas where it is currently 
prohibited, and block Federal agencies from protecting the 
wilderness quality of hundreds of thousands of acres of land. 
This puts the region's many Native American cultural and 
archeological sites at risk of permanent destruction.
    The watershed management areas created under section 3 
claim to protect water quality, but the bill also requires 
mandatory levels of grazing and snowmobile access, authorizes 
the construction of permanent roads, sets new requirements for 
water use, and allows for timber operations, severely limiting 
Federal land managers' ability to best protect water resources.
    Even conservation designations that are more familiar to 
average Americans, such as national parks, national monuments, 
and wild and scenic rivers are not exempt from harmful policies 
in this legislation.
    Sections of this bill related to these special areas are 
also ridden with loopholes that loosen rules for logging, allow 
motorized vehicle use, prohibit protections for air quality, 
and allow commercial activities without full and careful 
consideration of the impacts to natural resources, once again 
undermining their long-term conservation value to the American 
public.
    All told, despite the many years of effort, this is not a 
legislative proposal that has a realistic chance of being 
passed by the Senate or signed into law by President Obama. 
Last month, Grant County in eastern Utah sent a letter to the 
Utah delegation expressing their opposition to the proposal, 
detailing nine significant departures from the recommendations 
they developed with the input of their stakeholders, partners, 
and citizens.
    The Salt Lake Tribune wrote in an editorial that, ``A 
negotiated settlement would have been better, but a Bears Ears 
monument declaration looks like the only viable solution at 
this point.''
    And perhaps most significantly, last week, Governor Gary 
Herbert, a Republican, announced in a press conference that he 
may soon bring forth his own proposal to the Obama 
administration regarding the long-term protection of the Bears 
Ears region, further indication that the legislation before us 
today has little chance of successfully becoming law.
    I would like to thank all of the witnesses for their 
participation, many of whom have traveled across the country to 
be with us today, and I look forward to your testimony.
    Thank you, and I yield back.
    [The prepared statement of Ms. Tsongas follows:]
     Prepared Statement of the Hon. Niki Tsongas, Ranking Member, 
                     Subcommittee on Federal Lands
    Nearly 5 years ago, Chairman Bishop began the task of developing 
this bill. Along the way, he and his staff have conducted hundreds of 
meetings all over Utah. It is a worthy effort to develop a 
comprehensive blueprint for 18 million acres of land, roughly the size 
of Massachusetts and New Jersey combined, that are clearly so deeply 
cherished by all who live there, but this endeavor does not ultimately 
fulfill its potential of reaching a bipartisan solution.
    Our Nation's public lands protect some of the places that have 
shaped and defined who we are as a people, and a country, and would not 
have been protected without support from the Federal Government. While 
necessarily resident in a particular state, states do not have the 
right to unilaterally set policy on these lands that belong to all 
Americans. Though state lands are often managed to maximize 
profitability, our Nation's public lands are managed for a wide range 
of activities and on behalf of all Americans. As stewards of these 
lands, we must work to find a balance between compelling yet sometimes 
competing interests and make sure that the Federal Government is a good 
neighbor to local communities.
    Unfortunately, instead of looking for bipartisan policy solutions 
to protect treasured natural resources and wild areas, promote 
recreation, and support responsible economic development, the 
legislation before us today fails to strike the appropriate balance 
between these priorities. In fact, a closer examination of the so-
called conservation provisions demonstrates a clear pattern of 
loopholes, rolled back protections, and an undermining of Federal land 
management authority, all of which threaten the long-term conservation 
value of these areas. It could be said that this is a wolf in sheep's 
clothing.
    For example, Title I of the legislation purports to designate over 
1.6 million acres of wilderness but contradicts the Wilderness Act by 
indefinitely allowing motorized vehicle use and construction of new 
water infrastructure. This is a violation of the Wilderness Act's 
promise to preserve certain Federal lands ``for the use and enjoyment 
of the American people in such manner as will leave them unimpaired for 
future use and enjoyment as wilderness.''
    The National Conservation Areas and special management areas in 
Titles II and IV have loopholes that allow for thousands of miles of 
off-road vehicle routes, mining, drilling, deforestation projects, and 
livestock grazing, activities that are inherently inconsistent with 
Federal land managers' duty to simultaneously protect the natural, 
cultural, educational, and scientific resources. The National 
Conservation Area that is intended to protect Bears Ears, a Native 
American ancestral homeland, would allow motorized recreation, grazing 
in areas where it is currently prohibited, and block Federal agencies 
from protecting the wilderness-quality of hundreds of thousands of 
acres of land. This puts the region's many Native American cultural and 
archaeological sites at risk of permanent destruction.
    The watershed management areas created under section 3 claim to 
protect water quality but the bill also requires mandatory levels of 
grazing and snowmobile access, authorizes the construction of permanent 
roads, sets new requirements for water use, and allows for timber 
operations, severely limiting Federal land managers' ability to best 
protect precious water resources.
    Even conservation designations that are more familiar to the 
average American, such as national parks, national monuments, and wild 
and scenic rivers are not exempt from harmful policies in this 
legislation. Sections of this bill related to these special areas are 
also ridden with loopholes that loosen rules for logging, allow 
motorized vehicle use, prohibit protections for air quality, and allow 
commercial activities without full and careful consideration of the 
impacts to natural resources, once again undermining their long-term 
conservation value to the American public.
    All told, despite the many years of effort, this is not a 
legislative proposal that has a realistic chance of being passed by the 
Senate or signed into law by President Obama. Last month Grand County, 
in eastern Utah, sent a letter to the Utah delegation expressing their 
opposition to the proposal, detailing nine significant departures from 
the recommendations they developed with the input of stakeholders, 
partners, and citizens. The Salt Lake Tribune wrote in an editorial, 
that, ``A negotiated settlement would have been better, but a Bears 
Ears monument declaration looks like the only viable solution at this 
point.''
    And perhaps most significantly, last week Governor Gary Herbert, a 
Republican, announced in a press conference that he may soon bring 
forth his own proposal to the Obama administration regarding the long-
term protection of the Bears Ears region, further indication that the 
legislation before us today has little chance of successfully becoming 
law.
    I would like to thank all of the witness for their participation, 
many of whom have traveled across the country to be with us today. I 
look forward to hearing your testimony.
    With that, I yield back.

                                 ______
                                 

    Mr. McClintock. And, without objection, we will go out of 
order to the Ranking Member, Mr. Grijalva.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. I 
appreciate it.
    As Ranking Member Tsongas already indicated, and I 
associate myself with her comments, this is a grand bargain for 
public lands in Utah that has been a priority for Chairman 
Bishop for almost 5 years now. I would like to acknowledge the 
tremendous amount of work that went into drafting this 
legislation. The holdings of hundreds of meetings and 
attempting to bring diverse stakeholders together to craft a 
compromise is never an easy task.
    Chairman Bishop and all of those who participated in the 
PLI process in good faith deserve our thanks. Unfortunately, 
this bill, which resulted from that process, is a non-starter. 
H.R. 5780 falls far short of what it would take to reach a 
legitimate compromise and leaves many of the stakeholders, 
including the region's Native American communities, no choice 
but to oppose the legislation.
    This legislation impacts the administration of 18 million 
acres of public land. In doing so, it undermines bedrock 
conservation laws, like the Wilderness Act, the Endangered 
Species Act, the National Environmental Policy Act, and the 
Federal Land Policy and Management Act, just to name a few.
    In too many instances, rather than seeking appropriate 
management of Federal lands in Utah, H.R. 5780 seeks to resolve 
the management conflicts by simply giving Federal land away.
    Time and time again, the proposal tilts the scales 
dramatically in favor of development and motorized vehicle use, 
and away from responsible conservation.
    H.R. 5780 also includes proposals with significant impacts 
on Indian land, including the transfer of 100,000 acres of the 
Ute Indian Tribe's reservation to the state of Utah. This is an 
unprecedented give-away of Native American assets that every 
member of this committee should oppose and question.
    This and other provisions impacting tribes forced the 
National Congress of American Indians to oppose the draft of 
this legislation, and unfortunately, the bill we are 
considering still contains this devastating provision. 
Furthermore, the bill leaves out significant acreage included 
in the proposed Bears Ears National Monument.
    At a minimum, H.R. 5780 merits a second hearing in the 
Indian, Insular and Alaska Native Affairs Subcommittee so that 
we can hear from the Bureau of Indian Affairs and others in the 
Native American community to truly assess the bill's overall 
impacts.
    There are representatives from the Navajo Nation and the 
Ute Indian Tribe here in the audience today. The Ute are the 
only tribe in the Chairman's district and in the bill that have 
significant impacts on their land. It is unfortunate that they 
were unable to testify today.
    Finally, it is important to note that this is not the only 
public lands bill that deserves our attention. There are 
Members on and off this committee with bills developed from the 
ground up that deserve a hearing and consideration from this 
committee. We may disagree on the merits of a particular 
designation or the specifics of management language, but just 
like this bill, they deserve the consideration of a hearing. We 
should not go this entire Congress without considering even one 
Democratic wilderness bill.
    In closing, I respect the process used to attempt to reach 
agreement on a Public Lands Initiative in Utah, but I join NCAI 
and others in opposing the final product.
    Mr. Chairman, I yield back and thank you.
    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman.
    A grand bargain for public lands in Utah has been a priority for 
Chairman Bishop for almost 5 years. And I would like to start off by 
acknowledging the tremendous amount of work that went into drafting 
this bill. Holding hundreds of meetings and attempting to bring diverse 
stakeholders together to craft a compromise is no easy task.
    Chairman Bishop and all those who participated in the PLI process 
in good faith deserve our thanks.
    Unfortunately, the bill which resulted from that process is a non-
starter. H.R. 5780 falls far short of what it would take to reach a 
legitimate compromise and leaves many of the stakeholders, including 
the region's Native American communities, no choice but to oppose the 
bill.
    This legislation impacts the administration of about 18 million 
acres of public land. In doing so, it undermines bedrock conservation 
laws like the Wilderness Act, the Endangered Species Act, the National 
Environmental Policy Act, and the Federal Land Policy and Management 
Act, just to name a few.
    In too many instances, rather than seeking appropriate management 
of Federal lands in Utah, H.R. 5780 seeks to resolve management 
conflicts by simply giving Federal land away.
    Time and again, the proposal tilts the scales dramatically in favor 
of development and motorized use, and away from responsible 
conservation.
    H.R. 5780 also includes proposals with significant impacts on 
Indian land, including one that would transfer 100,000 acres of the Ute 
Indian Tribe's reservation to the state of Utah. This is an 
unprecedented giveaway of Indian assets that every member of this 
committee should oppose.
    This and other provisions impacting tribes forced the National 
Congress of American Indians to oppose the draft of this legislation 
and unfortunately, the bill we are considering still contains this 
devastating provision. Furthermore, the bill leaves out significant 
acreage included in the proposed Bear's Ears National Monument.
    At a minimum, we should have a second hearing in the Indian, 
Insular and Alaska Native Affairs Subcommittee so that we can hear from 
the Bureau of Indian Affairs and others in the Native American 
community to truly assess the bill's impacts.
    There are representatives from the Navajo Nation and the Uintah 
Ouray Ute here in the audience today. It is my hope that Members will 
seek these tribal representatives out and really listen to their 
concerns.
    Finally, it is important to note that this is not the only public 
lands bill that deserves our attention. There are Members on and off 
this committee with bills developed from the ground up that deserve a 
hearing and consideration by this committee. We may disagree on the 
merits of a particular designation or the specifics of the management 
language, but just like this bill, they deserve the consideration of a 
hearing. We shouldn't go a whole Congress without considering even one 
democratic wilderness bill.
    In closing, I respect the process used to attempt to reach 
agreement on a Public Lands Initiative for Utah, but I join NCAI and 
others in opposing the final product.

                                 ______
                                 

    Mr. McClintock. The Chair now recognizes the Chairman of 
the Natural Resources Committee, Congressman Bishop, for 5 
minutes.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, and I appreciate the witnesses who 
are here, and, Neil, I need to talk to you after the meeting. 
Otherwise, you have to call me.
    I also want to thank the Chairman very much for having this 
hearing. I want it to be noted that this is not the hearing of 
this bill, it is a hearing of this bill. We have had hearings 
of this bill for the last 3 years. There have been over 1,200 
meetings and hearings, and 50 field trips on this bill with 
small groups, large groups, the public, and stakeholders. It 
can easily be said I do not think any bill has had this kind of 
public input ever before that has been before this committee or 
this Congress.
    No one has been cut out of this process. Everyone has had 
their say, including having this online and allowing online 
reports to come in. We have had over 65 changes represented by 
120 different groups, and that was as of January. That does not 
count everything that we have done this year.
    What this bill tries to do is four major things, bring 
finality in four areas:
    One, guarantee recreation opportunities for Utahans that 
will be there permanently.
    Two, to provide areas that the primary purpose will be for 
economic development so the business community knows where they 
can and cannot invest.
    Three, provide permanent conservation done by Congress, not 
by fiat which can be undone by fiat; provide conservation in 
there in a permanent way.
    And, four, give areas to the states so they can develop 
destination spots that would improve the value of that land and 
the value of the economy of the state of Utah.
    And over that, for every 1 acre of economic development and 
recreation that we guarantee, there are 4 acres of conservation 
that are guaranteed in here, and yet there are voices out there 
that are saying, ``That is not enough.'' A four-to-one ratio is 
not good enough, which is amazing.
    One of the problems we have had in these 3 years is we are 
asking groups to get together who have never compromised 
before. There are certain groups that are distrustful. I have 
grazers out there that realize what has happened to them, 
especially in Grand Staircase-Escalante. They believe they have 
been deceived, and I think in many cases they are accurate.
    I have other special interest groups that have never 
actually compromised on anything and do not seem to be willing. 
In fact, I was amazed when one of the participants who is with 
us came to me one time and said, ``You know, I feel sorry for 
you, that both you and Chaffetz were very sincere in what you 
were attempting to do, but there are groups that have been part 
of this process that were never sincere about actually being 
there at the final end.''
    In fact, you have seen attack ads come on this process 
before a discussion draft was actually printed and handed out. 
That misinformation from those original attacks continues on, 
and you have heard it again here today.
    There are shrill voices out there realizing that if we 
actually bring finality in this issue, they will be out of 
work. There are shrill voices out there that are not trying to 
find a compromise and a solution, let alone a consensus.
    There is a song in ``Hamilton.'' I do not know whether it 
is sung by Jefferson or Madison because I cannot afford a 
ticket, but they are talking about Alexander Hamilton's 
relationship with George Washington, and the phrase is, ``It 
must be nice, it must be nice to have Washington on your 
side.''
    Unfortunately, there are some environmental groups that are 
out there that think it is really nice to have Washington on 
your side, and rather than sit down in good faith and actually 
negotiate something, they can run back here to Washington and 
see if they can get a sweetheart deal worked out. Neil, you are 
still part of the problem.
    So, here is where we are. In addition to those shrill 
voices that you will hear, you are also going to hear voices of 
reason, voices that want a solution, voices that want to end 
the internal litigation, the time, and the cost of litigation. 
So, to all of the attorneys in here, I apologize, but you are 
simply not worth it. There has to be a better way. There has to 
be a better solution.
    With that, Mr. Chairman, I would also ask unanimous consent 
to introduce into the record as part of my testimony an article 
that appeared in one of the reputable newspapers in the state 
of Utah which tried to take a balanced approach at the issue of 
Bears Ears and the funding source of Bears Ears from both 
sides, the side that we are trying to do with the PLI and the 
side that is trying to get a national monument.
    I would ask unanimous consent to have that entered into the 
record as well.
    Mr. McClintock. Without objection.

    [The information follows:]
Big money, environmentalists and the Bears Ears story

By Amy Joi O'Donoghue

Published: Aug. 4, 2016; Updated: Aug. 26, 2016

SALT LAKE CITY--In October 2014, a group of people sat around a table 
and discussed their campaign to bring a monument designation to 
southeast Utah for the region they called Bears Ears.

This wasn't a group of Native American tribal leaders from the Four 
Corners, but board members from an increasingly successful conservation 
organization who met in San Francisco to discuss, among other things, 
if it was wise to ``hitch our success to the Navajo.''

Many Utah Navajo are against a monument designation for Bears Ears, but 
the out-of-state tribal leaders behind the Bears Ears Inter-Tribal 
Coalition who support it insist the effort is one that is locally 
driven, locally supported and grass-roots in nature.

``None of the drivers of this are coming from the environmental 
community. It is purely Native American led. This is a Native American 
led effort. Any suggestion otherwise is not true,'' said Gavin Noyes, 
the executive director of Utah Dine Bikeyah, a nonprofit, Salt Lake 
City organization that works to protect indigenous lands for future 
generations.

But the campaign is fueled in part with $20 million in donations from 
two key philanthropic foundations headquartered in California--the 
Hewlett and Packard foundations--that cite environmental protections as 
a key focus for the grants they award.

Both foundations directed grants to groups like The Wilderness Society 
for the Bears Ears campaign, or for Colorado Plateau protections to the 
Grand Canyon Trust or to Round River Conservation Studies, of which 
Noyes served as director.

In mid-July, the Leonardo DiCaprio Foundation announced its biggest 
ever round of grants for environmental causes--some $15.6 million--with 
some of that going to the Bears Ears campaign via Utah Dine Bikeyah.

Regina Lopez-Whiteskunk, councilwoman for the Ute Mountain Tribe and 
co-chairwoman of the Bears Ears Inter-Tribal Coalition, said it is an 
insult to Native Americans for people to accuse them of being 
influenced by special interest groups.

``It is absolutely, really absurd to say that. It is an insult to say 
that. (These groups) serve a good purpose for research and support,'' 
she said.

Another monument supporter, Utah Dine Bikeyah's board chairman Willie 
Grayeyes, said much of that support is with technology.

``They know how to produce mass communications and do social media. We 
don't do social media. That is why we utilize their skills and 
connections. People say we are being paid under the table. We are not 
being paid and are not on salary.''

Byron Clarke, vice president of the Navajo community group Blue 
Mountain Dine and a member of the Aneth Chapter of the Navajo Nation, 
does not support a monument designation and said he's bothered by the 
implications from the San Francisco meeting of the Conservation Lands 
Foundation.

``The whole tone of it seems like the tribes are generally being used 
as pawns for the environmental groups to get what they really want,'' 
Clarke said. ``They are being played. It is somewhat insulting.''
Cedar Mesa
In the 2014 meeting, board members discussed the progress of the 
``Cedar Mesa campaign,'' which is the Bears Ears area, with chairman Ed 
Norton inquiring about the dynamics of the tribes and how they were 
working together.

``There have been some bumps in the road, but progress is being made to 
gain support from multiple tribes for protection of the Cedar Mesa 
region,'' the minutes of the meeting read.

The minutes, too, acknowledge that the Obama administration had more 
interest in Cedar Mesa than the Greater Canyonlands proposed monument 
because of tribal leadership.

Calls by environmental groups for the Greater Canyonlands monument 
designation have all but dimmed. From 2012 to 2014, there was a flurry 
of activity, with repeated urgings by groups to the White House for 
monument protection and a letter of support issued by 14 U.S. senators. 
The focus then apparently shifted.

In the board meeting, Norton questioned if the group was ``hitching our 
success to the Navajo and if so what would happen if we separate from 
them or disagree with them. Without the support of the Navajo Nation, 
the White House probably would not act; currently we are relying on the 
success of our Navajo partners,'' the minutes read.

The minutes also indicate the local campaign ``agreed to the name Bears 
Ears to move away from a Navajo name,'' and it became the area and name 
to push.

Brian O'Donnell, executive director of the Conservation Lands 
Foundation, said the organization has sought protections for Cedar Mesa 
since its founding nearly 10 years ago.

``Instead of pushing our Cedar Mesa proposal, we decided it was more 
important to support theirs,'' he said.

O'Donnell said the Navajo leaders were already working on ways to 
protect the Bears Ears region and the meeting was a discussion of other 
tribes' support of the effort.

``That was a report on how the Navajo was doing with other tribes,'' he 
said. ``I am frustrated by the continued accusations which imply the 
tribes can't come up with their own proposal, which is frankly 
insulting.''

With discussion that detailed an upcoming meeting between foundation 
staff and the then-director of the White House Council on Environmental 
Quality (tasked with vetting monument proposals) the minutes describe 
the group's access--and challenges--associated with top Interior 
Department officials, including Secretary Sally Jewell.

``She is not being a strong advocate for the Antiquities Act, but 
continues to show gradual improvement. With strong leadership from the 
White House, this has become less of a roadblock,'' the minutes read. 
The Antiquities Act allows the president of the United States to 
designate national monuments at his discretion.
Gaining access
The effort made to increase access to top Interior Department officials 
appears to have worked.

Both the Conservation Lands Foundation and The Wilderness Society had 
staffers who accompanied Jewell on a leg of her ``listening tour'' last 
month in Grand and San Juan counties and the Bears Ears region.

Jewell also met with San Juan County commissioners--who are adamantly 
opposed to the monument designation--but commission member Bruce Adams 
said they were not invited to tag along on any field visits in their 
county.

The trip also included top staffers from the offices of Reps. Jason 
Chaffetz and Rob Bishop, two Utah Republicans who are pushing passage 
of a massive public lands bill they say will provide adequate 
protections for the region.

The compromise measure, released last month, is roundly criticized by 
environmental groups that say it does not go far enough to protect 
natural resources.

Yet even as the crafting of the public lands bill was ramping up with 
more than 1,000 meetings across the state involving multiple groups 
like Native Americans, environmental organizations and county 
commissions, the push for a monument designation started down an 
alternative path trod by players still at the negotiating table.

Board members of Utah Dine Bikeyah expressed frustration at the 
planning process to San Juan County commissioners in a letter in 2013, 
noting their work with Round River Conservation Studies was providing 
them with the ``research, advice and information we desire in a 
professional manner.''

At that time, Noyes had yet to become Utah Dine Bikeyah executive 
director and was still at Round Rivers, and Grayeyes, Utah Dine 
Bikeyah's board chairman, complained that San Juan County leaders were 
not taking their efforts seriously.

``The county's persistence in challenging RRCS' role is unsettling and 
threatens our ability to move forward,'' Grayeyes wrote.

Adams said Utah Dine Bikeyah has been untruthful about being cut out 
of the public lands bill, and instead bolted from talks when 
commissioners weren't 100 percent on board with their proposal and 
leaders questioned the depth of environmental groups' influence.
The coalition
On its website, the Bears Ears Inter-Tribal Coalition describes how the 
coalition was founded in July of 2015 by the leaders of five tribes who 
came together.

The coalition's formation, however, was written about months earlier in 
a rock climbing magazine, which listed Friends of Cedar Mesa, the 
Conservation Lands Foundation, the Grand Canyon Trust and Utah Dine 
Bikeyah as groups that had ``banded together.''

Josh Ewing's group, Friends of Cedar Mesa, was still in talks that same 
year with Chaffetz and Bishop over provisions in the yet-to-be unveiled 
public lands bill that promised the establishment of national 
conservation areas for the region--designations that differ from 
monument protections.

Ewing, however, registered the coalition's domain name in 2015 and is 
listed as its administrative contact. The Grand Canyon Trust notes on 
its website the voluntary assignment to create the map for the proposed 
Bears Ears monument and its Native American program manager sends out 
press releases for the coalition as the media contact.

Those close ties lead monument critics to question the authenticity of 
the movement.

``This is not a grass-roots Native American effort to protect sacred 
lands,'' said Blanding City Manager Jeremy Redd. ``This is an effort by 
environmental groups to get what they want. People feel like they are 
being run over by the money and the organization that these special 
interest groups have. Sadly, local people don't have that kind of money 
behind them.''

Redd added that the Utah portion of the Navajo nation, Native Americans 
who live off reservation in San Juan County and the Blue Mountain Dine 
are nearly ``across the board,'' opposed to the monument designation.

``The general consensus among local people is they feel the process has 
been co-opted by the environmental groups and special interest groups 
who want to use the power of the federal government to get their way.''

``The farther you get away from being local, the more you are 
influenced by special interest groups and the money they have,'' Redd 
said.
Common ground
Ewing said it is natural for Friends of Cedar Mesa to help the tribes 
because of the common goal of all entities to protect cultural 
resources in the region.

``Those who don't have common ground with the tribes and want to 
continue the status quo are trying to manufacture something that 
doesn't exist,'' he said. ``It is no secret we have worked to find 
common ground and we have common interests in protecting cultural 
resources.''

Support for a Bears Ears monument includes outdoor business leaders, 
who came together Thursday in a press conference at the Outdoor 
Retailer Show. In a packed room in downtown Salt Lake City, they 
outlined why 15 leading companies are in support of a national monument 
designation.

``It is a place that is absolutely iconic in the form of recreational 
opportunities that are available such as climbing, hiking and water 
sports. It is an incredible treasure in the state of Utah,'' said Hans 
Cole of Patagonia. ``As an industry we rely on these protected places, 
and so for us it is an economic driver. But it is also deeply personal 
because of the landscape.''

Carlton Bowekaty, a Zuni tribal councilman from New Mexico, was at the 
Bears Ears meadows gathering in July, addressing Jewell on the need for 
protections in the area.

Later, he dismissed the notion that his people had been overly 
influenced by environmental groups.

``We rely on them for support, but if I felt like it was not something 
I could personally support, I would not bring it to the Zuni people.'' 
Bowekaty said.

But Clarke said most of the tribal leaders who visited Bears Ears for 
the Jewell meeting had probably never been there before and likely will 
not be back again.

``The more distant you are as a Navajo and tribal member the more 
likely you are to support the monument because you view it as an 
abstraction or concept or theory of tribal sovereignty,'' he said. 
``The closer you get to the monument, the more likely you are to view 
it as land that can and should be used properly.''

The Conservation Lands Foundation boasts on its website that the 
marathon listening meeting in Bluff attended by more than 1,500 people 
for Jewell was an ``incredible success,'' with huge showings from their 
Friends Grassroots Network that includes multiple Colorado-based 
organizations.

Supporters of monument designations sported blue T-shirts to draw 
attention to themselves at the event designed for Jewell to hear the 
issues surrounding the monument debate.

``Secretary Jewell, you came to Utah seeking local input. 
Unfortunately, what you saw and what you heard was theater staged by 
radical environmentalist outsiders intent on smothering local voices. 
This wasn't local grass roots. This was Astroturf,'' blogged Matthew 
Anderson, the Sutherland Institute's policy analyst for the Coalition 
for Self Government in the West.

Chaffetz said he has no doubt tribal leaders are being influenced by 
environmental groups seeking monument designation.

``I sat with the president of the Navajo Nation last August and he had 
no idea what Bears Ears was or where it was,'' he said.

Clarke wonders at what he says is a contradiction inherent in the 
monument designation.

``Everybody who came out here says it's beautiful, it's wonderful and 
pristine and we want to keep it that way. I say `thank you,` because we 
have been taking care of it the last 100 years,'' he said.

Monument opponents, he said, are characterized as extreme conservatives 
who don't care about the land.

Clarke said he doesn't believe tribal officials who support a monument 
designation could name the landmarks at Bears Ears or know if wood 
gathering is good at places like Babylon Flat, Duck Lake, Little Dry 
Mesa or Sweet Alice Springs.

``I'd be met with blank faces. The people who came here from a distance 
and will return to a distance had to GPS the Bears Ears to get there. 
I've never had to use GPS out there,'' he said. ``Their idea of 
protection is to essentially make it famous. How is making it famous 
and putting it on the map for careless visitors protect it.''

                                 ______
                                 

    Mr. Bishop. With that, I yield back, glad though that as 
this circus begins, that we are going to hear from my cohort 
down there, Mr. Chaffetz, who is a master at the art of circus. 
He has mastered the high wire act perfectly and will be a 
perfect solution to this process.
    I yield back.
    Mr. McClintock. Thank you.
    Without objection, I will now yield to the master of the 
high wire, Mr. Chaffetz.

   STATEMENT OF THE HON. JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. There is this great place in Bears Ears where 
we can put this high wire. I am just teasing.
    Thank you for the time. I do appreciate it, and I really do 
appreciate the leadership of Congressman Bishop.
    We have tried from our heart of hearts to develop a 
bipartisan and balanced approach to this solution. The easiest 
thing for me to do politically is just to say, ``to heck with 
the Federal Government,'' because that is what I really do feel 
in my heart, but I also know that a viable, long-term solution 
requires a bipartisan solution.
    We have to develop something and the place that we turn to 
do that is to look to the local communities. What you see in 
Rebecca Benally, the Commissioner in San Juan County, is a 
registered Democrat who at the beginning of this did not start 
as a fan of the potential process, but ultimately came to this 
conclusion that the Public Lands Initiative is the viable 
solution.
    We have had more than 1,200 meetings. So, as you look at 
this option, the arrogance of a national monument is offensive. 
It is good if it goes our way. There is only one bipartisan 
suggestion that is now encompassed in a bill, and that is the 
Public Lands Initiative.
    For all of the lip service the Democrats give to 
``bipartisan'' and ``meeting'' and ``we want to accomplish 
this,'' it seems to be their way or no way. We have bent over 
backwards to accommodate as much as we possibly can. There are 
people that are opposed to certain things, there are people 
that are in favor of certain things, but there is but one 
option if you want a bipartisan solution to this, and that is 
the Public Lands Initiative.
    It would be entirely arrogant and offensive to a lot of 
people, people who have lived there for generations, to have a 
President who has never been there and will never go there 
unilaterally change the designation on millions of acres, 
change their lives forever.
    Most of us on this panel will never even visit there, so 
what we are trying to do as members is develop a local 
solution. We have 29 counties in Utah and we are dealing with 
7, just a handful. Now, they are big; a lot of these are bigger 
than states.
    But let the locally-driven process prevail. It is done in a 
bipartisan way. The locally-elected officials do not support a 
national monument, but they do support, by and large, this 
Public Lands Initiative. So that is what we are asking for, 
that consideration.
    I would hope that you would give deference to those that 
represent this area who want to do best for their constituents, 
just as you would want in your own districts. And we are not 
doing it unilaterally. We are not just blowing past everybody 
here. We are doing it in an open, transparent way with 1,200 
meetings, years of work, bipartisan in its approach, locally-
elected officials on both sides of the aisle supporting it, and 
a ratio of conservation compared to economic development that 
is unprecedented.
    As I conclude here, I would like unanimous consent to enter 
into the record a September 9, 2016 letter we have received 
from the White Mesa, Utah part of the Ute Mountain Ute Tribe. I 
would like to enter that into the record if that is 
appropriate.
    Mr. McClintock. Without objection.

    [The information follows:]
                                                  September 9, 2016

    Please hear our voices from White Mesa, Utah, part of the Ute 
Mountain Ute Tribe.

    We are the people who have originated and also are descendants of 
the Posey Band of Utes of San Juan County, Utah.

    The Allen Canyon allotment lands located close to the Bears Ears 
Mountain was given to the White Mesa community members through or by 
inheritance from the original Posey Band of Utes of San Juan County.

    The Posey Band fought the government to keep the allotted lands 
years ago and won. And to this day, the elders with their families 
travel to Allen Canyon to gather willows for basket making; picking 
herbs; hunting deer, elk, to provide food for their families through 
the winter months; also hauling wood for cooking and warming their 
homes; cutting of cedar trees for the annual Bear Dance on Labor Day 
Weekend; and the gathering of sage for medicine for ceremonial 
purposes.

    One elder said they left Allen Canyon to live in White Mesa so that 
Allen Canyon allotment lands will remain sacred and will always furnish 
their needs through generations to come.

    There are two cemetery or burial sites in Allen Canyon and the 
people bury their loved ones at these cemeteries to this day. For this 
reason, we say NO! Ka'ch to Monument--we want to be able to enter and 
leave whenever we want to our sacred allotment lands and continue to 
care for it as our ancestors did years ago.

    The teaching of the past to the young Ute Mountain Utes of White 
Mesa is very sacred and valuable, understanding their genealogy and 
history which ties them to the allotment lands of Allen Canyon is 
priceless. We know and understand how much to take from the land, we 
give tobacco to Mother Earth for her continuous providing of our 
traditional needs, it will forever be acknowledged through prayers by 
the Posey Band descendants of White Mesa, Utah.

            Sincerely,

                                           Thomas L. Morris
                                          Loretta N. Morris
                                            Marissa Lameman
                                               Mariah Posey
                                             Lorlicia Posey
                                      Janelle Morris-Cowboy
                                            Leighton Cowboy
                                             Marticia Posey
                                              Belicia Posey

                                 ______
                                 

    Mr. Chaffetz. Thank you.
    I appreciate the consideration. There is a lot of work that 
has been done by a lot of people, and if the White House would 
come in earnest and work with us to develop a solution, I am 
sure we could get this bill to sail through in record time.
    Do not play the charade with us if all you want to do is 
just go with your environmentalist lobbyists, environmentalist 
friends, and screw the rest of Utah. That is not the way it 
should be. If it was the other way around, you would hate it, 
and you should. It is arrogant, it is offensive, and it should 
not be tolerated in this Congress.
    I yield back.
    Mr. McClintock. Thank you.
    Are there any other opening statements?
    [No response.]
    Mr. McClintock. If none, we will proceed to our witnesses.
    Each witness' written testimony will appear in the hearing 
record. I would ask that you keep your oral testimony to 5 
minutes. That is for your protection because that is about the 
maximum attention span of a Member of Congress. After that 
elevator music begins playing in people's ears.
    To help you keep within those rails, we have a timing 
device. When you have the green light, you have 5 minutes. The 
yellow light will go off with a minute remaining, and with the 
red light, you have lost your audience, so you might as well 
quit.
    Thank you all for being here, and first I would like to 
recognize Ms. Rebecca Benally, the Commissioner for San Juan 
County, Utah, for 5 minutes.

 STATEMENT OF REBECCA BENALLY, COMMISSIONER, SAN JUAN COUNTY, 
                        MONTICELLO, UTAH

    Ms. Benally. Mr. Chairman, Ranking Members, and members of 
the subcommittee, we are here today to talk about the Utah 
Public Lands Initiative, the PLI. As a Navajo woman and the 
first to serve as a San Juan County Commissioner, I want to say 
that despite what others have said, the PLI has been a process 
that has included all San Juan County residents.
    And, mind you, San Juan County is the poorest county in the 
state of Utah. The PLI specifically benefits the grassroots 
residents of San Juan County. It will benefit the Utah Navajos 
with mineral rights on McCracken Mesa and will allow the White 
Mesa Utes continued access to their allotted lands and 
community cemetery. These are the descendants of the Posey 
Band.
    I became a Commissioner to represent my people and to 
protect the interests of my community. I consider it a sacred 
duty to speak on their behalf. This is why I am here today.
    My constituents are Utah Navajos who have historically been 
forgotten or bullied by the Federal Government and their own 
tribe. Now, so-called environmentalists and their corporate 
benefactors are adding their own chapter to this sad story, by 
using a few members of our community who are desperate for a 
paycheck to advance the agenda of outside interests.
    The Bears Ears National Monument campaign is a cynical, 
political stunt that, if successful, will deny grassroots Utah 
Navajos access to their sacred and spiritual grounds. 
Traditional Utah Navajos depend on that land for their 
necessities: to gather medicinal plants, firewood, pinon nuts, 
as well as to hunt and practice sacred ceremonies.
    Traditional Utah Navajo people are not conspiring with 
lawyers in boardrooms in Salt Lake City and San Francisco. 
Traditional Utah Navajo people are not collecting $20 million 
from corporations and actors to sponsor this toxic divide-and-
conquer campaign.
    Traditional Utah Navajo people are not magazine 
environmentalists, but are real stewards of the land whose 
interests will be destroyed by a Bears Ears National Monument. 
Grassroots Utah Navajo people do not support this effort to 
convert our sacred land into a Federal designation that will 
subjugate them to micromanagement by bureaucrats in Washington, 
DC.
    The Bears Ears National Monument supporters claim the 
Federal Government will allow us to have continued access to 
our sacred lands. ``Trust us,'' they say. In the interest of 
time, I will give you two reasons why we should not:
    Canyon de Chelly--since becoming a national monument, 
Canyon de Chelly has been raided by the National Park Service, 
who have removed over 300 sets of ancestral remains and 
cultural artifacts. The Navajo Nation has been tied up in 
lawsuits since the 1990s to regain custody of these sacred 
remains from the NPS because the Department of the Interior 
continues to defend their actions.
    Little Colorado River Valley--since becoming a national 
monument, Navajos have lost access to the Little Colorado River 
Valley. The national monument designation systematically 
eliminated Navajos from this land. Today, what was once a 
thriving community of hundreds of Navajos is a wasteland of 
abandoned homesteads, home only to a single Navajo elder woman 
whose house will revert to Federal ownership upon her death.

    Trusting the Federal Government, especially agencies within 
the Department of the Interior, has not worked well for the 
Navajo people. If history is our guide, we would be foolish to 
do so again and expect a different result. Two hundred years of 
broken promises and treaties should tell us all we need to 
know. I spent a day at the Native American Museum yesterday 
looking through all the treaties and, yes, they are broken time 
and time again.
    Honorable members of this committee, Native American 
support for the Bears Ears National Monument campaign is a 
hoax. I am here to help you unmask it. I beg this Congress, 
this Administration, and the next President of the United 
States to stop what has become the most cynical divide-and-
conquer campaign waged by outside interests against Navajo 
people since the Navajo-Hopi relocation.
    I support the PLI process. It has unified the residents of 
San Juan County: the Navajo people, White Mesa Utes, San Juan 
Southern Paiutes, the Anglos, the Hispanics, and others. We are 
of one mind and one voice when we say no national monument, and 
we support the continuance of the PLI process. It is a people's 
process, and it is for people.
    Thank you.
    [The prepared statement of Ms. Benally follows:]
  Prepared Statement of Rebecca Benally, San Juan County Commissioner
    We are here today to talk about the Utah Public Lands Initiative 
Act, the PLI.
    As a Dine woman, a Navajo woman, and the first to ever serve as a 
San Juan County Commissioner I want to say, that despite what others 
have said, the PLI has been a process that has included all San Juan 
County residents.
    The PLI specifically benefits the grassroots residents of San Juan 
County. It benefits the Utah Navajos with mineral rights on McCracken 
Mesa, and allows the White Mesa Utes the continued use of their Alloted 
Lands and community cemetery.
    I became a Commissioner to represent my people, to protect the 
interests of my community. I consider it a sacred duty to speak on 
their behalf. That is why I am here today.
    My constituents are Utah Navajos who have historically been 
forgotten or bullied by both the Federal Government and their own 
tribe. Now so-called environmentalists and their corporate benefactors 
are adding their own chapter to this sad story, using a few members of 
our community who are desperate for a paycheck to advance the agenda of 
outside interests.
    Bears Ears National Monument campaign is a cynical political stunt 
that, if successful, will deny grassroots Utah Navajos access to their 
sacred and spiritual grounds.
    Traditional Utah Navajo people depend on that land for their 
necessities of life: to gather medicinal plants, fire wood, pinon nuts, 
as well as to hunt and practice sacred ceremonies.
    Traditional Utah Navajo people are not conspiring with lawyers in 
boardrooms in Salt Lake City and San Francisco. Traditional Utah Navajo 
people are not collecting $20 million from the Hewlett and Packard 
foundations and Leonardo De Caprio to sponsor this toxic divide-and-
conquer campaign. Traditional Utah Navajo people are not magazine 
environmentalists but are real stewards of the land whose interests 
will be destroyed by a Bears Ears National Monument.
    Grassroots Utah Navajo people do not support this effort to convert 
our sacred lands into a Federal designation that will subjugate them to 
micromanagement by bureaucrats in Washington, DC.
    The Bears Ears Monument men claim the Federal Government will allow 
us to have continued access to our sacred lands. ``Trust us,'' they 
say. In the interest of time, I will give you just two reasons why we 
should not:

  1.  Canyon de Chelly: Since becoming a national monument, Canyon de 
            Chelly has been raided by the National Park Service (NPS). 
            NPS has removed more than 300 sets of ancestral remains and 
            cultural artifacts. The Navajo Nation has been tied up in a 
            lawsuit since the 1990s to regain custody of those sacred 
            remains from NPS because the Department of the Interior 
            continues to defend that action.

  2.  Little Colorado River Valley: Since becoming the Wupatki National 
            Monument, Navajos lost access to the Little Colorado River 
            Valley. After generations of herding sheep there, Navajo 
            were told by NPS that environmental concerns took priority 
            over Native access to lands that Navajo families had 
            managed since the 1870s. The National Monument designation 
            systematically eliminated Navajos from this land. Today, 
            what was once a thriving community of hundreds of Navajo is 
            a wasteland of abandoned homesteads, home only to a single 
            Navajo elder woman whose house will revert to Federal 
            ownership upon her death.

    Trusting the Federal Government, especially agencies within the 
Department of the Interior, has not worked out well for the Navajo 
people. If history is our guide, we would be crazy to do so again and 
expect a different result. Two hundred years of broken promises should 
tells us all we need to know.
    Honorable members of this committee, Native American support for 
the Bears Ears Monument campaign is a sham. I am here to help you 
unmask it. I beg this Congress, this Administration, and the next 
President of the United States to stop what has become the most cynical 
divide-and-conquer campaign waged by outside interests against Navajo 
people since the Navajo-Hopi relocation.
    I support the PLI. It has unified the residents of San Juan County: 
the Navajo, White Mesa Utes, San Juan Paiutes, Anglo, Hispanic, etc. We 
are of one mind and one voice when we say ``No National Monument.''

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much for your 
testimony.
    The Chair now recognizes Mr. Neil Kornze, the Director of 
the Bureau of Land Management in Washington, DC, for 5 minutes.

STATEMENT OF NEIL KORNZE, DIRECTOR, BUREAU OF LAND MANAGEMENT, 
        U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Kornze. Mr. Chairman, all the Chairmen here, Ranking 
Members, other members of the committee, thank you for your 
time today.
    The ``Utah Public Lands Initiative Act'' provides direction 
for the future management and use of public lands across broad 
areas of eastern Utah. This is a vast undertaking, and I 
commend Chairman Bishop and Chairman Chaffetz for the time and 
commitment that they and their staffs have given to this 
process.
    Unfortunately, the Department cannot support the bill as 
written. Eastern Utah has been blessed with spectacular natural 
beauty, important ancient Native American ruins and cultural 
sites, and world class outdoor recreation destinations. The 
public lands in this area are also used for mining, grazing, 
and energy development.
    In July, Secretary Jewell and I had the opportunity to 
visit eastern Utah, along with several staff from the Utah 
congressional delegation and a member of the governor's staff. 
At the San Rafael Swell, we joined Emery County Commissioners 
to see Utah's Little Grand Canyon, and it is spectacular.
    We visited the challenging cliffs at Indian Creek, which 
are known to rock climbers around the world. In the Bears Ears 
area, we hiked with your staff deep into canyons that revealed 
rock art and incredible ancient cliff dwellings.
    In many of these areas, we found the ground littered with 
pieces of pottery that were left there by former inhabitants 
many hundreds of years ago.
    Many tribes have a long and rich history in this area, 
including the Hopi Tribe, the Navajo Nation, the Ute Mountain 
Utes, the Pueblo of Zuni, and the Ute Indian Tribe. These lands 
continue to hold special significance for them today.
    Throughout our visit through eastern Utah we heard a strong 
common theme, one that is embodied in parts of this 
legislation. There is a broad consensus that many areas deserve 
special attention, conservation, and protection.
    Now, moving to some of the details of the legislation, this 
bill would establish a significant number of conservation units 
through eastern Utah. Unfortunately, the bill strays 
significantly from the standard, time-tested management 
language that this Congress and other Congresses have used for 
decades when it protects public lands.
    We are very concerned that the areas in focus would be left 
without the real protection that they deserve. For example, we 
applaud the sponsors' choice to designate a variety of 
spectacular landscapes as National Conservation Areas, 
including the San Rafael Swell, Indian Creek, and Bears Ears. 
These areas contain some of the most significant cultural and 
natural resources anywhere in the West.
    However, the management language in the bill undermines the 
BLM's ability to actually protect these special areas.
    We also strongly believe that the tribes deserve and must 
have a meaningful seat at the table in managing the Bears Ears 
area.
    Division B of the bill proposes significant land exchanges 
between the BLM and the state of Utah, provides for the 
transfer of lands to local communities, and would require the 
disposal of large areas of public lands. While we can support 
many of these goals, the Department continues to believe that 
there are more efficient and cost-effective ways to reach the 
same end.
    As we have repeatedly testified, the reauthorization of the 
Federal Land Transaction Facilitation Act, FLTFA, would be a 
better answer in many of these cases.
    H.R. 5780 would also transfer management of oil and gas 
activities on Federal lands in six counties to the state of 
Utah and would seriously limit the BLM's management of grazing, 
which could prevent us from making reasonable adjustments when 
they are needed.
    The Department opposes these provisions and draws the 
subcommittee's attention to the BLM's long history of safe and 
effective management of both energy and grazing on the public 
lands.
    We greatly appreciate the work of Chairman Bishop and 
Chairman Chaffetz to address these challenging land issues. The 
Department supports many of the goals of this bill, although we 
cannot support it in its current form.
    The state of Utah has been blessed with some of the most 
remarkable areas in the country. I share the Chairman's 
commitment to conserving these areas for future generations. My 
written statement provides much greater detail on the 
challenges that are still before us, and I look forward to 
continuing to work with the sponsors and their staffs.
    We can accomplish a great deal by working together.
    Thank you.
    [The prepared statement of Mr. Kornze follows:]
Prepared Statement of Neil Kornze, Director, Bureau of Land Management, 
                    U.S. Department of the Interior
    Thank you for the opportunity to testify on H.R. 5780, the Utah 
Public Lands Initiative Act, which is a sweeping bill that provides 
direction for the future management and use of Federal lands within 
Summit, Uintah, Carbon, Emery, Grand, Duchesne, and San Juan Counties 
in eastern Utah. H.R. 5780 establishes numerous public land units that 
are somewhat similar to existing conservation designations, including 
41 wilderness areas, 11 National Conservation Areas (NCAs), 6 Special 
Management Areas (SMAs), a National Monument, approximately 357 miles 
of Wild and Scenic Rivers, an approximately 120-mile National Historic 
Trail, and an expansion of Arches National Park on lands currently 
managed by the Bureau of Land Management (BLM), National Park Service 
(NPS), and U.S. Forest Service (USFS). The bill also proposes a large-
scale land exchange with the state of Utah's School and Institutional 
Trust Lands Administration (SITLA), directs a number of land 
conveyances, requires the sale of some public lands, designates 13 
recreation zones, and establishes an off-highway vehicle (OHV) trail. 
Finally, H.R. 5780 includes several land management provisions that 
would transfer the BLM's permitting authority for all energy 
development to the state of Utah, require that grazing continue at 
current permitted levels in perpetuity, restore grazing in areas where 
it has been reduced or eliminated for resource protection, and grant 
perpetual, no-cost rights-of-way for certain roads claimed by counties 
and the state of Utah.
    The Department of the Interior (Department) sincerely appreciates 
the sponsors' efforts to address a broad range of challenging resource 
and management issues in eastern Utah. Due to the length and complexity 
of the bill, this testimony will briefly summarize the views of the 
Department. While the Department supports many of the goals of H.R. 
5780, we have significant concerns with numerous provisions and are 
opposed to the bill as it is currently written. In particular, the 
Department opposes the nonstandard management language for many of the 
proposed conservation and special management designations, which are 
repeated throughout the bill and would result in significantly less 
protection than in other similarly designated areas. Additionally, the 
Department strongly opposes the unprecedented language transferring all 
energy development and permitting authority within the affected 
counties from the Federal Government to the state of Utah, proposed 
limits on the BLM's management of grazing, and the automatic granting 
of Revised Statute (R.S.) 2477 right-of-way claims that are currently 
subject to active litigation with no showing that they have satisfied 
applicable legal standards. A number of additional important concerns 
are detailed below. We defer to the U.S. Department of Agriculture 
regarding provisions in the bill concerning the lands and interests in 
lands under their administration.
                               background
    Eastern Utah is a land of spectacular natural beauty, important 
historical resources, and areas of special significance to a number of 
tribes. The lands managed by the BLM and NPS in this region range from 
rolling uplands and snow-capped peaks to free-flowing rivers and 
colorful red-rock canyons. This varied and magnificent terrain provides 
habitat for a variety of wildlife, including mule deer, pronghorn 
antelope, bison, and several sensitive bird and fish species. The 
southeastern portion of this area, in particular, also contains 
thousands of vulnerable cultural and archaeological sites, including 
well-preserved cliff dwellings and rock art. Home to premier recreation 
hubs like Moab, the public lands in eastern Utah provide popular 
destinations for outdoor enthusiasts, including off-highway vehicle 
users, hikers, mountain bikers, rock climbers, and hunters. Many of 
these public lands also provide opportunities for grazing, energy 
development, and other commercial activities.
      division a--conservation and special management designations
Wilderness
    Title I of Division A would designate 41 new wilderness areas on 
over 2.4 million acres of Federal land in Summit, Uintah, Carbon, 
Emery, Grand, Duchesne, and San Juan Counties in eastern Utah. The 
designations are on lands managed primarily by the BLM (over 1.56 
million acres), but also include lands managed by the NPS (over 469,000 
acres) and the USFS (over 119,000 acres). The BLM-managed lands that 
would be designated as wilderness by H.R. 5780 include areas of 
stunning beauty, secluded places offering opportunities for solitude, 
and important wildlife habitat. For example, the proposed Cedar Mesa 
Wilderness contains an extensive canyon system that features 
spectacular sandstone cliffs and pinnacles and an abundance of cliff 
dwellings and other archeological resources. This area's striking 
scenery provides an exceptional opportunity for primitive recreation, 
including hiking, photography, and horse packing. Similarly, the 
proposed Crack Canyon Wilderness includes colorful badlands of eroded 
soils, cliffs, and rock monuments, including fins which form a sawtooth 
sandstone ridge, and knobs, caves, and arches. Scenic, geologic, and 
archaeological features and wildlife habitat in this area are 
remarkable, and the narrow, twisting canyons offer outstanding 
opportunities for primitive recreation.
    We recognize the hard work of the sponsors and other members of the 
Utah delegation in seeking consensus on BLM and NPS wilderness 
designations and Wilderness Study Area (WSA) releases. We believe that 
the areas identified in the bill could be managed as wilderness. 
However, the Department is very concerned that the bill, as currently 
written, contains language that would prevent the effective management 
of these areas for their wilderness values. For example, Title I of 
Division A would permit motorized access within all of the proposed 
wilderness areas for the maintenance of future water infrastructure, a 
provision that is ambiguous and could be interpreted to permit broad 
manipulation of the hydrology of the landscape. The Department strongly 
opposes this troubling exception to the Wilderness Act of 1964. It is 
without precedent for BLM- and NPS-managed wildernesses, would 
undermine each agency's ability to protect, enhance, and maintain 
wilderness values and opportunities for the public, and is at odds with 
one of the core values associated with wilderness--to prohibit the use 
of motorized equipment. The Department notes that the Congressional 
Grazing Guidelines, outlined in Appendix A of the report accompanying 
H.R. 2570 of the 101st Congress and H.R. 5487 of the 96th Congress, 
already provide for a specific, generous management approach that has 
worked well for grazing within BLM-administered wilderness areas.
    Additionally, the bill omits essential, standard language requiring 
that any wildlife water development structures and facilities within 
the proposed wilderness areas enhance wilderness values and minimize 
their visual impacts. Moreover, Title I of Division A includes 
provisions requiring the BLM to maintain trail and fence lines within 
proposed wilderness and potentially eliminating the Secretary's 
discretion to permanently close a trail or remove a fence line for 
resource protection. The Department opposes this language, which would 
effectively pass the historic responsibility for maintenance of fences 
from the authorized grazing permittee to the BLM.
    In place of the problematic language on wildlife water 
developments, motorized access to water infrastructure, and trail and 
fence maintenance within the proposed wilderness areas, we urge the 
sponsors and the subcommittee to instead adopt the standard wilderness 
management language that has been used by Congress for decades, 
including in the successful Washington County, Utah, conservation bill 
included as part of the Omnibus Public Land Management Act of 2009 
(Public Law 111-11, Subtitle O). The Department would also like the 
opportunity to work with the sponsors and subcommittee on a number of 
additional amendments, including boundary adjustments for manageability 
and to eliminate overlapping or incompatible designations, time frames, 
and clarifications regarding outfitting and guide activities, mapping 
requirements, the jurisdictional coordination of wildfire management, 
and the role of the Utah Department of Agriculture in BLM grazing 
administration. In addition, we would like to work on language 
addressing legacy Primitive Area classifications for the Grand Gulch 
and Dark Canyon areas.
    Title I of Division A also proposes to release nearly 81,000 acres 
of BLM-managed land from WSA status. While the Department appreciates 
the use of standard WSA release language in this title, we believe that 
the Desolation Canyon and Jack Canyon WSAs contain such extraordinary 
scenic resources and recreational opportunities that protection of 
those areas is essential. Together with Turtle Canyon, these areas 
represent the largest complex of unprotected WSAs in the lower 48 
states. The extremely rugged terrain of the Desolation Canyon and Jack 
Canyon WSAs contributes to their scenic quality, remoteness, and 
habitat for species such as bighorn sheep and raptors, which are 
sensitive to development. Moreover, these WSAs have an extensive system 
of deep canyons and feature arches, pinnacles, and other erosional 
elements not known to occur elsewhere. In addition, the diversity of 
wildlife within these areas is unusual compared with the public lands 
surrounding them. We would like the opportunity to work with the 
sponsors and the subcommittee on language and boundaries that would 
ensure the continued protection of outstanding resources in these 
areas.
    Finally, the Department opposes section 110 of this title, which 
could be construed to prohibit the designation of Class I airsheds 
under the Clean Air Act for lands proposed as NPS-administered 
wilderness in the bill. All NPS-administered wilderness areas are 
currently managed as Class I airsheds, which means that the 
wildernesses proposed by the bill would be managed to a lesser 
standard. The Department is particularly concerned that this language 
would eliminate or reduce the existing Class I airsheds associated with 
both Canyonlands National Park and Arches National Park.
National Conservation Areas (NCAs)
    Title II of Division A designates 11 new NCAs covering more than 
1.35 million acres on BLM-managed lands. The spectacular and diverse 
landscapes of the BLM's National Conservation Lands currently include 
21 NCAs nationwide. All of these designations have certain critical 
elements in common, which have consistently been followed in a 
bipartisan manner during the Clinton, George W. Bush, and Obama 
administrations. These elements include withdrawal from the public 
land, mining, and mineral leasing laws; limiting off-highway vehicles 
to roads and trails designated for their use; language that charges the 
Secretary of the Interior with allowing only those uses that further 
the conservation purposes for which the NCA is established; and 
language ensuring that lands within the NCA are managed at a higher 
level of conservation than lands outside of such designations.
    The management language for all 11 NCAs proposed by this title does 
not comport with these standards and repeatedly makes exceptions that 
would conflict with the primary objective of conserving the significant 
natural and cultural resources within the proposed areas. For example, 
the purposes for which the NCAs are to be established are overly broad. 
As a result, the BLM would have to manage these areas for purposes that 
may prevent effective resource protection. The Department urges the 
sponsors to clearly define the specific resources, objects, and values 
to be protected for each of the proposed NCAs consistent with the 
purposes for which the BLM's National Conservation Lands were 
established. The Department opposes language in the bill requiring that 
the BLM ``recognize and maintain historic uses'' of the NCAs because 
such uses may be incompatible with the protection of resources for 
which these areas are to be designated.
    Title II of Division A also includes unacceptable grazing language 
that would make it more difficult to achieve rangeland health standards 
in the proposed NCAs. In fact, this language would create lower 
standards for grazing in the proposed NCAs than it would on public 
rangelands that are outside of the proposed conservation units. The 
Department opposes this grazing language, which not only represents a 
significant deviation from all other NCA designation laws, but also 
from the management of grazing on all other public lands. As with the 
proposed wilderness designations, the Department strongly recommends 
that the sponsors and subcommittee adopt the standard NCA management 
language that Congress has used for decades, including in the 
Washington County, Utah, provisions of Public Law 111-11.
    For the sake of efficient management, the Department also 
encourages the sponsors to consider designating a single NCA for the 
lands surrounding the Dinosaur National Monument, which would include 
the bill's proposed Beach Draw, Diamond Mountain, Docs Valley, Stone 
Bridge Draw, and Stuntz Draw NCAs and would consist of approximately 
44,000 acres of BLM-managed public lands. Manageability and interagency 
coordination would be improved by combining these five geographically 
clustered NCAs into a single NCA managed under a single management 
plan.
    The San Rafael Swell, a portion of which is proposed for NCA 
designation under the bill, is one of the most spectacular areas 
managed by the BLM. The terrain of this area varies from sheer cliffs 
and dazzling canyons to more gently carved badlands broken by shallow 
washes. The fins and folds of the San Rafael Reef jut through the 
southeast side of the area and feature dramatic cliffs, pinnacles, the 
knobs of Goblin Valley, twisted canyons, and valleys of stunning 
colors. Few canyons can compare to the entrenched, narrow gorges of the 
Black Boxes of the San Rafael River, which twists and turns through the 
San Rafael Swell. The Department recognizes and applauds the vision of 
the sponsors to protect this special area. We believe that this vision 
would be best reflected through the designation of a single NCA 
encompassing the approximately 750,000 acres proposed as the San Rafael 
and Muddy Creek NCAs, the proposed Goblin Valley Cooperative Management 
Area, as well as other adjacent lands that contain similar resources, 
such as the currently excluded area between the proposed Cedar Mountain 
and Muddy Creek Wildernesses. Again, a single management plan for this 
area, consistent with the goals and purposes for which NCAs are 
designated, would significantly enhance manageability.
    Similarly, the Department notes that the proposed Labyrinth Canyon 
and San Rafael River NCAs are separated only by the Green River. We 
believe that manageability for these areas would be improved by 
combining them into a single NCA under a single management plan.
    Finally, the Department would like the opportunity to work with the 
sponsors on a number of additional amendments to this title, including 
boundary modifications for manageability, time frames, language 
addressing potentially incompatible overlapping designations, and 
clarifications and other edits regarding management plan development, 
mapping requirements, WSA release, and travel management planning.
Special Management Areas
    Title IV of Division A proposes four new Special Management Area 
(SMA) designations on approximately 108,200 acres of BLM-managed public 
lands for the Desolation Canyon, Nine Mile Canyon, White River, and 
Book Cliffs areas, and two other SMAs on approximately 27,400 acres of 
national forest land. Under the bill, each of these BLM-managed SMAs 
would be open to oil and gas development at the Secretary's discretion 
and subject to surface occupancy restrictions. The management guidance 
that comes with these new designations does not seem to differ greatly 
from the BLM's existing authorities and management practices. As a 
result, we do not see a reason to create this new category of public 
land designations. However, we recognize the significant wildlife, 
cultural, and other values contained in these areas and would like to 
work with the sponsors and subcommittee on provisions that would ensure 
meaningful protection for these areas.
Arches National Park Expansion
    Title V of Division A adds approximately 19,000 acres to Arches 
National Park. The Department supports this expansion because 
management of these lands in accordance with the park's General 
Management Plan would enhance visitor enjoyment and protect 
irreplaceable resources, including paleontological resources. The 
eastern portion of the expansion would contribute significantly to the 
ability of the NPS to protect principal views from key points within 
the park. The small southern addition, while within the exterior park 
boundary, is a BLM Recreation and Public Purposes Act (R&PP Act) lease 
held by Grand County. The existing arrangement works well; however, NPS 
ownership of this area may require changes to current management and 
recreational use. The Department would like to work with the sponsors 
and the subcommittee on additional amendments to this title, including 
boundary adjustments to address these management challenges.
Jurassic National Monument
    The BLM currently manages the Cleveland-Lloyd Dinosaur Quarry in 
Emery County, Utah, to protect and conserve its unique paleontological 
resources, which includes the densest concentration of Jurassic 
resources in the world. Title VI of Division A designates this area as 
an 867-acre National Monument, and the Department applauds the sponsors 
for putting forward a vision to permanently protect this special place. 
To ensure adequate conservation of the world-class paleontological 
resources of this area, the Department would like to work with the 
sponsors on amendments to ensure consistency with other National 
Monument designation laws, language limiting motorized and mechanized 
vehicles to roads and trails designated for their use, time frames, 
management plan development, mapping requirements, and clarifications 
that the BLM would manage the proposed National Monument.
Wild and Scenic Rivers
    Title VII of Division A appears to designate approximately 357 
miles of rivers on lands managed by the BLM and NPS as wild, scenic, or 
recreational rivers for protection under the Wild and Scenic Rivers 
Act. The Department supports the designation of the proposed river 
segments, but we strongly encourage the sponsors and subcommittee to 
adopt the standard designation language that has been used by Congress 
for decades. In addition, we would like to work on time frames, mapping 
requirements, and technical amendments to this title for consistency 
with the Wild and Scenic Rivers Act, including language identifying 
beginning and ending points for individual river segments, ensuring 
standard protective corridors, and enhancing manageability.
          division b--land management and economic development
School Trust Land Consolidations
    Title I of Division B proposes the exchange of approximately 
328,000 acres of Federal land and approximately 5,700 acres of Federal 
mineral estate to the state of Utah, and approximately 288,000 acres of 
state land and approximately 8,000 acres of state mineral estate to the 
United States. This title, however, is unacceptable as currently 
drafted as it does not include public interest determinations according 
to standard practice under FLPMA, complete environmental and cultural 
review, standard appraisal language, or equalization of values--four 
provisions that are critical on any land exchange because they provide 
for public engagement and opportunities to consider mitigation for 
impacts to environmental and cultural resources, and to help ensure 
that unknown and unforeseen issues are not overlooked.
    While Congress has in the past determined that individual land 
exchanges are in the public interest, this generally occurs when the 
BLM has already had an opportunity to identify the parcels as 
potentially suitable for disposal through the land use planning 
process. Based on an initial review of the final legislative maps, it 
is not yet clear whether that is the case in this situation. In 
addition, some of the lands proposed for exchange out of Federal 
management in the bill contain sensitive cultural, paleontological, and 
natural resources and recreational uses, and active oil and gas leases. 
The BLM does not typically exchange such lands out of Federal ownership 
and seeks to ensure continued protection of these important resources. 
Moreover, the Department is concerned about the potential effects of 
the proposed exchange on valid existing rights and grandfathered uses. 
Therefore, the Department opposes the proposed exchange as currently 
written and urges the sponsors to adopt standard language regarding 
public interest determinations according to standard practice under 
FLPMA, complete NEPA and cultural review, appraisals, and equalization 
of values. The Department would also like to work with the sponsors on 
additional amendments, including potential boundary adjustments for 
manageability and to ensure protection of important resources, time 
frames, and language ensuring that royalties for potash and oil and gas 
are consistent with existing law. The Department also believes that 
Federal land should not be used to pay for the administrative costs of 
the exchange, and we would like to work with Congress to ensure that 
the BLM has the resources needed to implement this title. Additionally, 
the Department notes that the Book Cliffs roadless area mineral 
withdrawal provision is unclear as currently written, and we are unsure 
if it would achieve its intended purpose. We would like to work with 
the sponsors to clarify this language to ensure continued protection of 
the important wildlife habitat and natural resources of this area.
    Finally, the Department notes that section 103(g) of this title may 
threaten the Federal reserved water right for Arches National Park, 
which was negotiated and finalized by the state of Utah and the NPS a 
year ago to protect seeps, springs, and streams in the park. The Arches 
Federal reserved water right extends within the Entrada formation 
underneath a block of parcels to be exchanged west of Arches. The 
Department would like to work with the sponsors and subcommittee on 
language ensuring that the exchange does not adversely impact this 
important agreement.
Land Transfers, Conveyances, and Disposals
    Title II of Division B requires the conveyance, at no cost, of 
nearly 10,000 acres of BLM-managed lands to the state of Utah to expand 
the Goblin Valley State Park. It also requires that the BLM, at the 
state of Utah's request, enter into a cooperative agreement whereby 
approximately 153,000 acres of BLM-managed land surrounding the 
enlarged park would appear to be managed by the Utah State Parks and 
Recreation Division of the Department of Natural Resources.
    In the past, the Department has supported minor conveyances for the 
expansion or establishment of public parks in various western states. 
We would like the opportunity to work with the sponsors and 
subcommittee to address a number of concerns with the proposed Goblin 
Valley State Park conveyance, including boundaries, the presence of 
occupied endangered species habitat, conflicts with wild horse herd 
management areas and unpatented mining claims, and investments made in 
recent years by the BLM. The Department would also like to work with 
the sponsors on time frames and language ensuring consistency with the 
R&PP Act and other applicable laws. The Department also believes that 
legislation establishing a Cooperative Management Area (CMA) for the 
lands surrounding Goblin Valley State Park is unnecessary. The BLM has 
a long record of successfully using cooperative agreements for the 
management of public lands in Utah, such as the Sand Flats Recreation 
Area near Moab, without the need for implementing legislation.
    Title III of Division B would exchange approximately 13,300 acres 
of Federal land in Carbon County, Utah, to the state of Utah and 
approximately 15,000 acres of state land in Grand and San Juan 
Counties, Utah, to the United States for the purpose of creating the 
Price Canyon State Forest. The Department opposes this title as drafted 
because the exchange includes the BLM-managed Price Canyon Recreation 
Site, located just north of the cities of Helper and Price, Utah, which 
is popular with the public and has substantial recreation use. The BLM 
has invested more than $1 million in recent years to improve access and 
infrastructure for public use at this site. In addition, the exchange 
does not include public interest determinations under FLPMA, complete 
environmental and cultural review, standard appraisal language, or 
equalization of values. As discussed above, these elements are critical 
for successful land exchanges. The Department strongly encourages the 
sponsors to adopt standard language regarding public interest 
determinations under FLPMA, complete environmental and cultural review, 
appraisals, and equalization of values. The Department would also like 
to work with the sponsors on additional amendments, including boundary 
adjustments for manageability and to ensure protection of important 
resources, and time frames.
    Title V of Division B deals with long-standing encroachment and 
reservoir boundary issues on Bureau of Reclamation (BOR) managed lands 
at Scofield Reservoir. While the requirement to secure properties 
within the flood surcharge elevation at Scofield is constructive, the 
bill's language places long-term responsibility on the BOR to monitor 
and enforce these requirements, which could pose a significant 
budgetary impact. The Department continues to have concerns about the 
safety of the facility with the structures located in the surcharge 
space. Separately, section 503(d)(5)(C) places responsibility for 
administrative costs to the subject lands with Carbon County; BOR would 
implement this provision under the terms of a mutual agreement with the 
county. The Department continues to have concerns with the trust fund 
as indicated in earlier testimony, and we look forward to working with 
the subcommittee to further refine that provision.
    Title VI of Division B would transfer 20 parcels of public land--
encompassing approximately 18,000 acres--to various state and local 
governmental entities for a variety of purposes. As discussed above, 
the Department has previously supported legislated, no-cost public 
purpose conveyances if they meet standards under the R&PP Act and are 
determined to be appropriate for transfer out of Federal ownership. 
While many of these parcels may be appropriate for transfer if 
additional conditions are satisfied, others may not be for various 
reasons, including the presence of significant natural and cultural 
resources, lack of a well-defined public purpose, acreage inappropriate 
for the intended use, conflicts with wildernesses proposed by Title I 
of Division A, and conflicts with current uses such as recreation or 
mineral development. In addition, numerous parcels are encumbered by 
withdrawals for public water reserves, water supply, and power site 
reserves. The Department appreciates the sponsors' work to address 
concerns with other parcels proposed for transfer in earlier public 
discussion drafts, including the Sand Flats, Fantasy Canyon, and Dugout 
Ranch areas. The Department would like to work with the sponsors on 
additional amendments, boundary adjustments for manageability and 
protection of sensitive resources, time frames, mapping requirements, 
language ensuring consistency with the R&PP Act and NEPA, including the 
addition of standard reversionary clause provisions.
    Title VII of Division B would require the Secretary to dispose of 
approximately 5,400 acres of BLM-managed lands, subject to valid 
existing rights, within 2 years of enactment. While sale of some of 
these parcels may be appropriate if undertaken consistent with section 
203 of FLPMA (including environmental review, public participation, and 
appraisals), other parcels should remain in Federal ownership. We 
encourage the sponsors to consider an approach for land disposals 
similar to those outlined in the White Pine County Conservation, 
Recreation, and Development Act of 2006 (Public Law 109-432) and the 
Owyhee Public Land Management provisions of Public Law 111-11, and we 
would like to work with the sponsors on time frames and language 
ensuring consistency with FLPMA and NEPA, should disposal of some of 
these parcels be appropriate and consistent with the purposes of FLPMA.
Recreation and Trails
    Title VIII of Division B would designate 13 new recreation zones on 
approximately 414,500 acres of BLM-managed public lands. The Department 
notes that the BLM already manages all or major portions of the 
proposed zones as either Special Recreation Management Areas (SRMAs) or 
open OHV areas, which were established in the relevant land use plan 
through a public process. It is unclear how the designation of the 
proposed zones would differ from the existing administrative 
designations. Further discussion would be necessary to understand the 
purpose and need for the proposed zones.
    Additionally, Section 815 of this title would designate the Hole-
in-the-Rock Trail as a National Historic Trail under the National 
Trails System Act. This trail would traverse approximately 120 miles of 
BLM and NPS-managed lands. While the Department supports the 
designation of this trail as a National Historic Trail, we note that 
the route depicted on the legislative map accompanying the bill is very 
general. We would like to work with the sponsors to prepare an updated 
map depicting the exact location of the trail. Moreover, we are 
extremely concerned that portions of this trail, which would be 
designated to ``promote motorized and non-motorized uses,'' would 
bisect the proposed Cedar Mesa Wilderness. The Department strongly 
opposes such a provision on motorized and mechanized use within 
wilderness as it is counter to the purposes for which wilderness areas 
were established, and we would like to work with the sponsors and 
subcommittee on additional amendments, including boundary adjustments 
for clarity and language ensuring consistency with the National Trails 
System Act.
    Title VIII of Division B includes language regarding Recapture 
Canyon (section 816) and the Big Burrito Non-Motorized Trail (section 
817). Section 816 would approve San Juan County's application for a 
FLPMA Title V right-of-way in Recapture Canyon and outline the purposes 
for this right-of-way. The BLM is currently going through a public 
process to evaluate potential trails and routes through this area of 
rich archaeological treasures that was home to Ancestral Puebloans. A 
draft environmental assessment for these potential trails and routes 
was released on September 9, 2016. The Department opposes this section. 
Section 817 exempts the proposed 9.3-mile Big Burrito Non-Motorized 
Trail from administrative or judicial review, presumably in perpetuity. 
The Department notes that the BLM established this trail through a 
public process and that it is in use today; the purpose of this 
language is unclear and cannot be supported in its current form.
    Title IX of Division B would establish the Red Rock Country Off-
Highway Vehicle (OHV) Trail, a 90-mile motorized recreation trail in 
Grand County, Utah. The Department has supported similar efforts in the 
past and, with some alterations, could support this effort.
Tribal Mineral Transfer
    Title X of Division B would transfer minerals beneath a portion of 
the Uintah and Ouray Indian Reservation to the Ute Tribe and would 
direct that all split estate lands and minerals that are currently 
managed by a Federal agency be held in trust for the tribe. This title 
also transfers the Federal minerals beneath a portion of the Navajo 
Nation to the Utah Navajo Trust Fund and modifies the royalty payment 
due to the state of Utah. The Department notes that the intent of the 
provisions in this title is unclear, and we would like to work with the 
sponsors and subcommittee to get a better understanding of the purpose 
and vision for this title.
Energy Permitting and Development
    The Department oversees a robust oil and gas development program on 
Federal lands in Utah, and we are proud of the BLM's safe and effective 
management of this important energy source. As of the end of fiscal 
year 2015, BLM Utah managed nearly 9,000 wells on over 1.1 million 
acres that are currently producing oil and gas resources in the state. 
In fiscal year 2015 on BLM-managed lands in Utah, the agency approved 
three times more drilling permits (847) than were actually drilled 
(218). As of the end of fiscal year 2015, 2000 drilling permits are 
ready for use without any further action by the BLM. To date in fiscal 
year 2016, 243 applications for permit to drill were approved, but only 
14 were drilled. In light of this strong performance and the agency's 
long history of successful management of mineral resources, the 
Department strongly opposes Title XI of Division B, which authorizes 
the state of Utah to take over the permitting processes, regulatory 
requirements, and development of all energy sources on Federal lands 
within Uintah, Carbon, Emery, Grand, Duchesne, and San Juan Counties, 
Utah. This title is also contrary to the BLM's multiple use and 
sustained yield mission and ignores critical public participation 
components of the land use planning process, including NEPA and other 
laws.
Highway Rights-of-Way
    Title XII of Division B would recognize the existence and validity 
of certain claims of ``Class B'' road rights-of-way in Uintah, Carbon, 
Emery, Grand, Duchesne, and San Juan Counties, Utah, that were paved as 
of January 1, 2016. In addition, the Secretary would be required to 
convey to the state of Utah easements across Federal lands for the 
current disturbed widths of these purported roads. This title would 
also require the Secretary to grant perpetual, no-cost rights-of-way 
for certain ``Class D'' roads claimed by Uintah County.
    The Department recognizes the enormous scope and importance of this 
issue both to the people of Utah and to successful public land 
management. However, we have broad concerns with this title because 
most, if not all, of the claimed routes are currently subject to active 
litigation and many are located in sensitive resource areas, including 
priority sage-grouse habitat and specially designated areas. As a 
matter of policy, we do not believe that R.S. 2477 rights-of-way 
asserted by the state should be automatically recognized as valid and 
existing rights-of-way. In establishing the validity of an R.S. 2477 
claim through the judicial process, the burden of proof is on the 
claimant to demonstrate that they have satisfied the applicable legal 
standard. In contrast, this title's recognition of all county 
assertions as valid would reverse existing legal precedent and would 
establish perpetual rights over public lands without applying 
applicable legal tests. Further dialogue and coordination are needed 
before the Department could consider a legislative approach to this 
complex issue.
Grazing
    The Department strongly opposes Title XIII of Division B, which 
would require that grazing on all Federal lands in Summit, Duchesne, 
Uintah, Grand, Emery, Carbon, and San Juan Counties, Utah, continue at 
current permitted levels. Although this title includes an exception for 
``extreme range conditions where water and forage are not available,'' 
this language is unclear and could prevent the BLM from addressing 
deteriorating range conditions. Given the broad scope of this language, 
the Department may identify additional concerns as we continue our 
analysis. The Department also does not support managing rangelands 
according to arbitrary targets of use, which may be inappropriate 
depending on resource condition. As we have previously testified, the 
Department instead supports management of rangelands by adjusting 
targets of use according to resource conditions and through transparent 
processes, working with the affected permittees and the public under 
the principles of multiple use and sustained yield. In addition, this 
title includes language directing that public grazing lands, including 
areas outside of those otherwise designated by this title, that have 
``reduced or eliminated grazing shall be reviewed and managed to 
support grazing at an economically viable level.'' The Department 
strongly opposes this language because it is inconsistent with the 
BLM's multiple use and sustained yield mission and ignores critical 
public participation components of the land use planning process, 
including FLPMA, NEPA, and other laws. Furthermore, this language could 
inadvertently undermine the application of the Congressional Grazing 
Guidelines to the wildernesses proposed under Title I of Division A.
    Title XIII of Division B also includes language on bighorn sheep 
management. This language is contrary to BLM policy guidance on 
improving coordination and management of bighorn sheep habitat to 
minimize conflicts with domestic sheep and goats released in March 
2016, which reflects extensive public outreach and input, represents a 
thoughtful management approach, and is aligned with USFS policy and 
efforts on this issue. The Department opposes this provision because it 
would limit the BLM's efforts to sustain and manage bighorn sheep 
populations on public lands.
                     division c--advisory committee
    H.R. 5780 would establish a ``Public Lands Initiative Planning and 
Implementation Advisory Committee'' (PLI Advisory Council) and would 
require the Secretary to consult and coordinate with this committee in 
developing management plans for many of the designations proposed in 
the bill, including NCAs, SMAs, the Jurassic National Monument, and the 
Hole-in-the-Rock Trail. Under this title, in the event this Council's 
recommendations on the management plans are not adopted, the Secretary 
would be required to provide a written explanation to Congress 
outlining the reasons for rejecting the recommendations.
    The Department has supported advisory councils for many NCAs and 
National Monuments, and we believe that the local input and involvement 
that they provide is beneficial in the management of public lands. 
Based on an initial review of the bill, however, it is unclear if this 
advisory committee would be consistent with both FACA and with other 
advisory councils for BLM-managed NCAs and National Monuments. The 
Department would like to work with the sponsors and the subcommittee on 
language ensuring that the PLI Advisory Council meets these elements, 
which we believe would be essential for it to function effectively. The 
Department also encourages the sponsors to consider incorporating other 
advisory councils established by the bill into the PLI Advisory 
Council--perhaps through subcommittees or other mechanisms--which we 
believe will be beneficial for the participants and the agencies 
involved.
           division d--bears ears national conservation area
    The Bears Ears area of southeastern Utah is a unique landscape that 
combines extraordinary natural features, irreplaceable cultural 
resources, and areas of great importance to a number of tribes. It has 
been proposed for protection by Members of Congress, Secretaries of the 
Interior, state and tribal leaders, and local conservationists for at 
least 80 years.
    This region contains some of the most significant cultural and 
natural resources anywhere in the West, with thousands of vulnerable 
cultural and archaeological sites spanning thousands of years--from the 
Paleoindian Period 12,000 years ago to Mormon pioneers in the 1800s. 
Visitors to this remarkable area are rewarded with spectacular canyon 
vistas surrounded by high mesa tops dotted with juniper trees and 
pinyon pines. Hikes into the canyons reveal ancient cliff dwellings, 
kivas, and rock art left by the Ancestral Puebloans more than a 
thousand years ago.
    H.R. 5780 establishes two new NCAs encompassing a total of nearly 
1.3 million acres of BLM-, NPS-, and USFS-managed lands in this part of 
San Juan County--the approximately 858,000-acre Bears Ears NCA and the 
approximately 434,000-acre Indian Creek NCA. The Bears Ears NCA 
represents the largest of the proposed NCAs in H.R. 5780. The 
Department notes that the same unacceptable and nonstandard management 
language that applies to the other proposed NCAs would also apply to 
the Bears Ears NCA, including the omission of language that permits 
only those uses compatible with the conservation purposes for which the 
area is to be designated. While the bill does provide for additional 
opportunities for tribal and other stakeholder input into the 
management planning process, it does not appear to contain the 
cooperative management language that the tribes have requested, and we 
encourage the sponsors to continue to reach out to the tribes directly 
for their input. The Department would like the opportunity to work with 
the sponsors on the care and protection of the world-class cultural and 
natural resources of the area and on additional amendments regarding 
definitions, time frames, management plan development, mapping 
requirements, and boundary adjustments for manageability.
                               conclusion
    The Department of the Interior greatly appreciates the sponsors' 
ambitious effort to address difficult resource and land management 
issues in eastern Utah and supports many of the goals of H.R. 5780. 
However, the Department opposes this bill in its current form for the 
reasons articulated above. The Department has a number of substantive 
as well as additional modifications to recommend, and we look forward 
to continuing to work with the sponsor and the subcommittee to address 
those issues.

                                 ______
                                 

 Questions Submitted for the Record to Director Neil Kornze, Bureau of 
            Land Management, U.S. Department of the Interior

Mr. Kornze did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

             Question Submitted by Representative Raul Ruiz

    Question 1. During the September 14, 2016 hearing on H.R. 5780, 
Congressman Westerman presented a map to Bureau of Land Management 
(BLM) Director Neil Kornze entitled ``State and Federal Land Exchange 
Map.'' This map was prepared at the request of Congressmen Bishop and 
Chaffetz by the BLM and dated July 12, 2016. Congressman Westerman 
asked Director Kornze to confirm if the red areas on the map were 
``public land managed by the BLM.'' Relying on the information in the 
map presented to him Director Kornze replied in the affirmative.
    However, the map did not show the exterior boundary of the Ute 
Indian Tribe's Uintah and Ouray Reservation. If the map had included 
the boundary, the map would have shown that some of these red areas are 
within the tribe's reservation. In addition, I understand that the Ute 
Indian Tribe has formally requested that the Secretary of the Interior 
restore these red areas, as well as other lands, within the reservation 
to trust status under the Indian Reorganization Act of 1934.
    With this new information about the location of some of these red 
areas and the tribe's restoration request applicable to lands including 
some of those red areas, would Director Kornze revise his response to 
Congressman Westerman?

        Questions Submitted by Representative Alan S. Lowenthal

    Question 1. Was the Interior Department consulted (including by the 
committee and/or the bill's sponsors) regarding the Scofield land 
transfer provided for in Title V of H.R. 5780 (starting on p. 131) and/
or the provision's Senate companion S. 14?

    Question 2. Do you have knowledge of which parties requested Title 
V?

    Question 3. Does the Interior Department have a position on Title 
V?

    Question 4. Does the Interior Department have a position 
specifically on the exclusion provided for by Section 502(3)(B)(ii)?

    Question 5. Do you have any knowledge of why the parties to United 
States v. Dunn et al. (10th Circuit 2009) were excluded from the land 
exchange offered by this legislation?

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony.
    The Chair now recognizes Ms. Leslie Weldon, the Deputy 
Chief of the National Forest System for the U.S. Forest Service 
in Washington, DC, for 5 minutes.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Ms. Weldon. Thank you, Chairman Bishop and members of the 
committee. I appreciate the opportunity to present the views of 
the U.S. Forest Service regarding H.R. 5780.
    The Utah Public Lands Initiative bill would create, on 
national Forest System lands, 10 new wilderness areas, 2 
National Conservation Areas, 5 watershed management areas, 2 
special management areas, and the Ashley Karst National 
Geologic and Recreation Area.
    It would also provide for land exchanges and other 
conveyances and provisions of relevance to the Forest Service.
    The bill recognizes the diversity of uses and values of 
landscapes in Utah, including cultural, spiritual, and historic 
values; outdoor experiences and recreation; water; forage; 
wilderness; access; healthy ecosystems; and vital economic 
contributions to people.
    Thank you to Chairman Bishop and Congressman Chaffetz for 
your extensive efforts working with citizens and stakeholders 
on conservation and benefits of balanced land management. 
Although the Administration does not support this bill, we are 
encouraged by many of the goals outlined within it and look 
forward to working further with you and the committee to 
address provisions that cause concern.
    The Forest Service has overall responsibility to manage 
National Forest System resources in a sustainable manner that 
meets the needs of present and future generations. Demands in 
supplies of renewable resources are expected to change over 
time in response to social values, new technology, and new 
information. Our land management planning process, which is 
regulated by the 2012 Planning Rule, is the responsive approach 
we use to balance those multiple demands in close collaboration 
with our communities, and that allow adaptive change over time.
    We have already initiated the planning processes on the 
Ashley and Manti-La Sal National Forests with engagements in 
more than 16 communities, cooperation with local, county, and 
tribal governments, and conversations with scores of Utah and 
Wyoming citizens regarding the unique contributions of these 
national forests.
    I believe that the work that is done here really does 
acknowledge the value and importance of creating a balance and 
finding ways to ensure the certainty of availability of access 
in the multitude of values that have been described in the bill 
and that echo quite a bit with what the Forest Service intends 
in its land management, working closely in collaboration with 
communities.
    We want to make sure that as we look at results here we can 
stay in a mode that is highly engaging, involving, including 
the role and responsibility we have regarding the interest of 
tribes, and to ensure that we stay in a mode that is highly 
adaptable as management requirements and needs change and the 
interest of people change through time. We want to make sure 
that our land management process under the 2012 Planning Rule 
can do this.
    With that, I look forward to working with the committee on 
how we can address the areas of concern with the bill. Our 
written testimony has much more detail, and I look forward to 
answering any questions regarding the bill.
    Thank you.
    [The prepared statement of Ms. Weldon follows:]
  Prepared Statement of Leslie Weldon, Deputy Chief, National Forest 
         System, U.S. Department of Agriculture, Forest Service
    Chairman Bishop and members of the committee, thank you for the 
opportunity to present the views of the U.S. Forest Service regarding 
the Utah Public Lands Initiative, H.R. 5780. The Utah Public Lands 
Initiative bill would create, on National Forest System lands, 10 new 
wilderness areas (approximately 125,000 acres), 2 National Conservation 
Areas (approximately 624,000 acres), 5 Watershed Management Areas 
(approximately 66,000 acres), 2 Special Management Areas (27,422 
acres), and the Ashley Karst National Geologic and Recreation Area 
(110,838 acres). It would also provide for land exchanges and other 
land conveyances and other provisions of relevance to the Forest 
Service. The bill provides a range of designations with objectives from 
protecting motorized recreation to designating wilderness. The bill 
recognizes that a varying mix of human uses and resource protection 
best serves the public and ensures long term conservation of resources.
    As a general matter, the Forest Service welcomes legislation that 
incentivizes collaboration and expands the options available for 
accomplishing critical work on our Nation's forests. Although the 
Department has significant concerns about H.R. 5780 and opposes this 
bill as written, we are encouraged by many of the goals outlined 
within, and we look forward to working further with the sponsor to 
address the provisions that cause concern.
    The Forest Service has an overall responsibility to manage National 
Forest System resources in a sustainable manner that meets the needs of 
present and future generations. Demands for and supplies of renewable 
resources are expected to change over time in response to social 
values, new technology, and new information. Our land management 
planning process, regulated by the 2012 Planning Rule, is the 
responsive approach we use to balance those multiple demands, 
collaborate with our communities, and allow adaptive change over time.
    By designating special management areas with very specific 
language, the proposed bill establishes direction that is normally the 
outcome of this land management planning process, which, as required by 
the 2012 Planning Rule, must include robust public engagement. As a 
result, land management could become static and unresponsive to changes 
in values, environmental conditions, technology and new science. We 
have already initiated the planning process on the Ashley and Manti-La 
Sal National Forests with engagements in more than 16 communities, 
cooperation with local and county governments, and conversations with 
scores of Utah and Wyoming citizens regarding the unique contributions 
of these National Forests.
    As written, the legislation does not allow for management of 
National Forest System lands at a local level or through the 
collaborative planning process. Instead, the legislation imposes 
specific and in some cases inflexible management direction with respect 
to livestock/range management, energy development, transportation 
system management, some watershed management and management of 
different areas of emphasis; in contrast the Forest Service takes its 
responsibility to flexibly manage National Forest System lands 
seriously and finds this prescriptive approach inflexible and limiting. 
Finally, to implement this bill, the agency administrative burden, such 
as land management plan amendments and associated NEPA analysis would 
be significant and likely delay our ongoing public process on the 
Ashley and the Manti La Sal National Forests by several years.
                          wilderness (title i)
    To best serve the public and provide for uniform management of 
designated wilderness areas on National Forest System lands, we believe 
the bill should be fully consistent with the Wilderness Act of 1964, 
including special provisions. Also, where proposed special management 
areas overlap with wilderness designations, the legislation must 
clearly state which special provisions are tied to which designation in 
order to provide clarity to the public and the land manager.
    Additionally, we recommend boundaries for wilderness areas and 
other special designations be mapped to recognizable features on the 
ground to assist the public and the land manager in knowing when they 
are in or out of the different designations. Further, boundaries could 
better conform to existing special designations (such as roadless areas 
and research natural areas) and wilderness boundaries could include 
additional roadless/unroaded lands with wilderness character. Such 
changes would make boundaries more definable and afford protection to 
water, cultural and other resources important to local communities. We 
also recommend that proposed boundaries be vetted at the field level to 
confirm practicality of the management of these special designations in 
accordance with the legislative intent.
    There are Wilderness and Conservation areas which fall mainly on 
Bureau of Land Management lands, but include a small portion of 
National Forest Service lands. These Forest Service lands and acreages 
should be identified in the bill. Also, clarity is needed regarding 
jurisdiction--whether the area is to be jointly managed as a single 
unit or whether each agency is to manage their lands as a separate 
wilderness unit. If the lands are to be jointly managed, it would be 
helpful for the legislation to identify which agency is to be the lead.
    Section103(c) on Wildfire Management Operations would allow any 
Federal, state, or local agency to conduct wildfire management 
operations in wilderness, including the use of aircraft or mechanized 
equipment, without Forest Service approval. As the underlying land 
manager, the Secretary should determine which agency can or should 
conduct operations, and one agency should serve as the primary 
coordinator to ensure firefighter and public safety. Additionally, the 
Wilderness Act requires the use of motorized equipment and mechanical 
transport, including in emergencies, to be allowed only as necessary to 
meet the minimum requirements for the administration of the area for 
the wilderness purposes. We recommend Section 103(c) be revised to 
clarify the coordination responsibilities of the Secretary and to 
ensure that the operations of all agencies conducting wildfire 
management in wilderness areas are consistent with current law, 
regulation and policy.
    Section 103(e), addressing Outfitting and Guide Activities, should 
more closely mirror the Wilderness Act by authorizing commercial 
services only to the extent necessary for realizing recreational 
purposes and other wilderness purposes of the designated area. As 
written, the legislation places recreational purposes above other 
public purposes, including scenic, scientific, educational, 
conservation, and historical use and is therefore inconsistent with the 
Wilderness Act. This Outfitter and Guide Activities language is also 
included in the other non-Wilderness management areas. For those areas 
where recreation is more of a focus and goal outside of Wilderness, we 
recommend striking `to the extent necessary'.
    Throughout the bill there is language requiring the Secretary to 
provide access. For clarity, we recommend the language be modified to 
limit that requirement to `upon request of owner'. For this provision 
to be fully consistent with Section 5(a) of the Wilderness Act, we 
recommend Section 103(f) say ``adequate access'' to the property, as 
was written in the June 2016 draft of this bill.
    As drafted, language in the bill referencing Existing Water 
Infrastructure does not limit access to existing routes or roads, 
creating the potential for new road construction, if justified for 
maintenance of existing facilities. We recommend instead using 
management language on water infrastructure that is fully consistent 
with the Wilderness Act of 1964.
                             land exchanges
    We recommend that language be added to ensure selected Federal 
lands are mutually agreed upon by the state of Utah and the United 
States. In addition, language should be added to ensure that title 
meets Department of Justice Title Standards and is also free of 
hazardous substances and petroleum products, and that those 
requirements need to be met before the land exchange is executed.
    We find that, as written, acquisition of land and interests in land 
do not clearly specify whether the state has 2 years from the date of 
enactment to request an exchange, which appears to preclude future 
opportunities, or if the United States is required to complete the 
exchanges within 2 years of date of enactment, regardless of the date 
of request by the state. We recommend more practical language, which 
would require completion of an exchange within 2 years from the date of 
any state request.
                 national conservation areas (title ii)
    Language in Title II should clarify that the special provisions 
listed in this section do not apply to the wilderness acres designated 
within the National Conservation Areas (NCAs). The section on Livestock 
is particularly problematic for the wilderness acres in the NCAs, and 
the provision is inconsistent with the livestock section under 
Wilderness Areas (Title I). Some language relevant to livestock 
management is inconsistent with the Wilderness Act of 1964.
    Regarding the function of the proposed Public Lands Initiative 
Planning and Implementation Advisory Committee for the special 
management areas, national conservation areas, and recreational zones, 
the reporting requirements imposed by the bill could impede the 
meaningful function of the committee. The Forest Service has always 
encouraged input from states, local governments, tribes and the public, 
including through the use of advisory committees. The purpose of the 
committee could be fulfilled by authorities currently available to the 
agency.
                 watershed management areas (title iii)
    National Forest System lands were originally set aside in part to 
help sustain the Nation's water supply. The Forest Service manages the 
largest single source of water in the United States, with about 20 
percent originating from its 193 million acres of land. Agency program 
managers and decisionmakers take the agency's stewardship 
responsibility for water resources seriously and apply available tools 
and authorities to help sustain those resources over the long term. For 
example, the Agency uses the Watershed Condition Framework to 
characterize the condition of the more than 15,000 watersheds located 
on NFS lands and help identify watersheds that need focused work to 
improve or maintain condition. The Agency also uses information about 
public water supply sources to help prioritize fuels treatments to 
improve fire resilience. In addition, the Agency has existing 
authorities to provide for the formal designation of municipal 
watersheds and the establishment of special management areas through 
land management planning. These authorities have been utilized to set 
up special management within source watersheds.
    The provisions in this section of the bill on Vegetation Management 
requires the Secretary to conduct vegetation management projects if 
they improve water quality or restore ecosystems, regardless of cost, 
public support or effects on other resources. Such direction could have 
unforeseen consequences, possibly precluding a transparent public 
engagement process or forcing a wide-scale shifting of resources from 
other public lands with negative consequences.
               special management areas (title iv, viii)
    The language under Title IV and VIII does not provide a rationale 
for a congressional designation and doesn't specify any management 
activity that isn't already available under existing authorities, such 
as the land management planning process. The development of a specific 
management plan and engagement of an advisory committee with such a 
minimal foundation would be challenging and may have unanticipated 
consequences.
    There is also potential for the Special Management Areas 
designation to be in conflict with forest-level over-the-snow travel 
management planning. The goals of a Special Management Area could be 
more effectively integrated into the applicable land management plan, 
in conjunction with travel management planning without having to 
require a separate management area and separate management plan. 
Permanent withdrawals from mineral entry for areas of 5,000 acres or 
more, such as those delineated in sections 404 and 407, cannot be 
addressed through administrative planning or decisions and would 
require an act of Congress.
    The Forest Service recognizes state management of water rights. The 
water rights provisions in Sections 404, 407, and 804 differ from those 
in other sections in this bill. The Forest Service believes that the 
additional language in these three sections is unnecessary and would 
like to work with the sponsors and the committee to revise the language 
to be consistent with the rest of the bill.
    Finally, in several locations, the legislation identifies time 
frames for mapping and establishing legal descriptions, development of 
management plans, and execution of land exchanges. This represents a 
workload to be accomplished within 2 years from the date of enactment. 
Two years is too short given the number and complexity of all the 
designations occurring through this bill. We recommend no less than 3 
years and would prefer 5 years for completing the numerous maps, legal 
descriptions and management plans that the legislation would require.
grazing (sections 106(b), 204(d), 303(j)(1), 404(d)(1), 407(h), 804(h), 
                              title xiii)
    Throughout the proposed legislation, direction is given to maintain 
existing livestock grazing levels. It appears that the goal of the 
legislation intends to give permittees assurances that nothing in the 
legislation would be used as a justification for managers to direct 
reductions in livestock grazing simply because of the land management 
designation. The legislation recognizes that range conditions can 
improve and that increases in livestock numbers could be considered, 
but appears to limit reductions regardless of conditions. Section 1303 
states that `areas of public land that have reduced or eliminated 
grazing shall be reviewed and managed to support grazing at an 
economically viable level'. This may result in grazing practices that 
exceed sustainable levels.
    Our concerns focus on the challenges of sustaining both range 
conditions and livestock uses under these restrictions. In order to 
protect the resource, the legislation should direct managers to ensure 
livestock levels consistent with rangeland capabilities and conditions 
and, when making adjustments, to work closely with permittees and state 
and local governments, utilizing data from all sources, including the 
Utah State Department of Agriculture.
    Specifically Title XIII, Section 1302 removes the viability 
requirements for bighorn sheep on National Forests in Summit, Duchesne, 
Uintah, Grand, Emery, Carbon, and San Juan Counties, where there are 
possible conflicts with domestic sheep grazing. This requirement 
conflicts with the National Forest Management Act (NFMA) and its 
implementing viability regulations. These viability regulations (36 CFR 
Sec. 219.9(b)(1)) address the Forest Service's obligation to meet 
NFMA's requirement ``to provide for diversity of plant and animal 
communities'' (16 U.S.C. 1604 (g)(3)(B)). We suggest the bill's 
language be changed to emphasize that any potential conflicts between 
bighorn sheep and domestic sheep will be resolved using the best 
available science, best management practices, and incorporating input 
from the Utah Division of Wildlife Resources, the Utah Department of 
Agriculture and grazing permittees.
deer lodge land exchange and other land conveyances (division b, title 
                                iv, vi)
    With regard to the realty-related actions in Title IV and VI, the 
Forest Service has long been a supporter of efforts to consolidate 
ownerships, be it private, state or Federal. This improves management 
efficiency, improves utilization of resources, both natural and 
financial, and eliminates many potential conflicts. Numerous examples 
exist where large-scale land exchanges have occurred between the Forest 
Service and with states.
    We strongly support efforts to encourage the consolidation of non-
Federal ownership of public lands outside of congressionally designated 
areas. As drafted, however, we strongly oppose this provision as the 
bill does not provide the ability for the United States to agree to the 
Federal lands proposed for acquisition by the state. Additionally, we 
are concerned that the proposed land exchange may create an inholding 
within the National Forest, resulting in additional resource and 
boundary management burdens.
       long-term energy development certainty in utah (title xi)
    As drafted, Title XI is of great concern for the Forest Service. 
While we recognize the need for timely review of energy development 
proposals, the Forest Service does not agree that transferring 
permitting authority to the state will significantly improve that 
process. In addition, while it requires the state to comply with 
Federal statutes and regulations, it does not require compliance with 
applicable land management decisions, Forest Plan standards or other 
considerations, typically developed with public input, for management 
of multiple-use lands.
    Sec. 1101 is unclear whether this Title XI is speaking only to 
energy development or to energy and minerals. The second sentence in 
Sec. 1101 should have the word ``minerals'' removed. The rest of the 
Title XI only speaks to ``energy''.
           long-term travel management certainty (title xii)
    Title XII would provide for immediate resolution of R.S. 2477 
claims. However, we have broad concerns with this title because most, 
if not all, of the claimed routes are currently subject to active 
litigation and many are located in sensitive resource areas, including 
priority sage-grouse habitat and specially designated areas. As a 
matter of policy, we do not believe that R.S. 2477 rights-of-way 
asserted by the state should be automatically recognized as valid and 
existing rights-of-way. We share the state's concerns over protracted 
litigation. However, we have concerns over provisions which could 
significantly expand rights in protected areas (e.g. roadless areas).
       bear ears national conservation area (division d, title i)
    The Bears Ears National Conservation Area incorporates 
approximately 190,000 acres of the Manti--La Sal National Forest and 
includes all of Elk Ridge and all lands west of South/North Cottonwood 
drainage on the Monticello portion of the District. This broader region 
contains one of the highest densities of archeological resources, 
spanning a multitude of eras, of anywhere in the United States. It is 
therefore concerning that while there is consideration for enhanced 
protection and recognition of the cultural values associated with the 
heritage resources of the Bears Ears area, the legislation excludes 
important cultural resources found on the east side of Cottonwood 
Canyon, among other areas. In addition, portions of Hammond Canyon and 
Arch Canyon are designated as wilderness, but the boundaries are not 
clear.
    Finally, regarding Sec. 104(a)(5): the term ``Native American 
archaeological sites'' is an unusual, limited, and possibly confusing 
subset of the sites protected by the statutes listed (NAGPRA, NHPA, 
Utah Antiquities Act). Those statutes also protect historic sites, 
including traditional cultural properties, and burial sites, even when 
they are not archaeological. It is also odd that ARPA (Archaeological 
Resources Protection Act) is not listed if the focus is indeed on 
archaeological sites.
    The legislation directs the development of a management plan and 
establishes the Bears Ears Management Commission, to include two tribal 
representatives, a county representative and a state representative to 
review and approve the plan. The Department is not supportive of this 
provision and believes it is unnecessary as the Forest Service is 
required under the 2012 Planning Rule to develop land management plans 
in a broadly inclusive manner and will continue to work collaboratively 
with tribes, communities of interest, local, county and state entities 
and elected officials in achieving mutually beneficial outcomes under 
its existing planning authorities.
    Additionally, while the Department is supportive of the goal of 
increasing tribal involvement in the management of this land the Bears 
Ears Tribal Commission at Sec. 107 will not fit within the 
intergovernmental exemption from FACA in the Unfunded Mandates Reform 
Act (UMRA), PL 104-4 Sec. 204(b). To qualify for the intergovernmental 
exemption from FACA, the Commission must consist exclusively of 
``Federal officials and elected officers of . . . tribal governments 
(or their designated employees with authority to act on their behalf) 
acting in their official capacities.'' UMRA Sec. 204(b). By contrast, 
under the bill as revised, the tribal representatives would be ``tribal 
members,'' not elected tribal government officials or designated tribal 
government employees.
    The Department does not support the National Conservation Area 
proposal to lock the current Travel Plan in place, which does not allow 
for any new permanent road construction and does not allow for 
permanent closure of any designated routes.
    We would like to work with the bill sponsors and committee to 
clarify the extent of the mineral withdrawals on the National 
Conservation Area.
                               conclusion
    The Forest Service welcomes the opportunity to work with the 
sponsors and the committee to address the Agency's concerns.
    Thank you for the opportunity to testify here today. I would be 
pleased to answer any questions you may have.

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony and 
your brevity.
    Our next witness is Ms. Regina Lopez-Whiteskunk, the co-
chairwoman of the Bears Ears Inter-Tribal Coalition from 
Towaoc, Colorado. You are recognized for 5 minutes.

STATEMENT OF REGINA LOPEZ-WHITESKUNK, CO-CHAIRWOMAN, BEARS EARS 
            INTER-TRIBAL COALITION, TOWAOC, COLORADO

    Ms. Lopez-Whiteskunk. Thank you, and good morning, Chairman 
McClintock and committee members.
    I just want to take a real quick moment to acknowledge 
other members of our coalition who are in the room with me 
today: Vice President of the Navajo Nation, Nez, and Delegates 
Davis Filfred, as well as the Ute Indian Tribe Vice Chairman, 
Ed Secakuku, and Member Bruce Ignacio. I thank them for 
accompanying me out here today. It shows a great presence of 
support.
    For a moment here, I am going to defer from my written 
statement for a reason that is very tender and close to my 
heart. Last week, I attended and laid to rest a very special 
individual, a member of the White Mesa community, an elder and 
a grandmother. We laid to rest one of the elders who was born 
in the area of the Bears Ears region.
    I was very grateful to have shared many conversations with 
her and listened to her tell the stories of the watermelon 
patches that they nurtured, the fruit trees that they tended to 
every day, but at most and most importantly, the ability to 
have been able to play in those areas growing up, enjoying 
their grandmothers, grandfathers, their parents, family, and 
community in that area.
    It was very important to me because it is those voices that 
I carry and bring into Washington, DC, every time I visit, 
every time I have the opportunity and honor to speak before 
many people to carry and share my people and their voices and 
how important this is.
    We are very much tied to the land, which makes every bit of 
my testimony today weigh very heavy on my heart.
    It has been stated on many occasions from local and 
national interests and at each level of government that the 
Bears Ears landscape deserves protection. This pertinent 
question, something that many of us have pondered, is not that 
it deserves protection. We all agree that it deserves 
protection. The real question is how?
    How will we all come together to do this? And I gracefully 
thank Chairman Bishop and Congressman Chaffetz for all of the 
hard work you guys have invested in trying to pull everybody 
together, and trying to compromise and see that everybody has a 
seat at the table. Thank you for all of those many hours of 
visits and meetings that you have all set forth.
    That opportunity for many has been seized, and for some may 
have even been passed by. Some of the heartfelt concerns that 
my people carry, especially and more so with the two tribes, 
the Navajo and the Ute, is what precedents this bill could set. 
This has Native American tribes very much on alert when you 
look at the precedents that could be on the Floor here.
    Do we really want to set Native American conversations with 
Congress and agencies back another 100 years? My sincere and 
heartfelt request is no. We worked so hard to get our foot in 
the door. We are going to continue to work hard to bring those 
heartfelt, genuine concerns and conversations to the table.
    One of the big areas is collaborative management, something 
that we feel steps beyond consultation, or should I say 
``meaningful consultation'' ? I challenge each of you to rise 
above that word and let's redefine that.
    As a Native American woman and elected official of my 
people, I sincerely thank you for this honor to express myself 
in the manner that I have.
    Thank you.
    [The prepared statement of Ms. Lopez-Whiteskunk follows:]
 Prepared Statement of Regina Lopez-Whiteskunk, Co-Chair of the Bears 
Ears Inter-Tribal Coalition, Councilwoman of the Ute Mountain Ute Tribe
    Thank you and good morning Chairman McClintock and committee 
members. Thank you members and staff for the opportunity to speak 
today. My name is Regina Lopez-Whiteskunk. I serve as the co-chair of 
the Bears Ears Inter-Tribal Coalition (BEITC) and as a Councilwoman for 
the Ute Mountain Ute Tribe.
    It has been stated on many occasions, from local and national 
interests and at each level of government that the Bears Ears landscape 
deserves protection. The pertinent question turns to ``how.'' How 
should the Bears Ears cultural landscape be protected for the 
generations to come? Several tools are available to meaningfully 
protect these public lands. However, the Public Lands Initiative (PLI) 
is not the appropriate vehicle for preserving and protecting our 
Nation's treasures within southeastern Utah. PLI falls dramatically 
short of what the BEITC requested in our October 15, 2015 proposal to 
President Obama calling for the designation of 1.9 million acres as a 
Bears Ears National Monument (Exhibit A).
    Due to a number of shortcomings within the complex PLI bill, the 
BEITC does not support PLI. The BEITC originally set out our opposition 
to the PLI and discontinuation of discussions with the Utah delegation 
in a December 31, 2015 letter (Exhibit B). Since that period, it has 
become increasingly clear that the BEITC's decision to withdraw from 
PLI discussions is validated. A second letter, a subsequent press 
release, and a final letter, each reaffirm the BEITC's refusal to 
continue empty discussions with the Utah delegation (Exhibit C, D, and 
E). A hard look at the details of the PLI bill confirms the BEITC's 
stance and reveals language favoring energy development and off-road 
vehicle use in the breathtaking and cultural resource-dense landscape.
    At the heart of the BEITC's national monument proposal is a 
comprehensive measure calling for true tribal collaborative management 
of the living landscape. With thousands of documented sites and 
cultural resources that inextricably connect tribes to these lands, the 
birth of the BEITC was necessary to immediately protect and preserve 
the area from rampant looting. However, participation from the five 
member tribes of the BEITC is severely diminished in the draft PLI 
bill. Instead, PLI envisions a 10-member advisory committee with only a 
single tribal representative that is charged with advocating the 
interests of each individual tribe. As in our past discussions with the 
Utah delegation on PLI, tribal voices will continue to be drowned out 
by a 10-member committee designed for deadlock and inaction.
    As drafted, PLI also fails to protect over half a million acres of 
the Bears Ears region as proposed by the BEITC. Not only were 
considerable efforts made to account for every acre in a proposed 
national monument, but considerable reductions of lands, that are also 
worthy of protection, were painstakingly not included in maps of the 
BEITC's proposed national monument. Our call to protect 1.9 million 
acres is already a conservative request. Anything less is tantamount to 
destruction of sacred sites that the identities of native people are 
affixed to.
    PLI also proposes to transfer control over-permitting and 
regulation of energy development on Federal lands to the state, thus 
effectively placing cultural, air and water resources in greater 
jeopardy. While these sacred lands continue to be disturbed by uranium 
mining, recent spills of radioactive waste material, potash and other 
dirty conventional energy development, current lax regulation is not 
protective enough of the lands. The landscape deserves better. Our 
proposal, as provided in most national monuments, proposes that the 
area be completely withdrawn from mining.
    In addition, designation of the Bears Ears landscape as a National 
Conservation Area, as proposed in the PLI, offers insufficient 
protections from the development of roads. Construction of new roads 
should be prohibited within the Bears Ears region, but the PLI proposes 
to grant thousands of miles of routes through culturally sensitive 
areas and wilderness. Irresponsible off-road vehicle use and enabling 
the state to develop roads runs counter to the protection of cultural 
resources.
    At this time, I would like to take a moment to acknowledge the Ute 
Indian Tribe whose Uintah and Ouray Reservation would be dramatically 
impacted by the bill. Attending today's hearing are the Ute Tribe's 
Business Committee Vice Chairman Ed Secakuku and Members Bruce Ignacio 
and Tony Small. The Ute Indian Tribe must be heard before the full 
committee considers this bill.
    Buried in a section called ``Innovative Land Management and 
Recreation Development'' the bill proposes to take more than 100,000 
acres of the Ute Tribe's lands for the state of Utah. Not since the 
late 1800s has Congress attempted to take Indian lands and resources to 
benefit others. This modern day Indian land grab should be universally 
rejected by Congress.
    In addition to taking more than 100,000 acres of the Ute Tribe's 
lands, the bill would make management changes to another 200,000 acres 
of reservation lands. The tribe learned about these proposals when the 
discussion draft was released in January. The tribe was never consulted 
on these proposals until after the fact.
    This bill has been built on the back of the Ute Indian Tribe and 
their reservation homelands. Let me be clear, a vote for this bill is a 
vote to steal Indian lands, diminish tribal self-determination, and set 
Federal Indian policy back 100 years.
    Thank you again for the opportunity to appear before you today to 
present the views of the BEITC on this important topic. We hope that 
our perspective will be of assistance, and I, along with my colleagues, 
am happy to answer any questions you may have.

                                 *****

The following documents were submitted as supplements to Ms. Lopez-
Whiteskunk's testimony. These documents are part of the hearing record 
and are being retained in the Committee's official files:

    --Exhibit A: Proposal to President Barack Obama for the Creation of 
            Bears Ears National Monument by Bears Ears Inter-Tribal 
            Coalition, October 15, 2015

    --Exhibit B: Bears Ears Inter-Tribal Coalition, December 31, 2015 
            Letter to Rep. Bishop and Chaffetz

    --Exhibit C: Bears Ears Inter-Tribal Coalition, June 27, 2016 
            Letter to Sen. Hatch and Lee; and Rep. Bishop and Chaffetz

    --Exhibit D: Bears Ears Inter-Tribal Coalition, Statement on Tribal 
            Concerns Ignored by Bishop's Public Lands Bill

    --Exhibit E: Bears Ears Inter-Tribal Coalition, July 23, 2016 
            Letter to Rep. Bishop and Chaffetz

                                 ______
                                 

    Mr. McClintock. Great. Thank you for your testimony.
    The Chair now recognizes Mr. Dave Ure, the Director of the 
Utah School and Institutional Trust Lands Administration from 
Salt Lake City, Utah for 5 minutes.

STATEMENT OF DAVE URE, DIRECTOR, UTAH SCHOOL AND INSTITUTIONAL 
        TRUST LANDS ADMINISTRATION, SALT LAKE CITY, UTAH

    Mr. Ure. Thank you, Mr. Chairman, and Mr. Bishop and 
Congressman Chaffetz, for the work you have done, and also the 
committee members for inviting me here.
    My name is Dave Ure. I have been in the saddle now for 10 
months, so I know a lot about nothing and I am learning as hard 
as I can. I was thrown into the middle of this not knowing a 
lot about it until I was here.
    Let me give you a little bit of history. I was a dairy 
farmer up until 3 years ago, milked cows for 50 years. I forced 
my sons and my daughters to milk cows, taught them their times 
tables while milking cows. So, school kids are pretty close to 
me.
    I served in the legislature for 14 years, 2 years 
underneath Speaker Bishop, of which he and I had a love-hate 
affair and mostly a love affair. Cut that off? OK.
    I served as County Councilman for 7 years until I took this 
position here at School Trust Lands, so I have seen a lot of 
different areas.
    I do not envy you in your jobs trying to decipher the 
balancing act between environmentalists, the school kids in 
Utah, and the tribes, but it can be done and I believe that 
this bill is one way of doing it.
    The reason we are here is the School Trust lands are 
scattered with a checkerboard, with four sections with every 
township, of which we are talking about 311,000 acres in this 
transaction of the PLI. Any decision that is made about the use 
of an area of public lands directly affects the school kids.
    There is a huge amount of land in southeastern Utah that is 
particularly beautiful, canyon land that everyone can agree 
should be preserved. The question is--how do you preserve it? 
Do you preserve it with a scalpel as we are doing in PLI, or do 
you take an ax or a chainsaw and do it as some have suggested 
and call it a national monument?
    What we ask is that where Federal lands are placed into 
wilderness or conservation management, there be a simultaneous 
exchange of State Trust Lands under the new conservation area 
for usable Federal lands elsewhere in the state.
    SITLA already has a successful record of working with the 
Department of the Interior and the BLM to finish large land 
exchanges of this nature: in the Grand Staircase-Escalante 
National Monument in 1998; the West Desert in 2000; and most 
recently, the Colorado River exchange with Moab in 2009.
    We believe that land exchange proposals by the PLI Act 
builds on this track record. Under the PLI Act, SITLA would 
trade trust lands out in the Bears Ears National Conservation 
Area, the Gemini Bridges, areas near Moab, and huge acres in 
the San Rafael Swell and Desolation Canyons.
    The PLI bill also lays the groundwork for a large 
conservation transaction for SITLA among a wildland block in 
the Southern Book Cliffs of Grand County.
    In this legislation, there are 41 new wilderness areas and 
11 new National Conservation Areas. These will be designated to 
use under the proper design and policy set by the BLM and by 
the Forest Service.
    We understand that there are some parts of the PLI land 
exchange proposal that have created objections from various 
parties. This is invariable in a proposal of this size. SITLA 
commits to work with all of these parties, particularly the Ute 
Indian Tribe, to resolve any of these issues.
    We are already partners with the Ute Indian Tribe on 
several other issues, including the Hill Creek extension we are 
talking about. This will not be a new deal with us.
    In the 10 months that I have been in this saddle, I have 
learned to respect and admire the Ute Tribe. I do not always 
agree with them, but I have learned to respect the culture and 
their history, and I look forward to doing it again. It will 
not be an easy cup of tea, but we have a good communication.
    I have spent many, many hours over the last 10 months 
talking with the two gentlemen from the tribe sitting behind me 
right now. We can continue to talk. They have schoolchildren in 
the school system in Utah as well as everybody else, and the 
money we raise furthers their progression. It goes directly to 
the classrooms and that is what I am asking you to do, to 
persist and push this bill along. We need this bill for our 
school kids and for the Ute Tribe school kids in the state of 
Utah.
    I thank you for your time today, and I apologize for my 
emotions.
    [The prepared statement of Mr. Ure follows:]
      Prepared Statement of David Ure, Director, Utah School and 
                Institutional Trust Lands Administration
                              introduction
    On behalf of the Utah School and Institutional Trust Lands 
Administration, I thank Chairman McClintock and the subcommittee 
members for the opportunity to provide this statement in support of 
H.R. 5780. I also wish to thank Utah Congressmen Rob Bishop and Jason 
Chaffetz for their co-sponsorship of this landmark legislation. H.R. 
5780 will resolve long-standing conflicts between conservation and 
economic development over a vast portion of eastern Utah; designate 
millions of acres for conservation; and support outdoor recreation of 
all types as well as local economic development. The associated land 
exchange contained in Division B, Title I of H.R. 5780 will secure 
Federal ownership of existing state trust lands within various proposed 
conservation areas, and concurrently provide replacement Federal lands 
to Utah's school trust, helping fund K-12 public schools in Utah.
                              about sitla
    The School and Institutional Trust Lands Administration (``SITLA'') 
is an independent, non-partisan state agency established to manage 
lands granted by Congress to the state of Utah at statehood for the 
financial support of K-12 public education and other state 
institutions. SITLA manages approximately 3.3 million acres of state 
trust lands, and an additional million acres of mineral estate. Revenue 
from school trust lands--most of which comes from mineral development--
is deposited in the Utah Permanent School Fund, a perpetual endowment 
supporting K-12 public schools. Investment income from this endowment 
is distributed annually to each public and charter school in Utah to 
support academic priorities chosen at the individual school level.
                               background
    H.R. 5780 is the culmination of multiple years of stakeholder 
outreach by Representatives Bishop and Chaffetz, and represents a 
compromise solution to protracted disputes over public lands management 
in eastern Utah. The two sponsors and their respective staff have 
conducted hundreds of meetings with scores of stakeholders, including 
local governments, Indian tribes, environmental NGOs, outdoor 
recreationalists of all types, and a host of others, to reach a bottom-
up compromise on how to manage public lands in eastern Utah for the 
future.
    SITLA's testimony on H.R. 5780 will focus on one major aspect of 
the Public Lands Initiative--the consolidation of state school trust 
lands out of conservation areas and into larger, more useable blocks of 
lands. Some background on the reasons for the proposed land exchange 
will be helpful to the subcommittee. The majority of land in eastern 
Utah is Federal land managed by BLM. A notable exception is the 
presence of state school trust lands scattered in checkerboard fashion 
throughout the area. As the subcommittee is aware, state school trust 
lands are required by law to be managed to produce revenue for public 
schools. Revenue from Utah school trust lands--whether from grazing, 
surface leasing, mineral development or sale--is placed in the State 
School Fund, a permanent income-producing endowment created by Congress 
in the Utah Enabling Act for the support of the state's K-12 public 
education system.
    H.R. 5780 will create 41 new wilderness areas, 11 new National 
Conservation Areas, and a variety of other special designations. These 
designations by their nature place substantial limits on the use of the 
Federal lands within their boundaries, which in turn places limits on 
SITLA's ability to develop economic uses such as mineral extraction. 
Likewise, state efforts to generate revenues from trust lands through 
sale of the lands for recreational development and home sites would 
conflict with management of the surrounding Federal lands. Over the 
years, disputes over access to and use of state school trust lands 
within federally-owned conservation areas have generated significant 
public controversy, and often led to expensive and time-consuming 
litigation between the state of Utah and the United States.
    Land exchanges are an obvious solution to the problem of state land 
ownership within Federal conservation areas. Exchanges can allow each 
sovereign--the state of Utah and the United States--to manage 
consolidated lands as each party's land managers deem most advisable, 
without interference from the other. In the last 20 years, the state of 
Utah and the United States worked successfully to complete a series of 
large legislated land exchanges. In 1998, Congress passed the Utah 
Schools and Land Exchange Act, Public Law 105-335, providing for an 
exchange of hundreds of thousands of acres of school trust lands out of 
various national parks, monuments, forests and Indian reservations into 
areas that could produce revenue for Utah's schools. Then, in 2000, 
Congress enacted the Utah West Desert Land Exchange Act, Public Law 
106-301, which exchanged over 100,000 acres of state trust land out of 
proposed Federal wilderness in Utah's scenic West Desert for Federal 
lands elsewhere in the region. In 2009, Congress enacted the Utah 
Recreational Land Exchange Act, Public Law 111-153, which authorized 
the exchange of 70,000 acres of combined BLM and state trust lands out 
of the scenic Colorado River corridor near Moab. This exchange closed 
in 2014. Other exchange efforts are currently pending, and SITLA 
greatly appreciates the efforts of Representatives Bishop and Chaffetz, 
and the cooperation and efforts of the Bureau of Land Management, in 
the enactment and implementation of past and current exchange 
proposals.
    The hallmark of each of these exchanges was their ``win-win'' 
nature: school trust lands with significant environmental values were 
placed into Federal ownership, while Federal lands with lesser 
environmental values but greater potential for revenue generation were 
exchanged to the state, thus fulfilling the purpose of the school land 
grants--providing financial support for public education. The land 
exchange proposed by the Utah Public Lands Initiative would continue 
this tradition.
               description of proposed pli land exchange
    Under Division B, Title I of H.R. 5780, SITLA would give up 
essentially all state trust lands in wilderness areas, national 
conservation areas, and other conservation areas created by the PLI 
Act. These trust lands to be traded to BLM would include lands within 
the proposed Bears Ears National Conservation Area and included 
wilderness in San Juan County; state trust lands in the Gemini Bridges 
and Labyrinth Canyon areas west of Moab in Grand County; all trust 
lands within the San Rafael Swell in Emery County; state trust lands in 
Desolation Canyon in Carbon, Emery and Grand Counties; state trust 
lands in Nine Mile Canyon in Carbon, Duchesne and Uintah counties; and 
other conservation areas elsewhere in eastern Utah.
    One additional conservation transaction is worth noting in addition 
to the areas described above. SITLA currently manages a large block of 
wild land in the Book Cliffs of Grand County--often called the Roadless 
Area. This remote 48,000 acre land block includes some of the best big-
game hunting habitat in Utah, as well as profound scenic values. Under 
the PLI, SITLA would convey mineral rights in the area to BLM, with 
those minerals to be permanently retired from development. SITLA would 
then undertake a conservation transaction for the surface estate with a 
non-Federal entity such as the Utah Division of Wildlife Resources, to 
ensure long-term conservation and wildlife use of the area. SITLA's 
willingness to commit this property to conservation was based on the 
negotiated compromises represented by the PLI with respect to lands to 
be acquired by SITLA from BLM for the school trust, and particularly 
the ability to acquire BLM lands in southern Uintah County.
    The total acreage of school trust lands and severed minerals to be 
conveyed by SITLA to BLM, or in several cases to the U.S. Forest 
Service, would be approximately 311,250 acres. In exchange, SITLA would 
acquire approximately 311,791 acres of BLM lands and minerals in 
eastern Utah. These include a large block of lands outside the Bears 
Ears NCA in San Juan County; lands near the Lisbon Valley, also in San 
Juan County; a large block of land west of the Moab airport that is 
within a known potash leasing area; lands along the I-70 corridor in 
Emery and Grand counties; a large block of land in southern Uintah 
County; and a number of smaller parcels around eastern Utah.
    H.R. 5780 provides that the proposed exchange would be subject to 
analysis under the National Environmental Policy Act. The legislation 
also contains specific provisions for the sharing of future mineral 
revenues between the United States, the state of Utah, and SITLA to 
ensure mutual fairness in the valuation of the lands involved. In 
particular, the United States would retain its entire current revenue 
stream from existing oil and gas development on the BLM lands SITLA 
would be acquiring, and its entire projected revenue stream from future 
potash development.
    With a land exchange of this magnitude, it is inevitable that some 
issues of dispute will arise with respect to the lands involved. SITLA 
has concerns about the southeast boundary of the Bears Ears NCA where 
it overlaps existing SITLA oil and gas leases for which near-term 
development is anticipated. SITLA is also aware that the Ute Indian 
Tribe of the Uintah and Ouray Reservation has expressed opposition to 
SITLA's acquisition of lands within the historic Uncompahgre 
Reservation. Although Congress has repeatedly authorized land exchanges 
of BLM lands in this area, we acknowledge and respect the tribe's 
position, and commit to work with the tribe and the Department of the 
Interior to see if a mutually acceptable resolution can be found. 
Similarly, we commit to work with the Department, local governments, 
NGOs, and affected third parties to resolve particular issues that may 
arise with respect to either the exchange process or specific lands of 
concern.
    On the whole, the land exchange contemplated by H.R. 5780 is a 
spectacular opportunity to consolidate scattered trust lands into more 
useable larger parcels with better potential to support both the school 
trust and local economic development, while protecting a huge amount of 
land for conservation. Collectively, the BLM lands to be acquired by 
SITLA are expected to produce significant revenue to Utah's school 
trust over a long time period, meaningfully supporting K-12 public 
education in Utah. The conservation benefits of the other side of the 
land exchange are profound. It is an opportunity that needs to be 
taken.
                               conclusion
    SITLA appreciates the efforts of Chairman McClintock, the 
subcommittee, and Congressmen Bishop and Chaffetz in holding a hearing 
on H.R. 5780. We respectfully ask that it be passed out of committee 
favorably at the earliest possible time. Thank you.

                                 ______
                                 

    Mr. McClintock. No apology necessary. Thank you for your 
testimony.
    Our final witness is Mr. Clif Koontz, the Executive 
Director for Ride with Respect from Moab, Utah. You are 
recognized for 5 minutes.
    You guys do an awful lot of advertising in my neck of the 
woods.

    STATEMENT OF CLIF KOONTZ, EXECUTIVE DIRECTOR, RIDE WITH 
                      RESPECT, MOAB, UTAH

    Mr. Koontz. Thank you Chairman McClintock, Ranking Member 
Tsongas, and members of the subcommittee. I am Clif Koontz, 
Executive Director of Ride with Respect, a 501(c)(3) nonprofit 
organization that conserves shared-use recreation of the public 
lands surrounding Moab, Utah. Thank you for the opportunity to 
discuss the Utah Public Lands Initiative Act, a bill that I 
believe lives up to its stated purpose, to provide greater 
conservation, recreation, economic development, and local 
management of Federal lands.
    For the last 14 years now, Ride with Respect has assisted 
state and Federal agencies with the management of off-highway 
vehicles. Our motto of caution, consideration and conservation 
promotes an ethic of respecting oneself, other trail users, and 
the land itself.
    Our trail work almost always benefits conservation and 
rarely involves constructing new trails. More often, we 
relocate existing trails away from sensitive resources, such as 
unstable soils, riparian areas, and cultural sites.
    I have supervised over 12,000 hours of field work and am 
proud of Ride with Respect's contribution to the natural 
resources and the local communities, as well as visitors who 
depend on them.
    In 2012, when groups seeking to vastly expand wilderness 
designations proposed a 2 million acre Greater Canyonlands 
National Monument, I was concerned that such a proclamation 
would likely close trail systems for which Ride with Respect 
has been the caretaker.
    By 2013, the national monument threat had spawned a 
collaborative effort in which Representatives Bishop and 
Chaffetz solicited input from stakeholders via each county in 
eastern Utah. I don't know how many hundreds of hours I have 
spent participating, but my personal notes on various meetings 
and correspondence specific to the PLI is 100,000 words long.
    To illustrate this difficult process, let me describe an 
area between Moab and Labyrinth Canyon called Big Flat. As part 
of Grand County's Big Flat Working Group, in 2014, I attended a 
dozen meetings to develop a package of conservation, 
recreation, and development areas. The old County Council 
accepted these recommendations, but rather than forwarding them 
to the Congressmen, the Council deferred to the incoming 
council members.
    In 2015, this new council modified the Big Flat Working 
Group package to emphasize conservation. In 2016, compared to 
what the new County Council had recommended, the PLI bill 
proposes more SITLA trade-in areas, but also more NCA and 
wilderness acreage, thereby honoring that balance point set by 
the new council.
    Although I prefer the position of the old council, I 
respect the deliberative process and accept the outcome. In 
fact, beyond Big Flat, most areas covered by the PLI would be 
more restricted than what the counties had recommended.
    To develop a viable bill, the Congressmen made careful 
concessions to wilderness groups without undermining the 
interests of local communities. Unfortunately, wilderness 
groups have turned their backs on negotiation in favor of 
another quick fix, this time proposing a 1.9 million acre Bears 
Ears National Monument.
    As with Greater Canyonlands, the Bears Ears covers many 
motorcycle and ATV trails where Ride with Respect stewardship 
would no longer be welcome, if other national monuments are any 
indication.
    While the threat of national monuments can be credited for 
making many stakeholders compromise, it has clearly had the 
opposite effect on wilderness groups. At the risk of being 
blunt, the PLI is not a great deal for OHV riders, and a 
national monument could be a great fundraising tool for Ride 
with Respect.
    However, I am not taking time off the trail just to advance 
my hobby of motorcycling or my profession of directing a 
nonprofit organization. I am here because imposing a national 
monument on half of a county would only entrench controversy.
    While the PLI could not be a panacea, it would go a long 
way toward resolving controversy by providing a more clear 
direction and basically putting brackets on the debates that we 
have been having for many decades. In my 14 years of service on 
public lands, the PLI is the closest proposal that I have seen 
to sustaining people and places.
    I submitted 20 attachments to convey the PLI's thoroughness 
and ask members of the Subcommittee on Federal Lands to focus 
on the 6 attachments from this past summer.
    Also please feel free to ask questions.
    Thank you.
    [The prepared statement of Mr. Koontz follows:]
   Prepared Statement of Clif Koontz, Executive Director, Ride with 
                                Respect
    Chairman McClintock, Ranking Member Tsongas, and members of the 
subcommittee, I am Clif Koontz, Executive Director of Ride with Respect 
(RwR), a 501c3 non-profit organization that conserves shared-use 
recreation of the public lands surrounding Moab, Utah. Thank you for 
the opportunity to discuss the Utah Public Lands Initiative (PLI), a 
bill that I believe lives up to its stated purpose ``to provide greater 
conservation, recreation, economic development, and local management of 
Federal lands . . .''
    For the past 13 years, Ride with Respect has assisted state and 
Federal agencies with the management of off-highway vehicles (OHVs). 
Our motto of ``caution, consideration, and conservation'' promotes an 
ethic of respecting oneself, other trail users, and the land itself. 
Our trail work almost always benefits conservation, and rarely involves 
constructing new trails. More often we relocate existing trails away 
from sensitive resources, such as unstable soils, riparian areas, and 
cultural sites. I have supervised over 12,000 hours of field work, and 
am proud of RwR's contribution to the natural resources and the local 
community as well as visitors who depend on them.
    In 2012, when groups seeking to vastly expand wilderness 
designations proposed a 2 million-acre Greater Canyonlands National 
Monument, I was concerned that such a proclamation would likely close 
trails systems for which RwR has been the caretaker. By 2013, the 
monument threat had spawned a collaborative effort in which Rep. Bishop 
and Rep. Chaffetz solicited input from stakeholders via each county in 
eastern Utah. I don't know how many hundred hours I've spent 
participating, but my personal notes on various meetings and 
correspondence specific to the PLI is 100,000 words long.
    To illustrate this difficult process, let me describe an area 
between Moab and Labyrinth Canyon called Big Flat. As part of Grand 
County's Big Flat Working Group, in 2014 I attended a dozen meetings to 
develop a package of conservation, recreation, and development areas. 
The old County Council accepted these recommendations, but rather than 
forwarding them to the Congressmen, the Council deferred to incoming 
council members. In 2015, the new council modified the Big Flat Working 
Group package to emphasize conservation. In 2016, compared to what the 
new County Council had recommended, the PLI bill proposes more SITLA 
trade-in areas but also more NCA and wilderness acreage, thereby 
honoring the balance point set by the new council. Although I prefer 
the position of the old County Council, I respect the deliberative 
process, and accept the outcome.
    In fact, beyond Big Flat, most areas covered by the PLI would be 
more restricted than what the counties had recommended. To develop a 
viable bill, the Congressmen made careful concessions to wilderness 
groups without undermining the interests of local communities. 
Unfortunately wilderness groups have turned their backs on negotiation 
in favor of another quick fix, this time proposing a 1.9 million-acre 
Bears Ears National Monument. As with Greater Canyonlands, Bears Ears 
covers many motorcycle and ATV trails where RwR's stewardship would no 
longer be welcome, if every other national monument is any indication. 
While the threat of monuments can be credited for making many 
stakeholders compromise, it has clearly had the opposite effect on 
wilderness groups.
    At the risk of being blunt, the PLI isn't a great deal for OHV 
riders, and a monument could be a great fundraising tool for RwR. 
However I'm not taking time off the trail just to advance my hobby of 
motorcycling or my profession of directing a non-profit organization. 
I'm here because imposing a monument on half of a county would only 
entrench controversy. While the PLI couldn't be a panacea, it would go 
a long way toward resolving controversy by providing a more clear 
direction. In my 14 years of service on public lands, the PLI is the 
closest proposal I've seen to sustaining people and places.
    I submitted 20 attachments to convey the PLI's thoroughness, and 
ask members of the Subcommittee on Federal Lands to focus on the 6 
attachments from this past summer. Also please feel free to ask 
questions. Thank you.

                                 *****

The following documents were submitted as supplements to Mr. Koontz's 
testimony. These documents are part of the hearing record and are being 
retained in the Committee's official files:

    --The Times-Independent Article: Guest Commentary. Greater 
            Canyonlands--A monumental mistake that may also spark 
            collaboration . . .

    --Blueribbon Coalition, April 23, 2013 Letter to Chairman Bishop

    --Blueribbon Coalition, July 10, 2013 Letter to Chairman Bishop

    --Description of OHV Management by Clif Koontz--August 13, 2013

    --Ride with Respect, January 16, 2014 Memo to the Grand County 
            Council

    --Ride with Respect, May 7, 2014 Memo to the Grand County Council

    --The Times-Independent Article: My View. Local input on federal 
            lands is a grand opportunity . . .

    --Ride with Respect, September 10, 2016--PLI proposal for Grand 
            County

    --Moab Friends-For-Wheelin', September 10, 2016--PLI proposal for 
            Grand County
    --The Times-Independent Article: My View. Stabilizing the public-
            lands pendulum . . .

    --The Times-Independent Article: Thanks to council for coming back 
            to balance on public lands . . .

    --The Moab Sun News Article, January 21, 2016: Riding with respect 
            in 2015

    --The Moab Sun News Article: Ride with Respect Editorial

    --Ride with Respect, BlueRibbon Coalition, Moab Friends for 
            Wheelin', Red Rock 4-Wheelers, February 23, 2016 Letter to 
            Rep. Bishop and Chaffetz

    --Blueribbon Coalition/Sharetrails.org, Letter to Rep. Chaffetz

    --Ride with Respect, July 13, 2016 Letter to Rep. Bishop and 
            Chaffetz

    --Ride with Respect, Past Projects

    --The Moab Sun News Article, August 18, 2016: A grounded view of 
            the PLI

    --The Moab Sun News Article, August 25, 2016: A monumental error

    --Ride with Respect, Latest Project

                                 ______
                                 

    Mr. McClintock. That concludes our testimony. Thank you.
    We will now proceed with Members' questions. We are also 
limited to 5 minutes each and the custom of this subcommittee 
is to recognize Members in order of Committee Seniority, with 
general modifications requested by the Majority and the 
Minority, and we will be making a few of those today.
    With that, I will begin the first round of questions.
    Commissioner Benally, a lot of people claim that the 
creation of the Bears Ears National Monument is going to bring 
new tourism and economic development in San Juan County. I 
understand your county already has one national park, three 
national monuments, the Glen Canyon National Recreation Area, 
and the unemployment rate is still double that of the state of 
Utah.
    Do you think another national monument would really create 
any economic prosperity for San Juan County?
    Ms. Benally. That is true, Chairman. As I said, San Juan 
County is the poorest county in the state. Tourism is not the 
answer for economic development. You can only fill hotels so 
many times, and a national monument would not encourage or 
create job creation.
    Tourism jobs are just seasonal.
    Mr. McClintock. What kind of economic activity would the 
PLI provide for your community?
    Ms. Benally. The PLI Act brings people together through a 
resource management plan with the different communities to come 
together for the county, and yes, it will include some tourism, 
and yes, there will be some development of other resources on 
the eastern side of San Juan County, a piece of an energy zone 
there.
    Mr. McClintock. Let me underscore that point for a moment. 
Mr. Koontz, we are told that the national monument designation 
will shut down a lot of economic uses of the land, but don't 
worry, look at all of the tourism you will have.
    Well, my experience is tourists do not go where they are 
not wanted, where they are forbidden to enjoy their outdoor 
recreational pursuits. Could you offer some insight into that?
    Mr. Koontz. Yes. While there is a segment of tourism that 
can utilize wilderness areas, the vast amount of tourism in the 
Moab area is not using wilderness areas, and so it is very 
important to maintain that diversity of opportunity.
    Mr. McClintock. Thank you.
    Ms. Lopez-Whiteskunk, what state do you live in?
    Ms. Lopez-Whiteskunk. I live in Towaoc, Colorado, but that 
is the headquarters of the tribe.
    Mr. McClintock. In Colorado. This bill affects the state of 
Utah.
    Ms. Lopez-Whiteskunk. I understand that.
    Mr. McClintock. Could you tell me how many of your board of 
directors are from Utah, particularly from San Juan County?
    Ms. Lopez-Whiteskunk. We have one member of the Ute 
Mountain Ute Tribal Council. The tribe is headquartered in 
Towaoc, Colorado. We do have Federal trust lands as well.
    Mr. McClintock. So, the Deseret News reported in April of 
this year that you were opposing the creation of the Sleeping 
Ute Mountain National Monument near your home in Colorado. If a 
national monument is such a good idea, can you explain why you 
do not support one in your home state, but you do support one 
imposed against the wishes of the local community in another 
state?
    Ms. Lopez-Whiteskunk. Excuse me, but I am going to correct 
that. The proposed national monument is for an already existing 
Federal Reservation. They mentioned if I would support the 
Sleeping Ute Mountain becoming a national monument, that's the 
Reservation. That seemed like a very difficult question to even 
imagine.
    Mr. McClintock. Thank you. I am going to have to cut you 
off because my time is short.
    Ms. Benally, where did this Bears Ears National Monument 
campaign begin?
    Ms. Benally. My understanding is that when the PLI process 
started, there was a branch-off once environmentalists got 
involved to create Utah Dine Bikeyah, which became Bears Ears 
Inter-Tribal Coalition. When funding started to come in, and 
there were paid board memberships, that is where it started, 
the Bears Ears National Monument.
    And also, if you look at the 1.9 million acre designation, 
it looks very, very similar to the Southern Utah Wilderness 
Alliance proposal.
    Mr. McClintock. Interesting. I have letters here which I 
would like unanimous consent to enter into the record in 
support of this from the elected County Commissioners in Carbon 
County, Emery County, and San Juan County, all in support of 
the PLI.

    [The information follows:]

       Carbon County Board of County Commissioners,
                                                Price, Utah

                                                      July 13, 2016

    To whom it may concern:

    On behalf of the Carbon County Board of Commissioners, I lend my 
support and efforts to the passage of the Public Lands Initiative 
(PLI). PLI is a good example of grass roots politics in action. There 
have been thousands of hours worked, multiple counties involved, 
hundreds of meetings held, diversity of both the political and societal 
spectrums and representation from a wide range of user groups. PLI is 
also a good example of collaboration as both sides of the issue have 
felt like they were giving up some things and gaining others.

    The declaration of this monument undermines the local peoples' 
ability to have a say and be involved in something that will affect 
their lives personally and is contrary and in opposition to a grass 
root movement like the PLI.

    Thank you for your consideration. Please do not hesitate to contact 
our office if you would like to discuss this very important matter 
further.

            Very truly yours,

                                               Casey Hopes,
                                               Commission Chairman.

                                 ______
                                 

               Emery County Board of Commissioners,
                                          Castle Dale, Utah

    Congressman Chaffetz:

    Emery County has been involved in a collaborative public land 
management process since 2008, involving many stakeholders. When we 
were asked to be a part of the Public Lands Initiative, we were pleased 
that other counties were going to engage in similar public lands 
collaboration, and that we could be part of a process that would 
address management issues on a regional basis.

    We appreciate the effort that has been made by you and Congressman 
Bishop to engage stakeholders in each of the counties, and address all 
the many issues regarding public land management. We feel your process 
has been fair and inclusive. We are pleased to see draft legislation 
made available for further process and discussion. We look forward to 
continued discussion of the draft legislation as it makes its way 
through Congress.

    The Emery County Commission supports the Public Lands Initiative, 
and will work to ensure its success.

            Respectfully,

                                               Keith Brady,
                                 Chairman, Emery County Commission.

                                 ______
                                 

                        San Juan County Commission,
                                           Monticello, Utah

                                                        May 3, 2016

Hon. Barack Obama, President of the United States,
The White House,
1600 Pennsylvania Avenue N.W.
Washington, DC 20500.

    Dear Mr. President:

    As the elected Board of Commissioners of San Juan County, Utah, we 
are concerned that a Presidential designation of a national monument of 
significant acreage in San Juan County may be made prior to the end of 
your administration. Such a unilateral designation would not be 
supported by this Commission nor would it be favorably accepted by a 
majority of San Juan County residents.

    San Juan County has been actively involved the past few years in 
preparing a citizen's proposal for land designations to be included in 
the Public Lands Initiative (PLI) sponsored by Congressmen Rob Bishop 
and Jason Chaffetz. The impetus for this Initiative is to provide 
greater certainty and local management of federally managed lands by 
resolving long-standing and highly controversial land management 
issues. The Commission supports locally-driven planning and in that 
spirit appointed a council of citizens from various parts of the county 
representing a variety of interests to develop a proposal. The 
resulting proposal was endorsed by this Commission. This proposal 
included, among other things, the designation of two National 
Conservation Areas and several wilderness areas. This proposal was 
submitted to the Congressmen for inclusion in the PLI for eastern Utah. 
This PLI is currently being reviewed by Congressional staff preparatory 
to introduction into Congress for passage into law.

    Governor Herbert has expressly asked that Presidential designation 
of a national monument not be considered in Utah while the PLI process 
develops. He was assured by your office that such a designation would 
not occur while this process works out but if such unilateral 
designation is considered, it would not be exercised without first 
involving the local citizenry in a public, transparent process 
including locally-held hearings. This assurance of an open public 
process on a local level was also reaffirmed by Bureau of Land 
Management Director Neil Kornze in testimony given in a March 23, 2016, 
hearing of the House Committee on Oversight and Government Reform. 
Furthermore, it has been the practice of your administration to 
exercise this authority only where it is widely supported by local 
residents.

    We trust that these assurances will be honored and that the current 
open and transparent process of developing a Public Lands Initiative 
will continue. It is our hope that such a locally-driven process will 
be the basis for resolution of land management issues that have long 
festered and polarized all sides of the issues.

            Sincerely,

                                                Phil Lyman,
                                               Commission Chairman.

                                        Rebecca M. Benally,
                                             Commission Vice-Chair.

                                            Bruce B. Adams,
                                                      Commissioner.

                                 ______
                                 

    Mr. McClintock. They are, by definition, and you are, by 
definition, a representative of the people or you would not be 
holding that office. It seem to me the bill is opposed by out-
of-state interests who are orchestrating this national monument 
campaign. Is that an accurate observation?
    Ms. Benally. That is a 100 percent accurate observation of 
outside interests.
    Mr. McClintock. In my remaining 14 seconds, could you 
explain the views of the Indian tribes in the local community 
on this project?
    Ms. Benally. The three tribes in San Juan County with 
letters and visiting elders oppose a national monument for the 
simple reason of it will close access.
    Mr. McClintock. Great. Thank you very much.
    The Chair now recognizes the Ranking Member, Ms. Tsongas, 
for 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman.
    It is clear today, and we are hearing it over and over 
again, that much appreciation has been given to the many 
hearings that were held and the strong effort that has been 
made to bring people together, but it is clear that we still 
have real differences that are getting in our way.
    One aspect of this bill that has received a lot of 
attention, and we are certainly hearing it today with our 
questions, is the effort to protect the area known as Bears 
Ears.
    So, Ms. Whiteskunk, can you tell us why this place is so 
special and worthy of protection?
    Ms. Lopez-Whiteskunk. This location is worthy of protection 
for many reasons, but utmost is the Native Americans have ties, 
and it is just not the five tribes. Many tribes have come and 
gone through this area. We have ties and identity to the earth. 
It is who we are, what we do, where we pray, where our 
ancestors once roamed.
    There is still strong evidence that they were there. When 
they are there, we are still there. Our prayers and our 
viability on a daily basis is still very, very much in 
existence. It is our responsibility to protect what once was 
for what is upcoming in the future for our children and our 
grandchildren.
    We have to protect the water usage. We have to protect the 
vegetation, the fragile ecosystem that fringes in the balance 
of what is called civilization.
    From what I last heard, the greatest thing that ever 
happened to us was when the Homestead Act came to be. My last 
understanding was there were Native people that did live in 
those areas. I did not know it needed to be homesteaded.
    So, we have a natural, innate desire to take care of what 
is, and that has been in our DNA to protect it.
    Ms. Tsongas. One of the goals obviously of this Federal 
Lands Subcommittee and the Natural Resources Committee is to 
identify places that have deep significance both to the peoples 
who live and have lived in those regions, but also for what 
they say about who we are as a country.
    Given your deep connection to Bears Ears, was the Bears 
Ears Inter-Tribal Coalition able to participate in the PLI 
negotiations?
    Ms. Lopez-Whiteskunk. We started that, and let me back up a 
little bit. With a group of the Utah Dine Bikeyah, they 
initially were the grassroots organization that started that 
discussion. It is through their frustrations and efforts that 
they then approached many of the tribes to collectively gain 
the support of tribal sovereign voices, and through that effort 
is how we organized as tribally-elected leaders to bring the 
sovereign voices to the forefront so that we could conduct a 
government-to-government relationship and conversation.
    Ms. Tsongas. Were you all able to travel to Washington to 
make the case with any frequency?
    Ms. Lopez-Whiteskunk. Well, what we have in my exhibits, 
which you also have before you with my written testimony, is a 
demonstration of documented meetings and times of when we did 
participate, and we have attempted to try to continue the 
conversations with Chairmen Bishop and Chaffetz. Through 
several of those meetings we just did not feel like we were 
quite taken seriously.
    Ms. Tsongas. Can you talk a little bit more about why you 
chose to leave the negotiations?
    Ms. Lopez-Whiteskunk. As I mentioned in the Exhibit A, we 
provided a proposal. Part of that proposal is an extensive time 
line. Within that time line we felt like it was just time that 
we needed to be taken seriously.
    On December 31, we all gathered in White Mesa and were 
supposed to have a meeting with staff members. That morning, we 
received a letter that that was not going to happen. We had put 
our agenda out, and we said we need to discuss what our next 
steps are, and that is when it was discussed to great lengths 
that we would turn away from the PLI effort at that point 
because of frustration.
    Ms. Tsongas. And were you able to raise your concerns with 
our Chairmen and their staff as they were engaging in this 
process?
    Ms. Lopez-Whiteskunk. We did, and we asked for a reaction 
to our proposal. A substantive reaction was never received.
    Ms. Tsongas. Do you feel that the PLI as proposed provides 
adequate protection for the cultural resources of Bears Ears?
    Ms. Lopez-Whiteskunk. We need collaborative management. We 
need more than an advisory position.
    Ms. Tsongas. So, you see much work that still needs to be 
done?
    Ms. Lopez-Whiteskunk. Yes.
    Ms. Tsongas. Thank you, and I yield back.
    Mr. McClintock. Thank you.
    The Chair next recognizes the Chairman of the Western 
Caucus, Mrs. Cynthia Lummis of Wyoming.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I can tell you this process that Mr. Bishop and Mr. 
Chaffetz have initiated has actually spawned a similar process 
in Wyoming, the Wyoming Public Lands Initiative, to try to pull 
together groups of interest in the land and its care and 
protection, its proper grazing and use. This has been an effort 
that has been something that we are trying to replicate.
    I am proud of the work that they have done. I am also proud 
of the work that Wyoming County Commissioners and people who 
live and work on the land in Wyoming are doing to try to set a 
course for land that we live on, work on, love, and recreate 
on, and to do it in a way that honors people previously living 
there and honors the people that want to live there in the 
future, including our children and our families.
    I also applaud Chairman Bishop and Chairman Chaffetz for 
their terrific work on this bill.
    Yesterday, I held a hearing over in the Interior 
Subcommittee on Oversight and Government Reform specifically 
about grazing. We talked about some of the very 21st century 
grazing methodologies that are being used around the world to 
improve the grass resource, the soil resource, and the way that 
water moves across the land.
    And these processes, when you apply modern science, are 
very different from the way we manage Federal lands now and 
more similar to the way that the ancestors of two of the women 
at the table that have tribal roots managed the land.
    To suggest that there is not a better way than having the 
Federal Government in Washington, DC manage land and processes 
when the people who are on the land are so able of employing 
processes that have worked for time immemorial and can work 
again is a little shocking to those of us who care so much 
about our states.
    I am delighted to have the testimony here today.
    With those remarks, I want to ask one question of Director 
Kornze first, and it has to do with wild horse sterilization 
management. You canceled the research, and horse populations 
have tripled. We are engaged in the desertification of certain 
lands in the West because of the horse population and, quite 
frankly, improper management of grazing resources.
    My question is--why? What is it going to take for BLM to 
manage the wild horse population?
    Mr. Kornze. You raise a very big, very important topic. 
Related to research, we are still moving ahead with many 
research projects. A few years ago when I came into this seat, 
I sat down with our team and we discussed this and asked what 
is the state of knowledge? What is the state of science?
    The best we have is what we call PZP, which is a 1-year 
fertility treatment. We have almost 70,000 horses out on the 
range. We do not have the budget to go out and touch every 
horse every year.
    Mrs. Lummis. Right. But here is my question. You and I have 
had this dialogue before.
    Mr. Kornze. Absolutely.
    Mrs. Lummis. Did you cancel the research because you got 
sued?
    Mr. Kornze. We were working with Oregon State University 
and a number of litigants in trying to find a way to have a 
reasonable observation opportunity for the litigants, and we 
simply could not come to an agreement for all parties.
    It does not mean we are stepping back from this type of 
research. It just means that research, at that place, at that 
time, we had to take a step back from, but we will continue 
moving forward, looking at long-term fertility control and 
looking at spay and neuter. We have to go in that direction.
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back.
    Mr. McClintock. Thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chairman.
    I would like to preface my questions with a few remarks.
    First, Chairman Bishop and also Chairman Chaffetz, I 
applaud you for the years of work on this PLI, but I believe in 
its present form it is seriously flawed. It is of particular 
interest to me as I have come to know and deeply appreciate 
Utah's public land treasures. Earlier this year, I participated 
in our committee's field hearing in St. George, Utah, and I was 
lucky enough to spend some time after the hearing hiking and 
getting a first-hand appreciation of the amazing and unique 
landscapes in southern Utah.
    I can completely understand why passionate people in my own 
district, in Long Beach and in Orange County, keep constantly 
asking me to take care of and protect our public lands, and to 
keep them public for all Americans to visit and enjoy.
    Even though my constituents live hundreds of miles away 
from Utah, they spend their precious time and money visiting 
and defending our shared public lands, just like visitors from 
Utah come to experience and love California's Yosemite or 
Joshua Tree National Parks.
    However, the road to preserving public lands for future 
generations has been a bumpy one filled with opposition, which 
incidentally is true for any great idea. Even such iconic 
places as the Grand Canyon and Yellowstone National Park were 
staunchly opposed leading up to their creation. Yet now, they 
enjoy broad support and bring many economic opportunities to 
their gateway communities.
    In Utah, for example, the proposal by Senator Frank Moss to 
create the Canyonlands National Park in 1961 was also met by 
stiff opposition that split the Utah delegation and was opposed 
by then Governor George Clyde.
    Today, however, Canyonlands receives more than 500,000 
visitors a year and was recently praised by Utah's Senior 
Senator Orrin Hatch, who said, ``We owe a debt of gratitude to 
the people, both elected officials and citizens, who possessed 
the foresight to recognize the value of Canyonlands and created 
the park 50 years ago.''
    As a country, we have had a long history of vigorously 
debating the future of our public lands, but the arc has been 
bent toward the long-term preservation of our public lands to 
be used by the many, instead of privatization or development 
for the profits of few.
    That is why many of the provisions in the PLI concern me, 
because they do not strike the right balance between 
development and conservation that a majority of Americans like 
my constituents have come to demand. In fact, in my reading of 
the PLI, it conserves 100,000 acres less than the status quo; 
opens up pristine landscapes to roads; and grants unprecedented 
authority to the state to develop Federal minerals on the 
state's terms.
    My three-part question then is for Director Neil Kornze on 
that last point. Has there ever been another example of a state 
government having primary permitting authority over decisions 
on Federal lands like the PLI has proposed?
    Do you think it is appropriate for states to be given 
permitting authority for energy development on Federal lands?
    And, how specifically might state permitting on Federal 
lands complicate the work of the BLM, including potentially 
interfering with BLM's other land use responsibilities, like 
recreation, hunting, and fishing? Director Kornze?
    Mr. Kornze. Thank you, Mr. Lowenthal, for that question.
    In terms of a precedent, I am not aware of a precedent 
where a state has been given primacy in the authorization of 
things like energy development. This would be not only unusual, 
but potentially highly problematic. We have a number of active 
oil and gas wells, a number of active leases; in addition, we 
have a broad array of activities that we have management 
responsibility for given to us by this committee and by 
Congress.
    So, we have very strong concerns with those provisions. We 
have laid that out in some detail in the written testimony, and 
we hope that we can continue working with the committee and the 
sponsors on the core of their concerns.
    We think we have a very good energy program running in 
Utah. We also think that, by and large, our grazing program has 
been highly successful.
    Dr. Lowenthal. Thank you.
    And I will wait if there is a round two for further 
questions.
    Thank you, Mr. Chair.
    Mr. McClintock. Thank you.
    Our resident forester, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    I, too, would like to compliment Chairman Bishop and the 
work that he and the Utah delegation have done on this, plus 
all the others that put so much effort into it. I think it is 
an example of how the legislative process should work.
    I believe there have been years of work, 65 different 
proposals and 1,200 meetings. This has been debated long enough 
and I, again, would just like to congratulate the Chairman for 
his work on that and for the example that he sets for the rest 
of us.
    There is a map up on the screen. Mr. Kornze, if you could 
please look at that map on the screen and the one that is in 
front of you that was prepared by the BLM on July 12, 2016. 
There is a red portion of land that will be transferred to the 
state of Utah under the PLI. According to this map, the land is 
public land managed by the BLM.
    Can you confirm that this is currently public land that is 
managed by the BLM?
    Mr. Kornze. It indicates that here on the map which was 
just put in front of me. So sure.
    Mr. Westerman. So, the area indicated in red on the map is 
land that is currently public land that is managed by the BLM?
    Mr. Kornze. With the information I have in front of me, it 
looks like that is accurate.
    Mr. Westerman. OK. The next question is for Ms. Weldon.
    This subcommittee is focused on ways to improve forest 
health during this Congress. PLI attempts to address forest 
health by helping the Forest Service better manage land through 
several different land conservation and consolidation 
provisions.
    Can you explain to the subcommittee how Chairman Bishop's 
bill will help the Forest Service better protect Utah's Federal 
lands from threats such as insects, disease, and wildfire?
    Ms. Weldon. Thank you.
    There are many aspects of the bill around conservation that 
echo the goals that the Forest Service has in managing these 
public lands with assistance from the public around sustainable 
forest management, health for watersheds, and ensuring a range 
of uses that citizens want to be a part of and that contribute 
to economic capability.
    There is that great echo. Our concern is that there are 
aspects of this, by making this a law, that take away the 
adaptability that we find has really helped us to be successful 
over the long term with ensuring those types of forest health 
and ecological goals.
    Mr. Westerman. Could you clarify that? Are you saying 
making this law would hurt forest health or help forest health?
    Ms. Weldon. We would like to discuss further some of the 
provisions that lock in static types of management compared to 
what our planning regulations do, which allow for us to 
periodically check and adapt based on what's happening with 
landscapes and what is happening with public values through 
time.
    We just want to make sure as we move forward that we keep 
that adaptability, flexibility, and the ability for the public 
input and the most recent scientific findings to be considered 
as we continue to manage.
    Mr. Westerman. So you are thinking this bill will make it 
harder to manage than what you currently have?
    Ms. Weldon. There are concerns about layers of complexity 
that are placed on top of our current planning processes that 
would make it more challenging.
    Mr. Westerman. Mr. Chairman, I yield back.
    Mr. McClintock. Thank you.
    Mr. Polis.
    Mr. Polis. Thank you.
    I have a number of issues with the provisions of the 
legislation we are reviewing today. Certainly, I find it 
unacceptable that the bill includes language ranging from a 
public land giveaway, to a failure to protect the Bears Ears 
region, to shedding environmental protections, and the fact 
that this legislation steals land from the Ute Indian Tribe. 
H.R. 5780 includes a provision to take 100,000 acres of the 
tribe's lands within the Uncompahgre Reservation, which was set 
aside for the tribe's Uncompahgre Band in 1882 by Executive 
Order.
    The Uncompahgre Band was originally from Colorado, and I 
plan to stand up for tribal sovereignty. The fact that this 
bill attempts to steal over 100,000 acres of land, I find is 
offensive to the concept of tribal sovereignty, as well as the 
integrity of our Nation's agreement with our Indian Nations.
    But it is not only the provisions in the bill that I have 
some issues with. It is also the way that the order has gone 
about it, and the fact that our Chairman seems to be refusing 
to allow access on wilderness bills that do have community 
agreement behind them, while holding hearings on bills like 
this.
    I hope that in the future we can be more evenhanded in the 
committee. I know the Chairman has said he has had many 
stakeholder meetings on the Public Lands Initiative, but 
obviously there are differing opinions from Utah among the 
people who are represented here, most notably the voices from 
people who are here and not here on all sides of this issue.
    Chairman Bishop and Chairman McClintock, I did send you a 
letter on August 16 requesting a hearing on my Continental 
Divide Wilderness and Recreation Act. I have not yet received a 
response. I hopefully look forward to your affirmative response 
shortly.
    I do want to indicate that while I am pleased that I have 
had several pieces of legislation move through this committee, 
my district's top priority, the Continental Divide Wilderness 
and Recreation Act, has not received a hearing yet. As you are 
aware, the bill came about from a large coalition of local 
groups, officials, and businesses requesting a change in 
designation for approximately 60,000 acres of Colorado's most 
spectacular peaks and forests in Summit and Eagle Counties, our 
main economic driver and our main lifestyle driver.
    We have introduced the legislation three times, had an open 
stakeholder process, we compromised, and we got everybody on 
board. If we do have the opportunity to have a hearing, you 
will hear diverse voices from our water authorities, our 
cities, our counties, our businesses, sportsmen groups, 100 
bipartisan, nonpartisan endorsing organizations, companies, 
local governments, et cetera, all supporting this designation 
change.
    In our conversations, you have indicated a willingness to 
potentially hold hearings on this, but I wanted to again 
respectfully ask that our subcommittee or committee consider a 
hearing on that bill with local buy-in.
    Now, moving on to the issue at hand, I did want to address 
a question to Director Kornze in follow-up to Mrs. Lummis' 
question. Although you mentioned you have taken a step back 
from research, a dangerous roundup of horses is still 
occurring, and often these roundups occur when foals are very 
young, sometimes killing them.
    You mentioned PZP. Aren't there other humane methods like 
this, instead of costly roundups and dangerous and costly 
holdings and even slaughter, to manage our wild horse 
population?
    Mr. Kornze. The Bureau of Land Management's goal is to have 
healthy horses on healthy rangelands. We have a number of 
impediments to getting there. Part of it is the tools and the 
budget that we have.
    Just to give you a sense of scope, there are about 70,000 
horses on the range right now. Our own internal analysis is 
that there should be something closer to 25,000 or 27,000 
horses. That is the recommended amount.
    Mr. Polis. I understand. One more thing. I know you have 
about 44,000 horses that one of your own advisory committees 
recently recommended for slaughter or sale. Can you give me 
information to reassure my constituents that the advice of that 
committee is non-binding and inform me as to what other options 
are being looked into the BLM, other than the completely 
unacceptable proposal of slaughter or sale?
    Mr. Kornze. I can confirm that for you. The advisory board, 
frankly, we were surprised by their recommendation last Friday. 
I read about it in the papers like you did.
    We have a huge challenge, and it is something that we have 
been trying to put together a comprehensive program to slow the 
fertility of the horses and to make sure that we are getting 
more horses into good homes.
    And we have a massive budgetary problem in that we have 
roughly 50,000 horses that have already been taken off the 
range and are sitting in long-term holding pastures and 
corrals. That is a billion, with a B, dollar cost for the 
American taxpayer over the life of those horses.
    Then we have the additional roughly 70,000 horses that are 
out on the range. We need more tools. We could use the help of 
this committee. We could use the help of states to get after 
research, to get after more programs, to get more horses into 
homes, but also to figure out how to properly manage these 
animals.
    And I will note one more thing, that this is the only 
species that the Bureau of Land Management has responsibility 
for. It is a true oddity. Normal wildlife is managed by 
governors.
    Mr. McClintock. I have to call time on you. We did have a 
hearing on this very subject here earlier this year.
    Mr. Kornze. But just to finish the point--if it is 
endangered, it is managed by the Fish and Wildlife Service or 
NOAA. This is the one species that the BLM has, and I think 
there are a lot of big questions that we need to ask about how 
we have ended up here.
    Mr. McClintock. Thank you.
    Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman.
    Mr. Kornze, many in the West, to put it mildly, take issue 
with the excessive use of the Antiquities Act. We often argue, 
and our constituents argue, that they would be much better off 
if their Congressional leaders had an opportunity to be part of 
that vote process on whether to create national monuments or 
not.
    Based off of the extensive stakeholder involvement and the 
transparent process throughout the development of this 
legislation, would you agree that this is a better way to go 
about solving land management challenges instead of through the 
unilateral executive action?
    Mr. Kornze. Congressman Hardy, it is good to see you.
    Mr. Hardy. You, too.
    Mr. Kornze. I will say that I think the state that you 
represent, which is my state, has had great success in working 
through some of these large landscape legislative efforts, and 
I think they are good for communities.
    Mr. Hardy. OK. Do you believe that Chairman Bishop's 
legislation is an appropriate balance between conservation and 
economic development?
    Mr. Kornze. I have long testimony and have given our views 
on it, but I think that there are a number of provisions that 
give us great heartburn, whether it is handing permitting over 
to the state on oil and gas or limiting the BLM's discretion to 
properly manage grazing. As forage goes up and down, we would 
be locked into a flat line of how many cows can be out there 
and how many cows should be out there.
    And that is the tip of the iceberg. There are other pieces 
where, when it comes to the language that is underneath the 
title ``National Conservation Areas,'' many important pieces 
are missing. Notably, language that says, as there are in other 
National Conservation Areas, and there are more than 20 across 
the country, this area should be managed for the conservation 
purposes that are spelled out in this bill.
    That is not part of this, and so there are a number of 
gaps. I am so pleased that Chairman Bishop and Chairman 
Chaffetz have taken on this task. It is extraordinary to have 
seven counties working together and pushing in a similar 
direction, and to have all of the groups that come with that.
    Mr. Hardy. OK.
    Mr. Kornze. But there are some serious concerns we have, 
and we would like to see some major revisions to the 
legislation.
    Mr. Hardy. OK. I guess one of the key points I would like 
to emphasize when we examine this legislation is the solution 
to improve land management that sometimes we feel have not been 
done by BLM. Along with Chairman Bishop, every member on this 
committee supports protecting public lands, and preserving our 
Nation's natural heritage is very important also.
    Yet, despite the commitment to responsible stewardship, 
interest groups like to frame these efforts as massive 
privatization.
    Do you believe that under this reading of this bill that 
the local and state governments will manage the lands covered 
and it is not just for private interests?
    And do you believe this is a massive land sale like some 
would like to have us believe?
    Mr. Kornze. There is a provision that would compel us to 
sell thousands of acres immediately. We have given the feedback 
that we think that we would like to work with the sponsors on 
which parcels make sense. Some have been identified for sale in 
our plans. Others have not, and there also might be better 
mechanisms.
    We want to make sure that we are not dumping land onto a 
market and flooding it. If there is interest, like in southern 
Nevada, there is a system where people have to raise their hand 
and say, ``We are interested in this,'' and then the county or 
the cities come to the BLM and say, ``There is expressed 
interest in this. We would like to nominate it for sale.''
    That kind of process allows us to make sure that we are 
working on something where there is a high probability of a 
sale and we are using public resources maximally.
    Mr. Hardy. OK. Thank you.
    I am short on time. Mr. Ure, can you explain why this is 
such a good win-win for the state and the Federal land 
managers?
    Mr. Ure. Thanks for the question.
    In the PLI, this is a way for both the children in the 
state of Utah, also the Ute Indian Tribe, and also the Federal 
Government to all make money off the natural resources and 
still be very, very directly guided and not ruin the 
picturesque things we have in our mind that are beautiful.
    We have new ways of drilling oil and gas called horizontal, 
as you guys are all aware of. We can start one here and go 2 
miles in one direction or another.
    I think one of the things that both Congress and also the 
people of the United States do not realize is that the Federal 
Government makes money off royalties of oil and gas. With our 
sanctions being scattered out throughout the western states or 
throughout the state of Utah, oil companies do not have the 
incentive to go out there and pay the mitigation fees or the 
mitigation acreage of going 1 mile and having to put 10 miles 
into mitigation one way or another.
    By us being able to block this up, we are able to have 
better control of our property. We are able to give royalties 
to our school kids, to the Federal Government, if that is the 
ground on which they choose to drill on, and also with 
partnerships with the Ute Tribe, we can also give royalties 
there. So it is a win-win for everybody on that, Congressman.
    Mr. McClintock. OK. Thank you.
    Mr. Hardy. Thank you.
    Mr. McClintock. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Director Kornze, I think in response to other Members' 
questions, you have dealt with this question about Division B 
of the bill that mandates a land exchange between the Federal 
Government and the state of Utah. This land exchange that is 
directed in the bill, as you indicated, differs from the 
standard presently with BLM procedure.
    Beyond the concerns that you outlined, is there another 
comment regarding that exchange that is mandated?
    Mr. Kornze. To paraphrase the official feedback we are 
provided when it comes to any land exchange, we are generally 
looking for four things: a public interest determination, a 
complete NEPA process, standard appraisals being used, and 
equal exchange.
    Those are the four things that we walk into any exchange 
discussion looking for, and some of those pieces seem to be 
missing here.
    Mr. Grijalva. Director, it is my understanding that the Ute 
Indian Tribe is very directly impacted by these land exchanges 
that are being mandated. It is their assessment that 100,000 
acres of their reservation would transfer to the state of Utah 
without review or consultation.
    Is it possible that the land exchange authorized by the 
bill could transfer Indian land to the state of Utah? Is that 
really possible?
    Would this happen if we followed BLM land exchange 
procedures? Would that be possible to make that kind of 
exchange? It is probably more of a BIA question, but the BIA is 
not here.
    Mr. Kornze. Yes. This is a unique situation that I have not 
seen in my public lands experience before, where the Ute Indian 
Tribe has stepped forward and asked for the reinstatement of 
significant lands into tribal ownership. So, it is incredibly 
complex on the legal side of this.
    We are still looking through it, so I cannot offer you a 
template of how BLM has dealt with this in the past. This is 
the first time that I have seen it.
    Mr. Grijalva. Thank you very much.
    Director Ure, in this bill the group SITLA is seeking to 
consolidate 100,000 acres of lands within the Ute Indian 
Tribe's Reservation. Could you answer for the committee why 
these lands are so valuable to SITLA?
    And when SITLA proposed taking these lands from the tribe, 
did you know that they were tribal lands?
    Mr. Ure. Could you repeat the last question again?
    Mr. Grijalva. When SITLA proposed taking these lands from 
the tribe, 100,000 acres, at the time did you folks know that 
they were tribal lands?
    Mr. Ure. Let me, first of all, explain. I am over my head 
on this one, but let me try to. The grounds that we are talking 
about go into what they call the Uncompahgre. To my knowledge, 
and I am sure the gentleman behind me will correct me outside, 
the Uncompahgre is not specifically Indian Reservation under 
today's terms.
    I believe that that is part of a lawsuit going through the 
Tenth Circuit Court in Denver and Salt Lake to define more what 
the reservation is and the Uncompahgre.
    If I am not mistaken, I believe that there is language in 
the bill that if the lawsuit should prevail, if this is part of 
the Indian Reservation, that there would be an action of doing 
something else so that it would not be Reservation ground.
    There are some tricky terms that I have learned in the last 
10 months. One is ``Indian Country,'' one is ``Reservation,'' 
and one is ``Uncompahgre.'' They are very hazy back and forth. 
As Director Kornze just said, it is very technical legal jargon 
we are talking about here that has been in court for many, many 
years.
    It is not our intent to take directly off the Reservation. 
It is out of the Uncompahgre, as I understand it today, 
Congressman.
    Mr. Grijalva. So, to some extent SITLA is betting on 
Uncompahgre. If the litigation goes a certain way, then those 
lands would be there to appropriate into whatever value SITLA 
feels those 100,000 acres have--possibly to develop gas and 
oil, who knows? The point is, at this point do you think given 
the litigation that is going on, given the ancestral ties to 
that land and the Reservation, do you feel it is even 
appropriate for these Ute tribal homelands to be included in 
any piece of this legislation?
    With the caveat about the court case there, do you still 
think that it should be in there?
    Mr. Ure. With the language in the bill, which I believe 
makes that determination if it should ever be settled, there is 
a way for us to work out of that and keep the tribe whole.
    This area up there is very rich in oil and gas. Even if we 
are given that within the PLI, there will also be revenues 
given to the tribe themselves as well as to our school kids.
    I personally believe it is a fair issue under the 
circumstances of which we are discussing the bill today. Things 
could change with the Tenth Circuit Court and change 
everything, but I believe there is language in the bill to make 
things whole for the tribe and for the trust lands at the same 
time.
    That is as good as I can answer.
    Mr. Grijalva. I yield back, Mr. Chairman. Thank you.
    Mr. McClintock. Thank you.
    Chairman Bishop.
    Mr. Bishop. OK. I have questions for all of you. Let's see 
how far we get through with this.
    Commissioner Benally, let me start with you. Can you tell 
me in very simple terms, what is the Utah Navaho Trust Fund, 
and what does it actually fund?
    Ms. Benally. The Utah Navajo Trust Fund is royalties that 
come off the oil and gas on the northern section of the Navajo 
Nation. The Utah Navajo Trust Fund recently, under Senate Bill 
90, was reinstated for the state of Utah to oversee the funds.
    It benefits roads, health, education, and the well-being of 
Utah Navajos.
    Mr. Bishop. If PLI were to pass, what would happen to that 
trust fund?
    Ms. Benally. That trust fund in PLI would help the Utah 
Navajos get a bigger share to help the Utah Navajos that have 
been neglected otherwise. That is what it would do.
    Mr. Bishop. For the roads, the transportation and the 
education, everything that is involved with that?
    Ms. Benally. Yes, and also PLI will include, if passed, 
that BIA, BLM, the Federal Government, and Navajo Nation finish 
the process of getting mineral rights from McCracken Mesa for 
the people that live on it. That is inserted in PLI, and that 
is a great benefit for Utah Navajos under PLI.
    Mr. Bishop. Thank you.
    We mentioned briefly this idea of co-management. In fact, I 
think you called it ``collaborative management'' of these 
lands. In PLI right now, the management language is all we can 
do.
    Let me ask the question. Do you like that concept of 
collaborative management, Commissioner? Because I have to admit 
I do.
    Ms. Benally. Any time anyone comes together to work 
together on anything is the best method.
    Mr. Bishop. All right. Here is the reality of it. The 
collaborative management approach that has been suggested for 
Bears Ears National Monument cannot legally be done. It 
violates the law.
    We write the law. I like the idea. PLI could, would, will--
I will write that language because I am still waiting for 
Interior to give me some potential language on that.
    We will incorporate that in PLI so we can actually do that 
collaborative management program. You cannot do it with a 
Presidential declaration. We can do it because we are Congress 
and we write the laws. That is a guarantee for you.
    Mr. Koontz, let me hit you very quickly. How would 
certainty of protection, like what we are trying to do with 
this bill, benefit groups like Ride with Respect?
    Mr. Koontz. We invest quite a bit in the trails, and we do 
not know on any given day whether they are going to go away. 
But what this bill would do is provide a certainty of access 
somewhere while giving the agencies the flexibility to relocate 
as issues arise.
    Mr. Bishop. Thank you.
    Dave, let me come back to you on this 100,000 acres, which 
has been so glibly thrown out here so far. It is complex. In 
fact, Director Kornze looked at the map and said, ``Yes, that 
is BLM land.'' They are controlling it right now.
    What you said as to what we can do in language is not, I 
think, in the bill right now. It is what I would like to add to 
the bill to try and work it out. The issue is this is part of 
litigation. Once litigation is done, is there a way we can work 
out some compromise language to make sure that the value of the 
resources that are here that are given completely over to the 
tribe would actually go to the tribe?
    Is there some language that you have proposed that could 
move us in that direction?
    Mr. Ure. Yes, it is. Once they get the lawsuit finished, 
yes.
    Mr. Bishop. All right. I appreciate that kind of clarity. 
Some of these things are very simplistically thrown out there 
that really are not accurate.
    Mr. Kornze, I do not really have a question. A couple of 
quick statements here. You have given us some language. There 
are some technical changes in there that I like. I promise you 
for a markup those will be incorporated.
    You have given me some substantive changes to the bill. I 
promise you for markup those will not be incorporated because, 
to be very honest, some of them are very confusing and the 
potential arbitrary exchange without input is what we are 
trying to eliminate in this.
    You have used the phrase ``time tested management areas.'' 
That is the exact problem. Those time tested management areas 
are why we are trying finally, instead of just giving a carte 
blanche to the executive agencies, to say Congress will take 
the time and the responsibility to map up what the agency 
should be doing and how they should be managing the land.
    I reject what you said about the oil concept. What we are 
giving to the state is simply the permitting process, doing the 
paperwork after they meet the standards that you all set, 
simply because the state can do it in a reasonable amount of 
time. You all cannot. You claim you do not have the manpower on 
the ground to do it, which is probably true.
    DEQ already has greater authority in the Clean Air Act than 
what we are giving in this particular bill. I think it is a 
misstatement and misapplication. I object to the way you have 
characterized our grazing.
    I am out of time and I have more things to complain about.
    Mr. McClintock. Well, as a matter of fact, we are going to 
go to a second round of questions, which begins with me, and I 
yield my time to the Chairman.
    Mr. Bishop. All right. Then let's come back here again.
    I also want to state in here when we talk about 
transferring of lands, and I am glad you brought it up, it says 
specifically in here any lands given to the state shall be used 
for a public purpose. That is not a sale. That is public 
purpose.
    Indeed, if you were giving lands back to the state of Utah, 
there would be no financial incentive.
    For Wyoming, lots of luck with your process. You saw what I 
am going through. We could actually solve the horse problem in 
PLI, but you would probably be opposed to it anyway.
    All right. Now let me come back to you, Dave. You said when 
you became SITLA Director that you wanted to grow the fund by a 
billion dollars. Do you think that goal is achievable if you do 
not do large transfer ideas like PLI?
    Mr. Ure. No, it really is not. The cost of drilling for oil 
in the state of Utah is already quite high, and oil companies 
are not willing to take the risk of going into one of our 
sections and finding oil in a diagonal drill somewhere else.
    Plus, they cannot afford the access to our scattered 
sections. The mitigation cost that the BLM and the Federal 
Government has put on top of these oil companies to mitigate 
out one to four, one to ten, or whatever it might be, we need 
these blocks put together so that we can make more money for 
our kids.
    Mr. Bishop. Mr. Koontz, did Ride with Respect, as you were 
going through this process, sacrifice some of your priorities 
as the negotiations have been going along?
    Mr. Koontz. Absolutely, and I have gotten flack for 
supporting things, because originally what OHV groups and even 
counties were looking for was RS 2477 resolution. We have not 
gotten that, so there is no trail that I can say for sure is 
going to remain open. But I can say that there will be less 
time spent in the courtroom in Washington, hopefully, and more 
time spent fixing things on the ground on the trail.
    Mr. Bishop. One other thing we attempted to do there is if 
there has to be a change in a trail, that we have guaranteed 
that there will have to be an equal, accurate alternative 
opportunity. So the ability of recreating in the state of Utah 
will not be taken away by arbitrary and capricious decisions 
made by someone else far, far away.
    Mr. Koontz. Absolutely, and we have done that with the BLM 
and the Forest Service, and it has been a win-win, so to have 
that legislative direction to do just that means that I can do 
a better job for the people and the land.
    Mr. Bishop. I have one other question, I am trying to 
maintain my balance here with it, for Ms. Lopez-Whiteskunk.
    You made a statement of the December meeting in which a 
staffer was supposed to attend, and you were told it would not 
happen, and that was the trigger that allowed you to no longer 
actually deal with us.
    Do you know why that staffer was not able to attend that 
Christmas time meeting?
    Ms. Lopez-Whiteskunk. No, I stated that that was the 
trigger that launched the discussion.
    Mr. Bishop. Do you know why that staffer was unable to 
attend the meeting?
    Ms. Lopez-Whiteskunk. If I recall correctly, a loss of a 
family member.
    Mr. Bishop. He was attending his father's funeral. Now, in 
all due respect, don't you think that is a wiser choice of his 
time?
    Ms. Lopez-Whiteskunk. Oh, yes.
    Mr. Bishop. Thank you. That is all I had, which is why I 
was very offended by the statement that you made. That hurts 
very deeply. I am sorry, that is the wrong type of approach to 
take on this type of legislation.
    Ms. Lopez-Whiteskunk. Well, with all due respect----
    Mr. Bishop. No, no. I am sorry. I wanted that to be very 
clear. That was the proper approach, and if that was the 
trigger, shame on you.
    With that, Mr. Chairman, let me yield back to you.
    Mr. McClintock. Thank you.
    Ms. Benally, on my final minute, one of the problems we 
have here, particularly among the western states, is Federal 
ownership. Pick a state out of the air, maybe Massachusetts--
the Federal Government owns 1.6 percent, as we have pointed 
out. It owns two-thirds of the state of Utah. I cannot begin to 
imagine the outcry if the Congress proposed expropriating two-
thirds of the state of Massachusetts for bidding economic 
activity and taking all of that land off of the local tax 
rolls.
    Any suggestions on how we can educate our colleagues about 
the difficulties existing in counties where, for example, in 
one of my counties, Alpine, 93 percent of the land is owned by 
the Federal Government, off the tax rolls and forbidden from 
productive activity?
    Ms. Benally. Ninety-two percent of the land base in San 
Juan County is National Park Service, a national monument, 
Forest Service, Navajo Nation, or reservations. Only 8 percent 
is privately owned.
    So, with this I would like to say that there has been 
neglect by the Federal Government through BLM, Forest Service, 
Park Service, and national monuments. There are such things in 
place like BLM Section 106. All of these places are already 
intact for protection and conservation, but because of gross 
neglect and no follow-through, San Juan County is the poorest 
county in the state of Utah.
    So, to educate the people, whether you are on the western 
or eastern side, there needs to be much education.
    Mr. McClintock. I am afraid I am out of time, but thank you 
for your answer.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    First, Ms. Whiteskunk, I wanted to give you a chance to 
follow up on your answer to Chairman Bishop. I appreciate his 
sensitivity to why his staff member could not be there, but I 
think you had more to say about the experience altogether.
    Ms. Lopez-Whiteskunk. Thank you, and I appreciate the 
opportunity.
    As I mentioned before, that was just one of the whole 
incidents of what happened that day. If I recall correctly, we 
had received an email that morning that that staff member was 
not going to be there. I would have figured that if the funeral 
was scheduled that day, we would have received some more leeway 
in terms of when that individual was not intending on being 
there. We received that email that morning while the rest of us 
had gathered, and we were informed that that was not going to 
happen.
    We had a well thought out agenda for that day and had just 
basically thrown that to the side and discussed where we were 
at, what we were feeling, and one of the greatest moments was 
when we just sincerely all felt like our consideration, our 
conversation in this whole process was not being taken 
seriously.
    Ms. Tsongas. Thank you, Ms. Whiteskunk. So it was clearly 
an accumulation of things.
    Ms. Lopez-Whiteskunk. Yes, as it is outlined in the 
exhibit.
    Ms. Tsongas. Nevertheless, we all appreciate why his 
staffer could not be there.
    Ms. Lopez-Whiteskunk. Thank you.
    Ms. Tsongas. Thank you.
    On another note, as we are having this discussion, I just 
wanted it to be known that we have received numerous letters 
outlining a variety of concerns with this bill. We have heard 
some of them today. While some of the letters come from 
national conservation groups like the Wilderness Society and 
the National Parks Conservation Association, groups not always 
well received by this committee, we have also received letters 
from the National Trust for Historic Preservation, the Outdoor 
Industry Association, which represents businesses that make up 
the $646 billion outdoor recreation economy, and not to mention 
local groups like the Friends of Cedar Mesa, and even one of 
the counties, Grand County, impacted by this legislation.
    All of the letters outline different concerns with the 
introduced bill, but there is one message threaded through each 
one of them, that despite all of the strong and concerted 
efforts to bring people together, in the end, this bill does 
not represent consensus and it will lead to more, not less 
conflict.
    To quote one of the letters, ``H.R. 5780 undermines years 
of effort to find common ground, and it is a missed opportunity 
to advance conservation, recreation, and economic development 
in eastern Utah.''
    I ask unanimous consent that all of these letters are 
entered into the record.
    Mr. McClintock. Without objection.
    [The information follows:]
                            The Wilderness Society,
                                             Washington, DC

                                                 September 13, 2016

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Tsongas:

    The Wilderness Society (TWS) writes to express views on H.R. 5780, 
the Utah Public Lands Initiative Act (PLI). We respectfully request 
that this letter be included in the hearing record.
    The Wilderness Society opposes H.R. 5780. While the proposal 
recognizes the critical need to protect scenic and sensitive public 
lands in Utah--places like the Bears Ears region in San Juan County--it 
fails to focus on areas of agreement between conservation groups, 
counties and other stakeholders, and would instead impose controversial 
provisions that lack public support.
    As drafted, H.R. 5780 undermines years of effort to find common 
ground and is a missed opportunity to advance conservation, recreation 
and economic development in eastern Utah.

    The legislation suffers from numerous fatal flaws, including:

    <bullet> Contradicting the Wilderness Act, Federal Land Policy and 
            Management Act, National Forest Management Act, and 
            National Environmental Policy Act.

    <bullet> Undermining the management of proposed wilderness areas, 
            national conservation areas, special management areas, and 
            recreation zones.

    <bullet> Failing to conform to local agreements between 
            stakeholders, as well as county proposals, developed during 
            the PLI process.

    <bullet> Providing unprecedented giveaways to the State of Utah, 
            including over a thousand miles of public roads, as well as 
            important land and resources.

    <bullet> Giving the State of Utah unprecedented authority to 
            approve energy development on Federal lands in eastern 
            Utah.

    <bullet> Failing to designate 62% of deserving wilderness-quality 
            BLM lands as wilderness and rolling back existing 
            protections for over 100,000 acres of wilderness study 
            areas.

    <bullet> Affording insufficient protections for the proposed Bears 
            Ears National Monument.

    <bullet> Containing numerous other onerous provisions such 
            mandatory grazing on all public lands in eastern Utah; 
            granting San Juan County a right-of-way on Recapture 
            Canyon, the site of the illegal ORV protest ride that 
            damaged archeological resources; and mandating energy 
            development in the Nine Mile Canyon Special Management 
            Area.

    We appreciate the commitment of many stakeholders and community 
leaders to find common ground during the development of the Public 
Lands Initiative. The Wilderness Society remains committed to 
continuing to work for the permanent protection of deserving public 
lands in Utah through whatever process can successfully secure those 
protections.
    Thank you for considering our views on this legislation.

            Sincerely,

                                              Paul Spitler,
                                     Director of Wilderness Policy.

                                 ______
                                 
           National Parks Conservation Association,
                                             Washington, DC

                                                 September 12, 2016

    Dear Members of the House Natural Resources Committee:

    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading public voice in protecting and enhancing America's 
National Park System. On behalf of our more than one million members 
and supporters nationwide, and in advance of the Subcommittee on 
Federal Land's upcoming September 14th hearing, I write to urge members 
of the subcommittee to oppose Chairman Rob Bishop and Congressman Jason 
Chaffetz's Utah Public Lands Initiative (H.R. 5780).
    For over three years, the National Parks Conservation Association 
(NPCA) has been a stakeholder in the Utah Public Lands Initiative 
(PLI). We encouraged an open, transparent process for determining land 
designations based on mutual trust and a commitment to finding common 
ground, where possible. NPCA's priorities in the process were to 
protect and conserve the unique ecological, cultural and recreational 
values of our national park units while also considering the larger 
shared landscape. This includes potentially expanding protections 
around several national park units as well as ensuring that activities 
on adjacent lands do not impair the air, water, sounds, night skies, 
views and other values that the National Park Service (NPS) is charged 
with protecting. Throughout the PLI process, NPCA's goal was to work 
toward legislation that would protect eastern Utah's magnificent 
landscape, while allowing for a variety of recreational opportunities, 
appropriate development, and robust local and state economies.
    After closely examining provisions in the legislation, NPCA cannot 
support H.R. 5780 because it would result in a step backwards for 
conservation in the management of the national park units and the 
larger shared landscape. In addition, the bill includes language that 
contradicts and undermines key federal laws including the Wilderness 
Act, Clean Air Act, and National Environmental Policy Act. While we are 
pleased to see our priority of expanding Arches National Park included 
in the bill, we oppose many more provisions of the bill that do not 
support parks or their adjacent landscapes, and therefore do not 
consider H.R. 5780 a balanced approach to resolving Utah's public land 
issues.
    The bill ignores much of the progress made over the past three 
years and the collaborative approach taken in several of the state's 
counties. Overall, the bill is a missed opportunity to protect and 
preserve some of America's greatest national parks and their 
surrounding public lands. Instead, H.R. 5780 would subject much of 
eastern Utah's public lands to excessive development and off-road 
vehicle use, while weakening environmental protections. Even the title 
of the bill is of concern, ``To provide greater conservation, 
recreation, economic development, and local management of federal lands 
in Utah, and for other purposes.'' These are federal lands and while 
local input and participation in management of these landscapes is 
important, these are public lands that belong to all Americans.
    Below we outline the provisions of the bill which NPCA opposes due 
to potential impacts to our national parks, their shared landscapes, 
and the enjoyment of all Americans.
Division A: Conservation
Title I: Wilderness
    Although we support H.R. 5780 the designation of wilderness in 
Arches and Canyonlands National Parks, Dinosaur National Monument and 
Glen Canyon National Recreation Area in H.R. 5780, the wilderness 
boundaries are problematic; they do not include all of the recommended 
acreage in Arches, but do include other developed areas within the 
parks, which do not qualify as wilderness. In addition, the wilderness 
management language in the bill contradicts the Wilderness Act and 
undermines the authority of the NPS to fully manage wilderness 
resources in the parks. As written, H.R. 5780 would actually offer less 
protection for lands inside national parks because nearly all of the 
land designated as wilderness in the bill that is inside the parks is 
already recommended wilderness and currently managed by the NPS in a 
manner consistent with the Wilderness Act. We are extremely concerned 
about the provisions in the wilderness administration language in H.R. 
5780 which limit the land manager's ability and authority to 
appropriately manage the natural and cultural resources. All designated 
wilderness should be managed consistent with the Wilderness Act without 
stipulations and exemptions attached.
    NPCA strongly opposes any effort to reclassify Arches and 
Canyonlands national parks from Class I to Class II airshed status as 
defined under the Clean Air Act. H.R. 5780 attempts to clarify 
exceptions to prohibiting the designation of Class I airsheds in new 
wilderness, but is not clear to which areas the clarification applies 
(p. 25, line 23-25).
Title II: National Conservation Areas
    NPCA is very supportive of protecting landscapes adjacent to 
national park units and could be supportive of the National 
Conservation Area (NCA) designation if crafted with strong conservation 
language. However, the NCA designations included in H.R. 5780 are in 
name only and do not provide for clear and meaningful protection of the 
shared landscapes, which in many cases are adjacent to NPS managed 
areas. The management language for the NCAs contradicts the Federal 
Land Policy and Management Act, National Environmental Policy Act, and 
will limit the ability of land managers to adequately manage the 
resources they are intended to protect.
    Although the Indian Creek NCA incorporates a portion of NPCA's 
long-standing Canyonlands Completion proposal (which would expand the 
Canyonlands National Park boundary beyond the natural erosional 
boundary of the Wingate Cliffs), the NCA proposed in H.R. 5780 would 
not adequately protect the Canyonlands basin and its many natural and 
cultural resources. Instead, the NCA would allow for ``historic uses'', 
including grazing and off-road vehicle use, which can be incompatible 
with adjacent NPS management and threaten park resources. This does not 
represent a significant step forward in conservation.
Title III: Arches National Park Expansion
    NPCA advocated for and supports expanding the boundaries of Arches 
National Park. However, H.R. 5780 also designates Wilderness within the 
expansion area with numerous cherry stemmed vehicle routes. These 
cherry-stems lessen the conservation value of park landscapes and the 
minor additions to the park; these also were not discussed with the 
conservation community.
Division B: Innovative Land Management, Recreation and Economic 
        Development
Title I: School Trust Land Consolidations
    NPCA has concerns with the large areas where SITLA would trade into 
federal lands west of Arches National Park and on Hatch Point east of 
Canyonlands National Park. These areas are all within the Moab Master 
Leasing Plan boundary, which is a nearly final, stakeholder driven 
process which looked closely at where and how oil, gas and potash 
leasing should take place. SITLA land within this area would not be 
managed under the provisions of the MLP and presents significant 
threats to park resources if developed for oil, gas or potash. In 
addition, the bill excludes the trade of a SITLA parcel adjacent to the 
eastern boundary of Natural Bridges National Monument. NPCA has 
consistently advocated for a trade of this specific parcel through the 
PLI process since incompatible use or development of the parcel would 
have significant impacts on park resources, including its International 
Dark Sky status.
Title VII: Recreation Zones & Title IX Red Rock Country Off Highway 
        Vehicle Trail
    Both of these titles allow for off-road vehicle use and the 
development of new off-highway vehicle trails adjacent to national park 
units. This could potentially lead to incursions in the park and damage 
to park resources. In H.R. 5780 the Klondike Recreation Zone is 
adjacent to the western boundary of Arches National Park and is 
established ``to promote outdoor recreation (including off-highway 
vehicle use, mountain biking, rock climbing, and hiking), provide for 
the construction of new non-off-highway vehicle trails, and to prevent 
future mineral development'' (P. 162). The Red Rock Country Off-Highway 
Vehicle Trail allows for the development of a new trail linking up 
several communities in southeastern Utah near Arches and Canyonlands 
national parks. However, it is not clear through H.R. 5780 where the 
routes would be located in relationship to the parks. If sited too 
close to park boundaries, there could be visual impacts and potential 
incursions into the parks. Encouraging more off-road vehicle use 
adjacent to Arches and Canyonlands National Parks could create 
increased dust, noise, and diminished air quality. This, in turn would 
impact the dark night skies, visibility, natural sounds, viewsheds, and 
overall visitor experience of millions of people to these parks and 
their adjacent public lands.
Title XII: Long Term Energy Development Certainty in Utah
    This title hands over authority for expedited energy development on 
public lands within the six PLI participating counties to the state of 
Utah. The language of H.R. 5780 requires the state to follow the 
process of federal law, but not the substance. This action could lead 
to a significant increase in energy development on the landscapes 
surrounding our national parks, without regard for the impacts on air 
quality, natural and cultural resources, and the outdoor recreation 
economy. Opening up the landscapes, particularly at the scale offered 
through H.R. 5780, adjacent to national parks to energy development 
with no regard for impacts on the natural and cultural resources or the 
experience of millions of people who flock to this part of Utah, would 
be a huge setback for conservation, the State of Utah, and all 
Americans who treasure our public lands.
    In addition, NPCA has been a strong proponent of the Bureau of Land 
Management's Master Leasing Plans as an important tool that can more 
effectively create certainty on the Utah landscape for all sides--
whether for conservation, recreational use, or energy development. H.R. 
5780 effectively eliminates the development and implementation of 
Master Leasing Plans by the BLM within the participating PLI counties 
and will nullify years of cooperative efforts between land managers and 
local stakeholders who have been working to determine where energy 
development, recreation and conservation are most appropriate on the 
landscape around Arches and Canyonlands National Parks. This action 
will also ensure that other national park units in the area do not 
receive a similar level of focused planning for potential energy 
development on the adjacent landscape.
Title XII: Long-Term Travel Management Certainty
    This title grants right of ways, in perpetuity, for all paved Class 
B roads claimed by the six PLI participating counties to the State of 
Utah. This includes paved entrance roads leading up to and within the 
Island in the Sky and Needles Districts of Canyonlands. It also gives 
right of ways to Uintah County of all claimed Class D roads in the 
county. This can include cowpaths, overgrown two-tracks and routes that 
have been closed by the BLM and NPS in Uintah County. It also allows 
the State of Utah to continue litigation for other claims not included 
in this legislation.
    NPCA's position has been consistent--the counties and state do not 
have legitimate claims to the roads, paths and trails inside the 
national parks. Their management by the National Park Service is 
critical to achieve the flow and volume of visitors into the parks 
enabling them to meet goals for recreational access and long-term 
resource protection. In addition, these controversial, permanent 
rights-of-ways flout current laws and policies governing RS2477 claims 
and would encourage off-road vehicle use on federal lands where it does 
not currently occur.
Title XIII: Long Term Grazing Certainty
    This title, requiring that grazing on public land within seven Utah 
counties continue at current levels, ``except for cases of extreme 
range conditions where water and forage is not available,'' would limit 
public land managers' ability to manage grazing and the significant 
impacts it can have on natural and cultural resources. This includes 
grazing inside Dinosaur National Monument and within the Arches 
National Park expansion. This title also undermines the National Forest 
Management Act, National Environmental Policy Act, Federal Land Policy 
and Management Act and Endangered Species Act.
    In addition, Section 1303 of this title appears to ensure public 
land grazing outside the seven Utah counties engaged in the PLI: ``this 
title shall ensure public grazing lands, including areas outside the 
areas designated in this title, not be reduced below current permitted 
levels, except for cases of extreme range conditions where water and 
forage is not available'' (P. 197). NPCA strongly opposes any type of 
provision allowing for existing grazing levels on a statewide basis. 
This provision impacts other park units including Glen Canyon NRA and 
Capitol Reef National Park.
Division C: Local Participation
Title I: Local Participation and Planning
    Creating an unbalanced, statewide advisory committee to advise the 
Secretaries of the Interior and Agriculture on the implementation of 
the PLI would complicate and bias implementation of this legislation 
relating to public lands owned by all Americans.
Division D: Bears Ears National Conservation Area
    This title creates an 860,000-acre Bears Ears National Conservation 
Area in San Juan County. Similar to the other NCA's designated in H.R. 
5780, the management language for the Bears Ears NCA contradicts the 
Federal Land Policy and Management Act and National Environmental 
Policy Act and undermines the authority of public land managers to 
appropriately protect NCA cultural and natural resources. Unlike the 
current Inter-tribal Coalition's proposal for a Bears Ears National 
Monument, an NCA would not effectively provide for the healing of the 
sacred, ancestral landscape, nor for a strong Native American voice in 
management of the conservation area. It is also not clear whether 
Natural Bridges National Monument would or would not be incorporated 
into the Bears Ears NCA. The NCA map for H.R. 5780 indicates that 
Natural Bridges National Monument would be included in the Bears Ears 
NCA; if so, NPCA advocates that the monument continues to be managed by 
the National Park Service.
Conclusion
    While we believe the PLI process led to valuable discussions among 
diverse stakeholders in some counties, and even the identification of 
areas of unexpected common ground, the resulting legislation 
represented in H.R. 5780 does not reflect the progress made during over 
three years of engagement. Instead, all semblance of compromise is 
overshadowed by broad negative policy provisions, some that were not 
shared or discussed with stakeholders, and others that NPCA identified 
as nonviable compromises from the beginning of the PLI process. While 
NPCA remains committed to pursuing all genuine opportunities to achieve 
the protection the amazing, dynamic landscapes of Eastern Utah deserve, 
we do not believe the PLI represents a conservation gain for these 
public lands. We urge you to also oppose H.R. 5780.
    Thank you for your consideration of our comments.

            Sincerely,

                                           Kristen Brengel,
                                Vice President, Government Affairs.

                                 ______
                                 

 Prepared Statement of Stephanie K. Meeks, President and CEO, National 
                    Trust For Historic Preservation
    Chairman McClintock and members of the subcommittee, I appreciate 
the opportunity to present the National Trust for Historic 
Preservation's perspectives on the recently introduced Utah Public 
Lands Initiative Act (``PLI'') and the importance of protecting the 
Bears Ears cultural landscape. My name is Stephanie K. Meeks, and I am 
the President and CEO of the National Trust.
    The National Trust for Historic Preservation is a privately-funded 
charitable, educational and nonprofit organization chartered by 
Congress in 1949 in order to ``facilitate public participation in 
historic preservation'' and to further the purposes of federal historic 
preservation laws. The intent of Congress was for the National Trust 
``to mobilize and coordinate public interest, participation and 
resources in the preservation and interpretation of sites and 
buildings.'' With headquarters in Washington, DC, 9 field offices, 27 
historic sites, more than 800,000 members and supporters and partner 
organizations in 50 states, territories, and the District of Columbia, 
the National Trust works to save America's historic places and 
advocates for historic preservation as a fundamental value in programs 
and policies at all levels of government.
    We appreciate the sustained efforts of House Natural Resources 
Committee Chairman Rob Bishop, Congressman Jason Chaffetz, and members 
of the committee to develop a legislative solution to address the long-
term conservation of nationally significant lands in Utah. This is a 
difficult and challenging problem of public policy--ongoing for 
generations--that deserves an expedient and successful resolution.
    We recognize that the existing legislation includes certain 
improvements over the previous discussion draft, but we are 
disappointed that H.R. 5780 does not meet our hope for legislation that 
would generate the broad-based bipartisan support necessary to be 
signed into law by the President.
    Accordingly, we join the broad-based request that the President 
utilize his authority under the Antiquities Act to protect the 
nationally significant cultural and archaeological resources of the 
Bears Ears area this year. In addition, the National Trust opposes H.R. 
5781, the ``PLI Partner Act,'' which would limit the President's 
authority to proclaim national monuments in certain areas of Utah.
                      national trust participation
    Bears Ears is one of the most significant cultural landscapes in 
the United States and a landscape that is home to more than 100,000 
cultural and archaeological sites, many of which are sacred to tribal 
communities across the region. The 1.9 million acres of public lands 
south and east of Canyonlands National Park include Ice Age hunting 
camps, cliff dwellings, prehistoric villages, and petroglyph and 
pictograph panels that tell the diverse stories of 12,000 years of 
human habitation.
    Since 2007, the National Trust has been working on legislative 
proposals with the Utah delegation and other stakeholders to protect 
this important place. We have also been actively engaged in cultural 
resource protection issues in southeast Utah--working to ensure 
compliance with federal laws designed to avoid impacts to historic and 
cultural properties and supporting thoughtful planning for and 
interpretation of cultural resources.
    In 2013, we developed and presented maps and narratives describing 
the National Trust's priorities for resource designations in southeast 
Utah to local, state, and national partners, including the offices of 
Congressmen Bishop and Chaffetz. Since we named this area one of our 
National Treasures in 2013, we have committed our expertise and 
resources to seeking a preservation-friendly solution to land use 
conflicts in this area. Earlier this year, reflecting our long-standing 
commitment to the legislative process, we submitted extensive comments 
on the ``Discussion Draft'' of the PLI.
    Like many Americans, I have had the pleasure of visiting and 
marveling at the extraordinary cultural resources of the Bears Ears 
region. This landscape and its resources certainly rival nearby 
nationally protected areas like Canyon of the Ancients National 
Monument (established by President Clinton in 2000), Mesa Verde 
National Park (established by Congress in 1906), Chimney Rock National 
Monument (established by President Obama in 2012) and Chaco Culture 
National Historical Park.
    It is worth noting that the remarkable resources of Chaco Canyon 
were first protected by President Theodore Roosevelt as a national 
monument in 1907. Nearby Hovenweep National Monument was established by 
President Harding in 1923.
                  viability of the legislative process
    Due to our commitment to securing permanent protection for these 
nationally significant cultural resources, the National Trust has been 
hopeful that the long-awaited PLI legislation would be crafted in such 
a way as to gather the broad bipartisan support necessary to be adopted 
by Congress and signed into law by the President this year. 
Unfortunately, the legislation as introduced on July 14 is unlikely to 
generate such support and in fact has generated significant opposition 
by many of our conservation colleagues.
    We appreciate the proposed establishment of a Bears Ears National 
Conservation Area, however we are concerned that neither the proposed 
size (857,000 acres) nor management provisions are sufficient to 
protect the nationally significant resources of this area, including 
such archaeologically valuable lands within the White Canyon drainages 
and the Allen, Chippean, and Dry Wash Canyons.
    We appreciate that there have been multiple improvements from the 
discussion draft, including, as in section 108, permitting the 
acquisition of lands within wilderness areas from willing sellers, the 
removal of language designating certain areas for recreational shooting 
and removing designation of specific areas for recreational shooting 
and certain changes restricting the ability of managers to determine 
grazing levels.

    However, we are disappointed that many of the concerns outlined in 
our February 12 letter on the discussion draft were not addressed, 
including but not limited to the following:

    <bullet> We are very concerned with the details of proposed land 
            trades which direct the Department of the Interior to 
            accept, without full environmental analysis, trades 
            proposed by the state of Utah, even when they are 
            problematic for cultural resources. In particular, the 
            National Trust for Historic Preservation joined a protest 
            in 2014 of oil and gas lease sales in the Bluff and 
            Montezuma Creek areas of San Juan County--leases that were 
            deferred to protect cultural resources. The maps submitted 
            with the PLI suggest the Utah State Institutional Trust 
            Lands Administration (SITLA) will request retention of 
            ownership of surface and mineral rights within the Bears 
            Ears NCA near Bluff--contrary to the concept of a National 
            Conservation Area--along with significant acreage adjoining 
            the NCA to the east. Both the retained and acquired lands 
            contain important cultural resources deserving of 
            protection.

    <bullet> We are particularly concerned with section 1103, which 
            would create a new program whereby the state of Utah would 
            be granted energy permitting powers now exercised by the 
            federal government. Our reading of this precedent setting 
            proposal is that it would remove the federal protections 
            currently afforded cultural resources, including the 
            National Historic Preservation Act, Native American Graves 
            Protection and Repatriation Act (NAGPRA) and other federal 
            laws.

    <bullet> We are also concerned that the existing and potential use 
            of Master Leasing Plans, which have proven to be helpful 
            collaborative tools to resolve long-standing conflicts over 
            land use would be precluded by the legislation.

    <bullet> We are concerned that the bill would permit grazing in 
            certain areas where current restrictions protect 
            archaeological and cultural resources and that other areas 
            could be made available to grazing, including in Grand 
            Gulch, Slickhorn, and other canyons on Cedar Mesa.

    Additionally, the National Trust agrees with a number of our 
conservation colleagues who have expressed serious concerns with the 
sweeping and controversial changes to other long-standing federal laws 
protecting the nation's natural and cultural resources.
    Given the numerous and significant changes necessary to redraft the 
bill and achieve a bi-partisan compromise, as well as the limited 
number of legislative days remaining prior to Congress adjourning this 
fall, we are skeptical that comprehensive legislation can be achieved 
this year.
               addressing the urgent need for protection
    Continued reports of looting, vandalism, and other damaging 
disturbances of archaeological sites lends particular urgency to the 
permanent protection of the Bears Ears landscape as soon as possible. 
In just one of over 50 recent incidents of looting, a 2009 Bureau of 
Land Management and FBI sting operation resulted in indictments of over 
24 people for multiple violations of trafficking an estimated 40,000 
stolen artifacts, government property, and Native American cultural 
items from the Southeast Utah area.\1\
---------------------------------------------------------------------------
    \1\ Center for American Progress; ``Bears Ears Cultural Area: The 
Most Vulnerable U.S. Site for Looting, Vandalism, and Grave Robbing''; 
https://www.americanprogress.org/issues/green/news/2016/06/13/139344/
bears-ears-cultural-area-the-most-vulnerable-u-s-site-for-looting-
vandalism-and-grave-robbing/; June 13, 2016 (accessed September 13, 
2016).
---------------------------------------------------------------------------
    Given the time sensitive and significant threat to priceless 
cultural resources and the absence of a realistic opportunity to enact 
bipartisan legislation during this Congress, the National Trust 
supports the protection of the Bears Ears landscape by the President as 
a National Monument before the end of this year.
    We appreciate the substantial time and resources dedicated to the 
pursuit of a legislative solution to this critical preservation issue 
by local and national stakeholders, including local governments, our 
partners in the conservation and preservation community and the staffs 
of the House and Senate committees and offices of Congressmen Bishop 
and Chaffetz. We look forward to continuing our collaborative work to 
advance preservation solutions with members of the committee, 
Congressmen Bishop and Chaffetz, and other stakeholders.

                                 ______
                                 

Prepared Statement of Jessica Wahl, Government Affairs Manager, Outdoor 
                Industry Association, Boulder, Colorado

    Mr. Chairman and members of the subcommittee: Thank you for your 
attention to the important lands and waters in Eastern Utah and for 
holding this hearing on the Utah Public Lands Initiative (PLI).
    Outdoor Industry Association (OIA) is the national trade 
association for suppliers, manufacturers and retailers in the $646 
billion outdoor recreation industry, with more than 1200 members 
nationwide. The outdoor industry supports more than 6.1 million 
American jobs and makes other significant contributions toward the goal 
of healthy communities and healthy economies across the United States.
    We would first like to express our gratitude to Chairman Bishop and 
Chairman Chaffetz and their staff for the time, energy and resources 
that have gone into crafting the Public Lands Initiative. OIA and our 
members have been involved in the PLI process for several years and we 
are pleased to see recreation interests included in the PLI, and some 
improvements from the first discussion draft. However, these 
protections as a whole do not go far enough to ensure Utah's treasured 
lands and waters will remain healthy and viable for the next generation 
of outdoor enthusiasts. Therefore, we cannot support the bill as it is 
currently drafted. We sincerely hope that our written testimony, and 
this hearing, will help chart a path forward that will provide 
protection for the Bears Ears region and recreation assets throughout 
Eastern Utah.
    Recreation on Utah's public lands and waters is a cornerstone of 
the state's economy. Eastern Utah is world-famous for outdoor 
recreation, home to several destination national parks, world-class 
rock climbing, mountain biking, whitewater paddling, hiking, 
canyoneering, OHVing, hunting and skiing. With these incredible 
recreation assets, it's no wonder that Utah is critical to the growing 
outdoor recreation sector with 122,000 jobs directly related to the 
outdoor economy, $12 billion in spending on outdoor products, and as a 
home to over 60 OIA member companies. Additionally, Outdoor Retailer 
held in Salt Lake City twice a year brought upwards of $50 million to 
the local economy and over 50,000 visitors to the area in 2015 alone.
    Resolving land and water conflicts in Utah is incredibly important 
to outdoor businesses who have chosen to locate there, their customers 
who play there, and many others across the country whose inspiration 
for exploration has, and we hope will continue to be, linked to Utah 
for generations to come.
    Like you, we believe that economic development through energy and 
mineral extraction, conservation and recreation can co-exist. Further, 
as our outdoor recreation economy study reports, protecting recreation 
assets is, in fact, economic development. This is particularly evident 
in Utah, with opportunities for a strong and sustainable future for 
recreation-based economic development and access to outdoor recreation 
that is the envy of the country, if not the world. As we focus on how 
the outdoor industry inspires healthy people, and creates healthy 
economies, we understand that economic diversity and the role that all 
of Utah's industries play in that diversification is extremely 
important. However, we also realize that energy and mineral development 
near iconic recreation destinations, or extraction that is prioritized 
and expedited in areas adjacent to recreation, undermines the 
protections of these recreation assets we have fought so hard for 
throughout the PLI process.
    Unfortunately, recreation gets very little representation on the 
PLI Advisory Committee, showcasing the lack of this balance. 
Additionally, PLI provisions call for transferring all energy leases to 
the state, which stands in direct conflict with the Moab Master Leasing 
Plan that OIA and our members enthusiastically support. Please 
reference the attached appendix A for a list of recreation-based 
concerns with H.R. 5780.
    There is not consensus for many of the provisions in H.R. 5780. 
However, there exists almost unanimous public support for permanent 
protection for the Bears Ears region and its iconic recreation 
opportunities, archaeological resources, unique landscape and 
connection to Native Americans. This was evident at the Bluff town hall 
meeting, which many of our members and partner organizations attended. 
Currently, a number of legislative and administrative efforts, as well 
as proposals from the public, call for permanent protection of this 
landscape. OIA prefers that protection for this area be accomplished 
through legislation, but we support judicious use of the Antiquities 
Act when legislative solutions are not viable for important recreation 
landscapes. (See Appendix B for our public lands statement.) We suggest 
Congress and the administration first focus on the Bear Ears region, 
find a way to strengthen the protections in this area, and then move to 
the other disputed lands and waters covered in the PLI.
    Another issue we would like to bring attention to is that land 
managers are not provided the resources necessary to properly manage 
recreation, protect archaeological resources and preserve the integrity 
of the landscape. We wholeheartedly support additional funding for law 
enforcement, resource protection and recreation management for the 
greater Bears Ears area region and hope that this issue will be given 
the attention it deserves in this hearing and in the future. We 
maintain optimism that the legislative process can find the right 
balance for managing our national public lands, honoring Native 
Americans, and protecting the places we play that support Utah's 
recreation economy.
    While H.R. 5780 would provide some protections for this exceptional 
landscape, when paired with other provisions in the bill, it does not 
ensure recreation assets will be available for future generations. As 
such, OIA will continue to work with both Congress and the 
administration toward an improved balance between mineral and energy 
development and the recreation assets whether through the PLI, 
designation of a national monument, or a new legislative option that 
provides greater protection and funding for the greater Bears Ears 
region.
    Thank you for your attention to this issue and we look forward to 
working together for the protection of Utah's world-class outdoor 
recreation opportunities, local economies and Native American ancestral 
treasures.

                                 *****

                  appendix a: concerns with h.r. 5780

  1.  The PLI (Division C, Title I) Planning and Implementation 
            Committee is not sufficiently well-balanced, does not 
            adequately include the entire spectrum of recreation 
            interests, and is predisposed to decisions that favor 
            development and resource extraction over conservation and 
            protection of cultural and recreation resources. It is 
            important to note that Utah's recreation economy 
            contributes $12 billion in consumer spending, employs 
            122,000 Utahans and brings in $856 million in state and 
            local tax revenue.

  2.  The PLI proposes transfer of federal lands to the state of Utah 
            that could negatively affect the environment, recreation 
            access, the integrity of National Park viewsheds and air 
            quality, and quality of life of neighboring communities. In 
            particular, the PLI proposes a very large consolidation of 
            School and Institutional Trust Land Administration (SITLA) 
            lands just northwest of Moab, Utah that has a high 
            likelihood of facilitating intense industrial development 
            and cause environmental impacts detrimental to the 
            recreation community and quality of life for Grand County 
            residents.

  3.  The PLI (Division B, Title XI) provides the state of Utah control 
            over energy leasing decisions and will conflict with the 
            Moab Master Leasing Plan--a plan that Access Fund, Outdoor 
            Alliance and Outdoor Industry Association wholeheartedly 
            support because it brings better balance and certainty to 
            energy development.

  4.  The PLI favors some land management strategies that are not 
            informed by currently accepted land management best 
            practices. For example, PLI grazing and snowmobile 
            prescriptions do not follow well-substantiated, sustainable 
            resource management approaches.

  5.  The PLI (Division B, Title XII) RS 2477 provisions prematurely 
            address state rights-of-way before the courts resolve such 
            claims that are the subject of extensive on-going 
            litigation.

    In addition, we do not support the ``PLI Partner Act'' (H.R. 5781) 
that limits the use of the Antiquities Act--a tool that has been used 
effectively for over a century to conserve lands when no other 
alternatives were available.

                                 *****

appendix b: where we stand--outdoor industry association's position on 
                 public land designations november 2015

    Public lands and waters are the backbone of the outdoor industry 
and outdoor recreation economy. OIA supports the protection of 
recreation assets for the enjoyment of present and future generations.
    In specific cases, if a high value recreation asset needs 
protection and there is local business support for a land designation, 
but no corresponding legislation (immediate or over time) is viable, 
OIA will support the executive branch's use of the Antiquities Act to 
protect that asset.
    Working with member companies and other strategic partners, OIA 
will work to develop new legislation, land designations, and policy 
tools to better fund, protect and manage public land and water for 
recreational use.

    In many cases, the goals of better access and management can be 
achieved by optimizing existing programs and tools:

    <bullet> Agency Planning Processes (e.g., Master Leasing Plans, 
            Forest Plans and similar)

    <bullet> Full or increased funding for these programs and tools

    OIA believes that The Antiquities Act and The Wilderness Act are 
foundational laws to protect recreation on national public lands and 
waters and that the scope and power of both must be preserved.

    OIA will support new land designations first through legislation 
that:

    <bullet> Protects high value recreation assets

    <bullet> Has local support from outdoor recreation businesses

    <bullet> Has support from one or more of the state's Congressional 
            delegation

    OIA believes it is appropriate to pursue a higher level of 
protection for public lands and waters, and the recreational 
experiences they support, in the following circumstances:

    <bullet> To mitigate a threat from development

    <bullet> Protection is needed to maintain existing conditions

    <bullet> A special or iconic place warrants elevated status

                                 ______
                                 

                             Friends of Cedar Mesa,
                                                Bluff, Utah

                                                      July 19, 2016

Hon. Rob Bishop,
Hon. Jason Chaffetz,
U.S. House of Representatives,
Washington, DC 20515.

Re: Opposition to Introduced PLI Legislation

    Dear Congressmen Bishop and Chaffetz:

    After receiving legislative language shared with Friends of Cedar 
Mesa on July 8th and maps shared on July 12th, we drafted a letter in 
response to the Public Lands Initiative legislative text. In that 
letter we expressed our appreciation for the hard work of your staff to 
engage in meaningful and constructive conversations with us on ways to 
improve January's Discussion Draft. We shared a draft of that letter 
with your staff and also provided a quote for the PLI rollout 
expressing gratitude for having been involved with the process and our 
hopes that our remaining concerns with the bill could be addressed in 
the legislative process.
    After the official release of the PLI legislation, however, our 
hopes of the bill evolving to one we could support have been dashed. 
Very problematic provisions were added to the bill after it was shared 
with us, and we were never made aware of the ``PLI Partner Act'' before 
the public roll out. Combined, these last minute changes lead us to 
conclude that a reasonable, win-win compromise is not forthcoming.
    As you know, Friends of Cedar Mesa has been engaged in the Public 
Lands Initiative process for more than 3 years. We attended every 
meeting in San Juan County and have made every effort to work with our 
friends, neighbors, and elected officials. Because we are the local, 
on-the-ground group, we feel Friends of Cedar Mesa may be the most 
invested in finding a legislative solution of all the conservation 
groups at the table.
    While we continue to believe that a legislative solution to 
conservation needs in southeastern Utah would have been the preferable 
path, we now have no faith that our legislative delegation is seeking a 
true compromise, even by our terms (and we're the right flank of the 
conservation community).
    Despite all our efforts to work constructively on this legislation, 
we oppose the language in the bill as introduced. We cannot abandon our 
mission to help protect the natural and cultural resources of public 
lands in San Juan County by supporting a bill with provisions likely to 
result in resource damage on the ground. Last minute land trades added 
to the bill would extend the footprint of cultural resource damage, 
decimate Bluff's economy and dramatically change our way of life.

    Provisions we oppose in the introduced language of the Public Lands 
Initiative bill include:

  1.  Proposes a massive block of SITLA land on top of Bluff to 
            facilitate large-scale energy development that would 
            devastate Bluff's tourism-based economy and our quality of 
            life. This is an egregious change to the PLI drafts we saw 
            in January, June and just four days before the release of 
            the PLI. It's a huge step in reverse. After all the efforts 
            FCM took to help refine a bill that could be the resolution 
            to local cultural resource and conservation needs, this 
            last-second proposal is an insult to the idea of public 
            process and constructive negotiations with the Utah 
            Delegation. In the old version, we found it worrisome that 
            SITLA wanted a few sections around Bluff. Now we see what 
            SITLA really wants: a larger block of land in FCM's 
            backyard than they are asking for in Lisbon Valley. If 
            SITLA gets its way, the new welcome sign to those coming to 
            Bluff would be a series of oil rigs and fracking 
            operations.

  2.  Retains ownership and mineral development rights by SITLA on 
            lands inside the Bears Ears NCA north of Bluff (Tank Mesa & 
            Cottonwood Wash), therefore failing to protect 
            internationally significant archaeology from energy 
            development. This means drilling and privatization could 
            occur within the NCA, completely opposed to the entire 
            point of creating a Conservation Area.

  3.  Does not trade out SITLA parcel on the southern end of the Comb 
            Ridge that will be otherwise be sold to the highest bidder 
            this October. With this move, SITLA shows its intent to 
            create the only privatized section of the Comb Ridge. This 
            last second change comes despite FCM and the community of 
            Bluff expressing strong opposition to the sale at a 
            community meeting on June 7th at which Director Ure assured 
            the community if the PLI passed the sale would be moot. 
            This significant square mile of what should be public land 
            contains important archaeological and recreational values 
            and deserves the protection afforded to the rest of the 
            Comb Ridge in an NCA or Monument.

  4.  Leaves surface rights to three other key SITLA parcels on Cedar 
            Mesa to SITLA, creating the potential for serious land 
            management conflicts or privatization of lands that should 
            be traded out so they can be permanently made public land.

  5.  Gives the State of Utah, which already lacks transparency and 
            public process when handling drilling permits, undue 
            authority in any type of energy development on all 
            available public lands in San Juan County. This delegation 
            of authority would expedite energy development on lands 
            that would be better served by a Master Leasing Plan 
            process that requires thoughtful planning for cultural 
            resources and other land uses. Title XI on energy 
            development gives no mention of the significant cultural 
            resources in Utah, opening up a pathway to conflict over 
            streamlined energy development in archaeologically dense 
            areas like Montezuma Canyon and Alkali Ridge.

  6.  Fails to protect important archaeological and recreation areas in 
            the White Canyon drainages and Southern Abajo areas (Allen 
            Canyon, Chippean Canyon and Dry Wash Canyon).

  7.  Fails to protect two important sections of the internationally 
            significant San Juan River corridor as a ``Recreational 
            River,'' despite recommendation for such designation by the 
            official BLM study.

  8.  Opens up sensitive archaeological areas now closed to grazing 
            (inside and outside of NCAs) to damage from cattle in 
            cultural sites. Likewise, internal conflicts in the bill 
            potentially direct grazing in wilderness to be resumed in 
            places where it has been eliminated to protect cultural and 
            recreational resources. FCM cannot support any language 
            with the potential to open Grand Gulch, Slickhorn, and the 
            other canyons on Cedar Mesa to cattle grazing.

  9.  Fails to adequately involve local people in decision making for 
            the Indian Creek National Conservation Area by creating no 
            local stakeholder advisory group and giving primary 
            advisory status to a committee of county commissioners and 
            state officials who do not know the area at all.

  10. Despite the positive step of naming the Hole-in-the-Rock Trail a 
            National Historic Trail, creates conflict with existing 
            land use plans by facilitating the overriding of group size 
            limitations in the trail corridor. In addition, the 
            location of the HITR Trail on the map is likely incorrect 
            and the language does not allow for the exact location of 
            the trail to be confirmed after it is designated.

  11. Gives blanket approval to an ATV route in Recapture Canyon on the 
            route that is already damaging archaeological sites. The 
            language is not definitive as to whether compliance with 
            the NHPA and NAGPRA are automatically granted with the 
            application or whether the Section 106 process must be 
            followed. Because this route bisects sensitive 
            archaeological sites, the bill must require compliance with 
            these laws and rerouting if deemed necessary to protect the 
            resource.

  12. Fails to resolve RS 2477 litigation in Wilderness and NCA areas, 
            meaning the actual protection for those areas may be far 
            less than in other Wilderness and NCAs around the country.
  13. Cherry stems at least one road in wilderness on Cedar Mesa that 
            is currently closed for cultural resource protection and 
            wilderness characteristics. The Hardscrabble road on Cedar 
            Mesa was closed as part of an open public process that 
            resulted in the 2008(A) RMP.

  14. Releases the Cross Canyon and Squaw Papoose WSAs from management 
            that would protect wilderness values. These are 
            archaeological rich areas that will be very difficult to 
            develop anyway, due to high archaeological densities. 
            Releasing these is a symbolic move that, in our view, 
            allows for easy attack of this bill as reducing current 
            protection of important lands.

    Leaving critical, sensitive archaeological areas out of the path to 
protection while streamlining activities likely to irreparably harm 
cultural resources across vast tracks of land makes the introduced bill 
something we strongly oppose. We have worked for years through a 
process we hoped would lead to a tenable bill we could improve on 
through the markup process. Failing a massive effort at a true 
compromise negotiation, it now appears the time to make the large 
corrections needed is too short. In light of the failure of the PLI 
process to achieve a legitimate compromise that has hopes of bi-
partisan support, Friends of Cedar Mesa has no choice but to fully 
support President Obama protecting the Bears Ears region as a National 
Monument.

            With regret,

                                                Josh Ewing,
                                                Executive Director.

                                 ______
                                 

                      Grand County Council Members,
                                                 Moab, Utah

                                                    August 16, 2016

Hon. Rob Bishop,
Hon. Jason Chaffetz,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressmen Bishop and Chaffetz:

    Thank you again for providing an opportunity for Grand County to 
participate in the Public Lands Initiative.
    There are numerous areas where the introduced Bill departs from the 
recommendations forwarded to you. In General, Grand County stands by 
the recommendations as originally presented. Insofar as these were 
developed with the input of a variety of stakeholders, partners, and 
citizens, we feel the knowledge and interest of the entities and 
individuals on the ground should carry the greatest weight. To this end 
we cannot support the legislation as introduced and offer the below 
concerns for possible amendment.

    There are parts of the introduced Bill which are a major departure 
from our submission that we feel require special mention. These are as 
follows:

  1.  The entire NW side of the Colorado River canyon daily boating 
            section, which is currently protected by the three rivers 
            withdrawal, is eliminated from the Colorado River NCA. 
            Grand Co. requests that the NCA boundary reflect the 
            current boundary of the three rivers withdrawal as was 
            presented in Grand Co.'s recommendations. Both sides of the 
            Colorado River canyon deserve protection and are vital to 
            the local economy.

  2.  Several cherry stemmed routes in E. Arches, The Book Cliffs, and 
            Labyrinth wilderness are not currently open in the BLM/
            County's travel plan. Grand Co. requests that only routes 
            which are currently open in the travel plan be cherry 
            stemmed as per our original recommendations.

  3.  A previous SITLA parcel that was traded out of Millcreek Canyon 
            and is now BLM land is not currently incorporated into the 
            eastern portion of the proposed Millcreek wilderness area. 
            Likewise, a sizable area of the eastern portion of William 
            Grandstaff wilderness has been removed. Grand Co. requests 
            that the boundaries of these wilderness areas reflect our 
            recommendations.

  4.  The County Council voted against including Antiquities Act 
            exemptions. Grand Co. objects to the companion bill.

  5.  The County Council has officially expressed their support for the 
            Master Leasing Plan (MLP). Grand Co. requests that areas 
            that fall within the MLP but fall outside of any PLI 
            designation be managed by the local field office as per the 
            provisions of the MLP.

  6.  ``Title XI-Long-Term Energy Development Certainty In Utah'' is 
            unacceptable to Grand Co. Grand Co. requests that this 
            entire section be removed from the legislation. The BLM 
            should maintain permitting control and primacy for their 
            lands.

  7.  Nearly 34,000 acres of SITLA trade-ins are located outside of 
            Grand Co.'s designated trade-in area. Of notable objection 
            are parcels located around Mineral, Hell Roaring, and Ten 
            Mile Canyons. As well as a trade-in adjacent to existing 
            tar sands leases in northern Grand Co.

  8.  The upper half of Ten Mile Canyon has been included in the Dee 
            Pass recreation area. While Grand Co. has approved existing 
            motorized routes in upper Ten Mile Canyon, this is a 
            sensitive riparian area and not suitable for further 
            expansion. We request that the boundaries of the Dee Pass 
            recreation area reflect our recommendations.

  9.  ``Section 1302. Bighorn Sheep'' is unacceptable to Grand Co. It 
            is essential that domestic livestock and Bighorn sheep be 
            separated. Domestic livestock disease is a leading cause of 
            decline in Bighorn sheep populations.

    We look forward to continuing to work with you on developing a bill 
that honors the work of the many stakeholders and ultimately produces a 
bill which Grand County can fully support.

            Respectfully,

                                        Elizabeth A. Tubbs,
                                                             Chair.

                                 ______
                                 

    Ms. Tsongas. Thank you.
    With that I would like to ask--does this bill in your view, 
Mr. Kornze, strike the balance necessary to be considered as a 
consensus?
    And if not, where would you most like to see change?
    Mr. Kornze. I would say I think there has been great 
outreach done here. Twelve hundred meetings is like nothing I 
have ever heard of before, and when you travel through eastern 
Utah, as I have had the fortune to do a number of times, you 
can see the people have truly been engaged.
    I do not think we are seeing, or I am not seeing, people 
coalesce around the proposal as it is written. There are 
numerous provisions that we would like to see edited, 
strengthened, or deleted. So, we took the unusual step at the 
request of the sponsors to send technical assistance ahead of 
this hearing. We usually do not do that until afterwards. So we 
have provided some of that and we also have very lengthy 
feedback.
    If I can take just one second on a different topic, I do 
think I could probably speak on behalf of the entire panel here 
that as part of that significant outreach, I do want to 
compliment the great efforts of the staff of Congressman Bishop 
and Congressman Chaffetz. These types of efforts do not come 
without significant challenges and significant sacrifices, and 
so I just want to note we may not agree, but there has been 
extraordinary personal effort and personal commitment put into 
this.
    Mr. Bishop. With the gentlelady's permission, I appreciate 
that statement about our staff. They are not getting a raise. I 
don't care what they told you.
    Ms. Tsongas. Thank you for that.
    Ms. Weldon, if you would like to take a moment, 15 seconds.
    Ms. Weldon. I would echo what Director Kornze stated there. 
I think that this concept and idea of collaboration and 
engaging diverse stakeholders to make choices, both based on 
what some national interests are, but more specifically local 
interests, is a very effective way for land solutions.
    So, we just wanted to make sure we are in as close step in 
the process that would enable us to do that.
    Mr. McClintock. Great. Thank you.
    Ms. Tsongas. Thank you. I yield back.
    Mr. McClintock. Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I would like to enter for the record testimony that was 
presented yesterday before the Oversight and Government Reform 
Committee, Subcommittee on the Interior. I do not have it with 
me, but I will include it for the record later.
    Mr. McClintock. Without objection.
    [The information follows:]
          Written Testimony of Byron Shelton, Savory Institute
    Congressional Hearing on ``21st Century Conservation Practices''
              Committee on Oversight and Government Reform
                      Subcommittee on the Interior

    Honorable House members. Thank you for taking the time to hear some 
of the ``21st Century Conservation Practices'' of land management 
applicable for both federal and private lands and specifically related 
to grazing.
    My name is Byron Shelton. I am the Senior Program Director for 
Savory Institute based in Colorado. The Savory Institute is named for 
Allan Savory, a scientist, ecologist, farmer, and rancher from Zimbabwe 
and the United States who has worked tirelessly over the last 60 years 
to understand and train others on how to manage land and resources 
regeneratively. This includes increasing biodiversity of plant and 
animal life, increasing water holding capacity of the soil, increasing 
soil building capacity, increasing soil carbon sequestration and 
nutrient cycling, and increasing capture of solar energy flow.
    This effort by Allan has resulted in a management process that has 
come to be called Holistic Management. Managing holistically, as 
successful management has to do, considers the whole or big picture 
including economic, environmental, and social ramifications 
simultaneously. Otherwise we end up taking actions that have many 
unintended consequences. The actions might be environmentally sound but 
not economically sound or visa versa and may not meet the needs of the 
people involved.
    Savory Institute was formed to promote the large-scale restoration 
of the world's grasslands, which include the croplands of the world, as 
most crops are grown on soil created by productive grasslands. 
Grasslands are extremely important, as they comprise \1/3\ of the 
world's land surface, 70% of which are in degraded form. That means 
grasslands are losing plant and animal biodiversity, soil structure, 
soil carbon, and water holding capacity leading to more severe droughts 
and flooding and soil loss.
    Savory Institute has approximately 30 regional entrepreneurial for-
profit and non-profit hubs or training centers around the world. These 
hubs include demonstration sites and trained Savory Institute 
Accredited Professionals to leverage spreading the knowledge of how to 
improve our resources through management. They focus on getting results 
on the land. Currently over 40 million acres around the world are being 
managed holistically. We are actively working to increase the number of 
training centers to 100 by 2025. With functioning ecosystem processes 
water, food, and security are tremendously increased for people around 
the world.
    Holistic Planned Grazing is one of our important planning 
procedures. This procedure is used to manage livestock for land health 
and improvement vs. land degradation. We also use other planning 
procedures including Holistic Financial Planning, Holistic Land or 
Infrastructure Planning, and Holistic Ecological Monitoring to ensure 
land managers are being successful in improving the resources while 
remaining viable as a business.
    With that background, I will encourage you to review the written 
material and resources provided that give further information on Savory 
Institute and what we are working to accomplish. In our limited time I 
want to get right to the crux of the matter.
    To allow for reasonable debate and decisions on actions on grazing 
a clear understanding of the role of the grazing animal is needed.
    Many times you'll hear a farmer or rancher say, ``I wish it would 
rain, we need more water.'' This is true to allow for more plant 
growth. Just as important however, is the need for water for decay of 
the plant material to replenish the soil. Nutrients have to cycle from 
the land and back to the land for a healthy regenerating soil. Decay 
occurs by microorganisms and small insects eating and decomposing the 
old plant material. These microorganisms and small insects cannot live 
without water.
    In an environment with regular humidity and rainfall, regardless of 
the amount of rainfall, as here in the mid-Atlantic region, plants that 
grow will decay back onto and into the ground, as the habitat including 
water for the microorganisms and insects exists. These microorganisms 
and insects eat the plants and cause them to decay biologically back 
into the ground thereby replenishing the soil.
    Now comes the point that is not generally recognized or understood. 
In an environment with irregular humidity and rainfall regardless of 
the amount of rainfall, as on many of our western federal rangelands 
and private lands, plants that grow will remain standing for many years 
as there is limited water in the air or on the ground to allow for 
micro-organisms to live that would eat the plants and cause the plants 
to decay biologically back into the ground. These plants actually turn 
gray and oxidize or rust into the air, mining the soil by not returning 
to it, eventually dying, and creating more bare ground. This causes 
poorly functioning water and nutrient cycles, biodiversity loss and 
therefore desertification.
    This variation in regularity of humidity and seasonal rainfall we 
refer to as brittleness on a continuum from non-brittle, having regular 
humidity and moisture, to brittle, having irregular humidity and 
moisture.
    Now what does this have to do with grazing? The areas of the world 
that tend to have no or low humidity and seasonal rainfall dry out 
throughout the year and from year to year causing the microorganisms 
that would cause plants to decay to go dormant or die. Plant decay 
stops.
    However, these areas had herds of large wildlife with their 
predators. A bison, elk, deer, antelope, cow, goat, or sheep can't 
digest plants any more than you or I. That's why these ruminants, as 
they are called, have a multi-chambered stomach with the first 
compartment being full of moisture and microorganisms year round. These 
microbes digest the plants the animals eat with the animal assisting by 
re-chewing the forage to help break it down. In other words, the 
ruminant whether wild or domesticated is a mobile, digestive vat moving 
about the land that breaks down plant material and returns it to the 
soil as dung or urine to replenish the soil. When this animal is 
removed from these brittle environments the natural system is broken.
    Another way the natural system is broken is by removing the 
predator that kept the herding animals bunched and moving. This 
movement allowed grazed forages to recover by being able to re-grow 
their roots and leaves between grazings to grow and remain healthy. 
Herding or fencing replaces the predator. Additionally, the hooves 
aerate or break the soil surface as a gardener does their garden that 
has been sealed by rainfall to allow for water to enter versus run off 
thereby making the rainfall more effective. These hooves also trample 
the old plant material onto and into the ground.
    When bison or cattle are on the land the manager is managing two 
tools involving living organisms--grazing and animal impact. When 
managed improperly these animals can be very destructive to the land. 
When managed properly these tools are extremely powerful for improving 
the effectiveness of the water cycle and nutrient cycle by capturing 
more sunlight, covering bare ground, and therefore increasing 
biodiversity and reversing desertification.
    The Holistic Planned Grazing planning procedure developed by Allan 
Savory and used in Holistic Management allows the land manager to 
manage these tools of grazing and animal impact properly for 
regeneration of the natural resources both in brittle and non-brittle 
environments. Holistic Management addresses this need for timing of 
plant, animal, and soil relationships through Holistic Planned Grazing 
within the Holistic Context of the people involved.
    As I would tell customers at farmers markets asking about my beef 
for sale, ``regardless of whether one eats meat or not, wildlife and 
their predator or domesticated livestock being managed to mimic 
wildlife and their predator is required in these brittle areas for a 
healthy ecosystem, biodiversity, and water for us all to drink and 
improves the nonbrittle areas.''
    Other tools beside those related to living organisms we have 
available are technology in many forms, fire, and rest (no disturbance 
by grazing, animal impact, fire, or technology). These tools, however, 
need to be used knowing where on the brittleness scale the land 
involved lies as the probable results on the land of using a tool are 
different depending on the degree of brittleness, the regularity of 
rainfall and humidity.
    Management of livestock that is aware of the points I've discussed 
is seeing success. Management where livestock are not being used to 
mimic nature is seeing continuing degradation of land, loss of water 
and carbon holding capacity in the soil, more bare ground, and reduced 
biodiversity.
    Savory Institute's work addresses food, water quality and quantity, 
soil health, soil carbon sequestration, wildlife and plant 
conservation, and climate change. We are seeing land managers increase 
their profits while building their biological capital by producing food 
and water on regenerating soils. Livestock, wildlife, plants, and human 
needs can be met simultaneously. Holistic Management is appealing to 
both conservative and liberal values. It's economically viable, can 
generate income and, at the same time, restore landscapes for wildlife 
species and the enjoyment of people.
    Please refer to the written material, our website 
www.savory.global, and Allan Savory's TED talk for further information. 
I thank you for your time today. I'll try to answer any questions you 
may have when we get to that part of the hearing.
    Thank you for allowing this panel to present proven conservation 
practices that are being used in the 21st century.

                                 ______
                                 

                    Testimony of Judith D. Schwartz
                     Author/Journalist from Vermont
    Congressional Hearing on ``21st Century Conservation Practices''
              Committee on Oversight and Government Reform
                      Subcommittee on the Interior

    Thank you to Chairman Lummis, Ranking Member Lawrence, and members 
of the Interior Subcommittee for this opportunity.
    I am before you today as an author of two books that explore 
animal/land dynamics, particularly the potential for holistic livestock 
management to regenerate landscapes. Cows Save the Planet and Other 
Improbable Ways of Restoring Soil to Heal the Earth (Chelsea Green 
Publishing, 2013) looks at soil as a hub for our environmental, 
economic and social challenges--and for solutions. Water In Plain 
Sight: Hope for a Thirsty World (St. Martin's Press, 2016) explores how 
water intersects with climate, biodiversity, food security and peace 
and conflict. And how understanding how water works--how it moves 
across the landscape--helps us address such concerns. Understand that I 
never expected to be on this ``beat'': Rather, as a journalist driven 
to explore solutions I was drawn to the elegant complexity of 
flourishing ecosystems and the promise of drawing on nature's models to 
restore balance and vitality to our lands, including through holistic 
managed grazing.
    Basically, whenever there are animals on the land those animals are 
having an impact, which can be positive or negative, depending on how 
they are managed. The paradigm for ``conservation'' has changed, in 
that land is not static but requires biological activity. In nature, 
plants are to a large extent managed by herbivores, and those plant-
eating animals are managed by predators. The alteration of the 
landscape and the absence of natural predators have left a management 
void. With what we now understand about rangeland systems, this void 
can be filled in a way that at once bolsters ecological function and 
economic opportunity.
    In my reporting I've encountered numerous examples of land 
transformed by restorative grazing. In Zimbabwe, at the Africa Centre 
for Holistic Management, the Dimbangombe River flows a kilometer 
farther than it has in living memory and now runs throughout the year. 
Despite a continuing drought in Southern Africa, this land remains 
productive and supports abundant wildlife, including elephants and 
lions. In the Chihuahuan Desert, which spans several states and part of 
Mexico, I visited an area where holistic ranchers are working with bird 
conservation organizations to create a corridor for endangered 
migratory grassland birds. These ranches are ``islands of grass'' for 
the birds, whose numbers have steeply declined due to desertification 
throughout the region. In Australia, a rancher I interviewed uses 
cattle to control excess vegetation and thus minimize the extent of 
wildfires. In each instance, management entails inquiring how nature 
maintained healthy conditions and finding ways to mimic or ally with 
those processes.
    Agriculture, including ranching, need not be an ``extractive'' 
industry; it can be regenerative, too. As well as consistent with 
conservation goals. This was noted at COP21, the global climate 
conference in Paris last December, with the advent of the 4 per 1000 
Initiative, introduced by the French Agricultural Ministry. This 
initiative, signed by 30-plus nations and several dozen NGOs, calls 
attention to agricultural means of bolstering carbon levels in the 
soil. Even at a modest annual rate, increasing soil carbon stocks has 
important implications for drawing down atmospheric CO2, bolstering 
fertility and biodiversity, and enhancing land's ability to retain 
water--which means added resilience amid the threat of drought, floods 
and wildfires. Every one percent increase in soil organic matter (which 
is mainly carbon) represents an additional 20,000 gallons of water per 
acre that can be held on the land. The loss of this capacity is a story 
that has been written across much of the U.S., leading to many of the 
challenges we face today.
    My recommendation is that we do not leave land bare and hope that 
it will somehow improve. Rather, we should explore strategies that work 
with natural processes, including holistic planned grazing, restoring 
the predator-prey relationship, and reviving populations of keystone 
species such as beaver. One way to ascertain progress is through 
monitoring basic factors such as water infiltration and soil carbon 
levels.

                                 ______
                                 

    Mrs. Lummis. Thank you.
    And that was sworn testimony, so I can vouch for the 
correctness of the views of the people who gave it.
    And I am begging you, especially Mr. Polis--I am begging 
you to visit your constituents in Boulder who are at the Savory 
Institute. I am begging people in this room to listen to a TED 
talk by Allan Savory. It will explain to you why I feel so 
strongly that we, the American people who deal with public land 
management, have quite inadvertently and with good intention 
really, really messed up in the way that we are managing public 
lands.
    I think we are messing up to such a degree that we could be 
implementing policies that will further deteriorate the quality 
of public lands for generations to come.
    Please also read two new books by Judith Schwartz. Her 
testimony was also presented yesterday. I believe we have to 
totally rethink the way that we are managing public lands, 
because with the best of intentions we have sat up policies 
that provide public input without the knowledge of the 
scientific ramifications of the decisions we are making. We are 
hurting our natural resources, our trees, our grass, and our 
water. We are dealing with carbon in a way that is completely 
inconsistent with the ultimate goals of people who want to 
sequester carbon.
    It is truly unfortunate that here we come in the 21st 
century and realize the system that we implemented in the 1970s 
and have carried on for all these years has been such a 
detriment to the resource. We need to look at holistic 
management practices on public lands in a way that we have 
never looked at them before.
    One of the reasons why I like this draft bill is that it 
will accommodate some of the flexibilities that we have to 
implement to regain forest health and regain stands of grass 
that are healthy, so we can sequester carbon, so we can 
preserve resources, and so we can have a sustainable public 
lands resource and private lands resource. We need to rethink 
the whole thing.
    This proposal that Chairman Bishop has put forward is 
heading in the right direction. Based on what I have been 
learning while I have been in Congress about public land 
management and new principles in public land management, I 
think the worst thing we could do is create more national 
monuments.
    We are inadvertently destroying resources, and it is being 
done by people with the best intentions.
    I yield back.
    Mr. McClintock. All right. Mr. Polis.
    Mr. Polis. Thank you, Chairman.
    I first want to respond to Mrs. Lummis. I will certainly 
look at those. You gave me my reading materials.
    I would add that one of the major impacts to the detriment 
of our ecosystems and our lands in the West has been the loss 
of the apex predator, the wolf. When you lose your apex 
predator, it throws entire ecosystems out of whack, and that is 
why many of us on this committee have worked so hard for the 
reintroduction of the wolf across the West.
    I am sure there are many other factors that need to be 
looked at too, and perhaps your next career might be to re-
examine these. Maybe that will be what you focus your time on 
is management of land, and if that is, then I will look forward 
to meeting with you in that capacity and we will see if we can 
work out a way to reintroduce the wolf and save the wild horses 
together.
    I do want to address a question to Ms. Regina Lopez-
Whiteskunk about the Bears Ears area. Can you describe in your 
view the shortcomings of the PLI with regard to protecting 
Bears Ears and also the way that the Bears Ears Inter-Tribal 
Coalition proposal would, and how it differs from the PLI?
    Ms. Lopez-Whiteskunk. Thank you.
    One of the first areas that I would like to highlight is 
our effort to advocate for the land in terms of mineral 
withdrawal. That is definitely a huge threat to any area, and 
that is something that is within our proposal. It is the 
outcome, the current and even the future possible threats to 
the land. That is one area.
    I speak very passionately to roads. In regards to some of 
our trust lands and allotment lands within the area, there have 
been roads that people have just established. That is something 
that is a huge threat, and we need to do everything we can to 
safeguard some of those landscapes from people just roguely 
establishing future roads.
    And, again, I cannot speak enough to this. For generations, 
mere consultation has always fallen short for Native Americans, 
and much of this is just because it is a checkmark on a piece 
of paper, like somebody is going down a grocery list and says, 
``OK. This is fulfilled.''
    I firmly believe that we need to really visit this with 
true intent, with some true substance, when this is established 
and when it is achieved. One of the ways that we see is by 
establishing a stronger voice through collaborative management 
and making sure that the Native voice is represented in much of 
that.
    Mr. Polis. My next one is for Director Kornze. It is kind 
of a procedural question.
    There are several sections of the bill that include land 
exchanges, but these are land exchanges without identifying the 
actual land. This committee has worked on a number of land 
exchanges. I have had one that went through in the form of a 
bill. There have been others that have gone through.
    So, my question is--how has this sort of changed in 
process? Are there any issues the agency has with identifying 
land exchanges without identifying the actual lands or studying 
the impact to the public?
    Are there any concerns the agency has about that and how 
that could negatively impact the public or taxpayers?
    Mr. Kornze. I think it is a fairly standard point that if 
there is going to be a directed exchange, we want to have had 
some up front conversation and understand what is going in and 
what is going out and make sure that we have a good 
equalization following those four points that I laid out 
earlier.
    Mr. Polis. Thank you.
    I want to again conclude by hoping that the Chair of the 
Subcommittee and the Committee will consider a hearing on the 
Continental Divide Wilderness Recreation Bill, H.R. 2554.
    I would like to point out that our Full Committee Ranking 
Member, Mr. Grijalva, has personally scaled the 12,000 foot 
peak inside of this designated protection area, and I would 
like to invite our Subcommittee Chair and Full Committee Chair 
to come visit our proposed 60,000 acre re-designation, 
including recreational areas, backed fully by the recreational 
industry, the elected officials of the district, the various 
user groups including mining companies, Climax mining, the only 
company with active claims in the area, as well as the various 
water districts and fire districts.
    I am hopeful that we can move forward. I am not asking for 
a markup. I am just asking for a hearing, particularly in 
celebration of Mr. Grijalva's hike to the peak of a 12,000 foot 
mountain in that district.
    I yield back the balance of my time.
    Mr. McClintock. Great. Well, I am sorry the mountain did 
not come to Grijalva, but Grijalva did go to the mountain.
    Mr. Hardy.
    Mr. Hardy. Thank you, Mr. Chairman.
    Mr. Kornze, given that there is no statutory mechanism in 
place for the BLM to co-manage national monuments with tribes, 
how do you plan on actually bringing the tribe to the table 
other than just a symbolic role?
    Mr. Kornze. One possibility would be this legislation 
passing and there being some direction from Congress as to how 
that should work. If that takes place, we would like to see 
significant conversations between the sponsors, the 
administration, and the tribes to come to a common view of 
that.
    Mr. Hardy. OK. With designation of the Antiquities Act, who 
makes the final decisions over the land management issues, BLM 
or the tribes?
    Mr. Kornze. The President has control over the use of the 
Antiquities Act. Is that what you are asking?
    Mr. Hardy. No. After the designation, who has control, BLM 
or the tribes?
    Mr. Kornze. I am not sure I completely follow.
    Mr. Hardy. The management issues, like RMPs, who has that 
ultimate control? Is that a collaborative effort? Is that BLM 
telling the tribes?
    Mr. Kornze. Under this bill, I cannot recall the language 
exactly, but I think there is a suggestion that the tribes 
would have a specific seat at the table for an advisory group 
and that there would be some collaborative effort on 
management.
    Mr. Hardy. OK. Final question. Ms. Benally, in 2015, there 
were about 1,400 cases of vandalism on the Grand Staircase-
Escalante National Monument. In the Bears Ears last year, there 
were less than half a dozen cases. Do you believe that if this 
is designated as a national monument, that it will increase 
vandalism due to the increased visitation, or do you believe it 
will be protected by the Bureau of Land Management?
    Ms. Benally. I believe, yes, it would increase looting and 
vandalism because we just had a meeting with BLM in our region 
2 weeks ago and they actually qualified those numbers, and it 
was just one case in the last 5 years, currently. But in the 
Grand Staircase-Escalante, there were a lot.
    The national monument does not guarantee that there will be 
no vandalism. In fact, it will increase because a national 
monument brings thousands and thousands of people. We may think 
otherwise, but it takes away that protection because there are 
less boots on the ground to give protection.
    Mr. Hardy. Thank you. I yield back.
    Mr. McClintock. Thank you.
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Commissioner Benally, you spoke about tribal opposition to 
the Bears Ears National Monument proposal. Do I have the 
correct information or is it true that six of the seven Navajo 
Nation, Utah Chapter Houses, have passed resolutions in favor 
of the national monument in the proposal?
    Ms. Benally. It depends how you read it. Some of those 
resolutions say ``National Conservation Area or National 
Monument.'' So, it depends what side you want to see first.
    Mr. Grijalva. OK. Then how about the 26 southwestern tribes 
and the 250-plus members of the National Congress of American 
Indians that have passed resolutions very specifically in 
support of the Bears Ears National Monument?
    Are these resolutions from sovereign units of government 
not important in the decisionmaking?
    Ms. Benally. Again, I will qualify my answer by asking how 
many people were there to actually pass these resolutions, 
because some of these resolutions were only passed by 17 or 18 
people versus over 2,000 grassroots Utah Navajos that live in 
the county, and that would affect them and they are opposed to 
the national monument.
    Mr. Grijalva. OK. Let me try some other way. Do you have a 
sense of how the Navajo Nation as a whole feels about the 
diversion of royalties from tribal budgets and coffers to 
specifically the Utah Navajo Trust Fund as the PLI proposes in 
this legislation?
    Does it not seem likely the Nation as a whole will oppose 
that?
    Ms. Benally. I cannot speak on their behalf, but I can 
speak for Utah Navajos. Any funding that can be increased for 
roads, education, and the general welfare of the Utah Navajos, 
of course, that will be supported by them because it helps them 
be self-sufficient.
    Mr. Grijalva. But not the Nation as a whole?
    Ms. Benally. I wouldn't know, but they do get funds from 
the oil and gas royalties from the Fund in Utah.
    Mr. Grijalva. OK. Ms. Lopez-Whiteskunk, in one of the 
comments that one of your fellow panelists made, she said that 
Native American support for the Bears Ears National Monument is 
a hoax. Your reaction to that comment, if you do not mind?
    Ms. Lopez-Whiteskunk. What did we say, a hoax? I take that 
rather offensively because there is so much support in there 
amongst the NCAI who have passed a resolution. The Utah tribal 
leaders have also passed a supporting resolution, as well as 
the Tri-Ute Council, which is made up of all three Ute tribes.
    So, in regards to that, these are elected groups that hold 
the responsibility to represent their constituents, and this is 
the support that has been lent to us.
    Mr. Grijalva. Mr. Chairman, having visited with Sioux 
leadership and the folks at the encampment at Standing Rock, a 
word of both caution and to look at this question with an 
entirely different set of eyes. The redefinition of 
``sovereignty,'' the sense that consultation is not applied 
uniformly, equally, or with the same consistency, has many 
Native Nations feeling that the indignities of history have 
culminated in these times now.
    When we are proposing land use decisions, massive 
transfers, looking at national monuments, and Native Americans 
are the nexus of the Antiquities Act; that we be careful and we 
do due diligence to assure that we are not repeating 
indignities of the past and ignoring, sidestepping, or waiting 
until the last minute to deal with the very urgent and very 
real needs that Native American Nations and their leadership 
are bringing before this Congress, and in Standing Rock, before 
this Nation.
    With that, let me yield back, and thank you very much for 
the hearing.
    Mr. McClintock. Thank you.
    Chairman Bishop.
    Mr. Bishop. The gentleman passes. I want to thank you, 
panel.
    Mr. McClintock. The gentleman passes.
    That concludes the committee's business today. We will keep 
the hearing record open for 10 business days if there are 
additional questions submitted to our witnesses.
    Again, we extend our thanks to them for taking their time 
to be with us today.
    If there is no further business to come before the 
subcommittee, the subcommittee stands adjourned.

    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

         Prepared Statement of Access Fund and Outdoor Alliance
    On behalf of the Access Fund and Outdoor Alliance, we welcome the 
opportunity to submit this testimony for inclusion into the public 
record regarding the proposed ``Utah Public Lands Initiative Act,'' 
also known as the ``PLI'' or H.R. 5780.
    The Access Fund is a national advocacy organization whose mission 
keeps climbing areas open and conserves the climbing environment. A 
501(c)(3) non-profit and accredited land trust representing millions of 
climbers nationwide in all forms of climbing--rock climbing, ice 
climbing, mountaineering, and bouldering--the Access Fund is the 
largest U.S. climbing advocacy organization with over 13,000 members 
and 100 local affiliates. The Access Fund provides climbing management 
expertise, stewardship, project specific funding, and educational 
outreach.
    Outdoor Alliance is a coalition of seven member-based organizations 
representing the human powered outdoor recreation community. The 
coalition includes Access Fund, American Canoe Association, American 
Whitewater, International Mountain Bicycling Association, Winter 
Wildlands Alliance, the Mountaineers, and the American Alpine Club and 
represents the interests of the millions of Americans who climb, 
paddle, mountain bike, and backcountry ski and snowshoe on our Nation's 
public lands, waters, and snowscapes.
    Eastern Utah includes world-class outdoor recreation opportunities, 
unique natural values and countless Native American cultural sites. 
While H.R. 5780 would provide protections for some portions of this 
exceptional landscape, it does not provide enough to protect recreation 
assets and these other important values for future generations. For 
climbers, eastern Utah contains some of the most iconic, unique and 
high quality opportunities in the world, including areas like Indian 
Creek, Castle Valley, Fisher Towers, San Rafael Swell, Valley of the 
Gods, Arch Canyons, Lockhart Basin, Comb Ridge, and thousands other 
climbing sites. A recent survey of over 1,000 climbers nationwide who 
travel regularly to this region found that our members and the national 
community value wild experiences, vast landscapes, undeveloped 
viewsheds, clean air, solitude, and cultural heritage. We want to 
protect southeast Utah for future generations because we know firsthand 
how valuable the area is to personal growth. Climbers--along with the 
greater outdoor recreation community--also contribute significantly to 
the economy of the region as evidenced by growing visitation levels and 
the Outdoor Industry Association's report showing that in Utah alone 
outdoor recreation generates $12 billion in consumer spending, 122,00 
direct jobs, $3.6 billion in wages and salaries, and $856 million in 
state and local tax revenue. As such, the Access Fund and Outdoor 
Alliance are committed to working with both the Congress and the 
Administration toward appropriate, durable protections for eastern 
Utah's incredible public lands.
    We believe the legislative process can achieve a solution that 
honors recommendations from numerous stakeholders who have weighed-in 
over the course of this painstaking 3-year process. However, time 
remaining in the 114th Congress is very short and the PLI is 
problematic for the climbing and greater outdoor recreation community 
because, among other things, it does not adequately consider the voice 
of the human-powered recreation community and, for many areas that are 
highly valuable to our community, favors development and resource 
extraction over conservation of the environment and protection of 
cultural and recreation resources. Perhaps most importantly, we cannot 
support legislation that transfers vast tracts of public land and 
energy leasing authority to state control. We also fundamentally oppose 
plans that can result in the large-scale disposal or transfer of our 
public lands to the states.
    Please find below our suggested improvements to H.R. 5780 that 
would ensure clean air and water along with public access to natural 
landscapes that will allow Utah to benefit from a thriving recreation 
economy and high quality of life. As with our previous comments, we 
make no representation whether the amount and location of proposed 
wilderness and conservation designations are enough for this bill to be 
viable in Congress and for the President's signature.
          i. positive elements of the public lands initiative
    Since the initial ``discussion draft'' of the PLI was released in 
January of 2016 there have been significant improvements incorporated 
into the now-introduced H.R. 5780. We appreciate that H.R. 5780 
reflects some of the outdoor recreation community's comments on the 
draft legislation such as an Indian Creek National Conservation Area, 
Wild and Scenic Rivers (357 miles of the Green, Dolores, San Juan and 
Colorado Rivers) and in particular some boundary adjustments to address 
potential management challenges related to rock climbing at Bridger 
Jack Mesa, Mexican Mountain, and San Rafael Reef.
    However, we believe that the PLI still needs considerable work 
since additional provisions were included in the latest version that 
would diminish world-class recreation assets and the environment, 
thereby threatening the growth of Utah's recreation economy. We 
maintain hope that a legislative process could find the right balance 
to manage our Federal public lands, honor Native American values, 
protect recreation resources and the recreation economy in gateway 
communities, and provide landscape-scale conservation measures.
         ii. needed improvements to the public land initiative
    Eastern Utah is world-famous for its unmatched natural, cultural 
and recreational values. While the PLI protects some of the special 
places noted herein, negative elements in the bill far outweigh its 
positive aspects. The Access Fund and Outdoor Alliance believe that the 
following issues, addressed in more depth below, are key parts of the 
PLI that require adjustment.

    <bullet> Internal management direction in the PLI conflicts with 
            the Wilderness Act, Federal Land Policy and Management Act, 
            National Forest Management Act, and National Environmental 
            Policy Act.

    <bullet> The PLI fails to conform to local agreements between 
            stakeholders, as well as county proposals developed during 
            the PLI process.

    <bullet> Unprecedented giveaways to the state of Utah, including 
            over a thousand miles of public roads, massive SITLA 
            ``trade-in'' areas, and regulatory authority over Federal 
            energy leases.

    <bullet> The PLI affords insufficient protections for the Bears 
            Ears region.

    <bullet> Other problematic provisions addressed in more depth 
            below.

A. Public Lands Initiative Planning and Implementation Committee
    The PLI's Planning and Implementation Committee is not sufficiently 
well-balanced, does not adequately represent the entire spectrum of 
recreation interests and local concerns, and is predisposed to 
decisions that favor development and resource extraction over 
conservation and protection of cultural and recreation resources. We 
believe the design of this committee will render predictable outcomes 
and result in forgone conclusions that support industrial development 
to the detriment of recreational users, the regional economy, and 
public land conservation.

B. Energy Policy and Master Leasing Plans
    The PLI provides the state of Utah control over energy leasing 
decisions, including federally-owned leases, and will conflict with the 
Moab Master Leasing Plan--a plan that Access Fund and Outdoor Alliance 
enthusiastically support because it brings better balance and certainty 
to energy development and the protection and enhancement of recreation 
opportunities. We believe that the Interior Department should retain 
its primacy in the leasing authority over Federal lands owned by all 
Americans, and that such management decisions should be informed by 
meaningful and vigorous public involvement, such as was the case with 
the Moab Master Leasing Plan.

C. SITLA
    The PLI proposes transfer of Federal lands to the state of Utah--in 
very large blocks--that could negatively affect the environment, 
recreation access, the integrity of National Park viewsheds and air 
quality, and quality of life of neighboring communities. The PLI 
includes a mandatory land exchange that will result in large 
consolidated blocks of SITLA land bordering, and within, high value 
recreation sites in San Juan, Grand, and Emery Counties. This exchange 
is clearly designed to give SITLA large blocks for the purpose of 
energy and potash development. Many of these trade-in areas are greatly 
valued by Utahns and countless visitors for their recreation and scenic 
values. Specifically, we are concerned about the following SITLA 
consolidations: (1) northwest of Moab along State Highway 313 in the 
Big Flat area from Monitor and Merrimac Buttes all the way to the Green 
River, (2) just north of Interstate 70 near the San Rafael Reef and the 
San Rafael River, and (3) near Bluff, Utah just north of the San Juan 
River.
    We are also deeply concerned with the parcels that would be 
retained by SITLA and border the Dugout Ranch at Indian Creek. These 
Dugout Ranch parcels are among the most important to the viewshed of 
the rock climbing community and we urge that they be conveyed to the 
Federal Government. All these locations represent high value 
recreation, natural and cultural areas that stand to be greatly harmed 
by development that will come with these SITLA trade-ins.
    Unfortunately, many of the details regarding where and how much of 
this Federal land will be transferred to the state and consolidated was 
not available to the public prior to this bill's introduction, thus 
limiting the ability of stakeholders, like the Access Fund and Outdoor 
Alliance, to provide meaningful input regarding this very important 
aspect of the PLI. Moreover, this title contradicts the National 
Environmental Policy Act and Federal Land Policy and Management Act by 
declaring the land exchange to be in the public interest and stating 
that the exchange is in compliance with Federal law. School Trust Land 
consolidations should be reduced to minimize the impact of potential 
industrial development on the outdoor recreation economy, conservation, 
and local communities and we need to better understand these 
implications.

D. Road Claims
    The PLI attempts to resolve long-standing road disputes (RS 2477 
claims), but would do so by simply granting to the state of Utah over a 
thousand miles of rights-of-way on BLM land. These routes are currently 
the subject of extensive litigation, and thus far the state of Utah and 
its counties have a very mixed record of prevailing in court. As such, 
we believe that the PLI's provisions prematurely address state rights-
of-way before the courts have had a chance to resolve such claims based 
on evidence pursuant to RS 2477 that each right-of-way actually existed 
before the passage of the Federal Land Policy and Management Act of 
1976.
    The PLI also requires the management existing designated routes in 
a manner that ``is consistent with Off-highway vehicle and mechanized 
use of the designated routes that is authorized on January 1, 2016.'' 
This language in essence codifies the existing controversial 2008 
Resource Management Plans that are also under litigation, and seemingly 
would prevent the BLM from managing these ``routes'' in accordance with 
court orders even where the state of Utah loses its claims in court. 
For these reasons we believe the PLI should not address RS 2477 issues 
and let the courts resolve these thousands of controversial road 
claims.

E. Air Quality
    The PLI prohibits the designation of Class I airsheds for newly 
designated wilderness areas unless Class I status is agreed to by the 
state of Utah. If the past is any indication, the state of Utah will 
never agree to Class I airsheds for these proposed areas (and the 
Federal Government unlikely to conceding Federal supremacy on this 
topic), thus the flexibility intended for this provision is 
meaningless. Access Fund and Outdoor Alliance support the option of 
designating these areas as Class I airsheds to protect and enhance the 
local environment and economy.

F. Additional Concerns
    Finally, the PLI favors some land management strategies that are 
not informed by currently accepted land management best practices. For 
example, PLI grazing and snowmobile prescriptions do not follow well-
substantiated, sustainable resource management approaches. Also, the 
Seep Ridge Utility Corridor (AKA Book Cliffs Highway/Utility Corridor) 
should not be included in the bill. Grand County residents and local 
elected officials have rejected this corridor numerous times over the 
last 35 years. While this conveyance has been changed from a ``road'' 
to a ``utility'' corridor, the concerns about industrialization that 
will be facilitated by the corridor remain. Finally, Access Fund 
fundamentally opposes the PLI ``partner'' bill, H.R. 5781, which would 
remove the President's authority under the Antiquities Act.

                                * * * *

    Chairman McClintock and members of the Subcommittee on Federal 
Lands, we appreciate the opportunity to provide testimony on Utah 
Public Lands Initiative Act (H.R. 5780). The Access Fund and Outdoor 
Alliance have reviewed the PLI and cannot support this proposal for the 
reasons stated herein.

    Respectfully Submitted,

        Erik Murdock, Policy 
        Director,                     Louis Geltman, Policy Counsel,
        Access Fund                   Outdoor Alliance

                                 ______
                                 

                               Enefit American Oil,
                                       Salt Lake City, Utah

                                                 September 15, 2016

Hon. Tom McClintock, Chairman,
House Subcommittee on Federal Lands,
1332 Longworth House Office Building,
Washington, DC 20515.

Re: Comments on H.R. 5780, the Utah Public Lands Initiative Act

    Dear Chairman McClintock:

    On behalf of Enefit American Oil (``Enefit''), please accept these 
comments for the official record for the hearing held on September 14, 
2016 on H.R. 5780, the Utah Public Lands Initiative Act.
    Enefit is a subsidiary of Eesti Energia, the largest energy company 
in Estonia, and is developing an oil shale project in the Uinta Basin 
in eastern Utah. Enefit owns or leases over 27,000 acres of lands that 
contain more than 3.5 billion barrels of in-place oil shale resources. 
Enefit is the world's foremost developer and producer of energy from 
oil shale resources, and Enefit is pursing the development of a mine 
and processing facility on its Utah lands that will produce 50,000 
barrels--or \1/4\th of Utah's oil consumption--per day for 30 years. 
This operation is planned to be a heavy industrial complex that will 
involve typical mining and refining activities, and these activities 
will likely be seen or heard outside of our land holdings.
    We want to commend Congressman Bishop and Congressman Chaffetz for 
their support of this project over the years and for their efforts to 
craft public lands policies that strike a balance between conservation 
and energy production. Enefit has engaged in the Public Lands 
Initiative since its inception to ensure that conservation designations 
do not create conflicts with the full development of our project or 
infringe upon any valid existing rights held with our private lands or 
our state and Federal leases. The purpose of these comments are to 
commend the Utah Delegation for considering our input and to urge the 
Committee to recognize the possible impacts to energy development if 
boundaries are changed or language is altered during the legislative 
process.
    Enefit's private project lands are situated near the Colorado 
border and adjacent to the White River, within a few miles of the 
proposed White River Special Management Area (SMA). Our Federal oil 
shale Research, Development, and Demonstration Lease and associated 
Preference Right Lease Area, totaling nearly 5,000 acres, lie directly 
adjacent to the proposed SMA. We worked with the Utah Delegation and 
the Uintah County Commission to adjust the previously proposed 
boundaries to ensure our leased lands are not included in the SMA, in 
order to minimize potential future development conflicts with 
conservation, resource or special management plans and objectives. We 
urge the Committee to not expand the boundaries of the White River SMA 
on the south and eastern borders to ensure this conservation 
designation does not encroach on our leased lands. We stand prepared to 
work with the Delegation and the Committee if changes are considered to 
ensure no conflicts are created between our oil shale project and this 
important conservation effort.
    Additionally, language within H.R. 5780 in Section 204, which 
applies to Section 408 (that mandates the designation of the White 
River SMA per Section 411(a)) prohibits the creation of a ``protective 
perimeter or buffer zone'' around the White River SMA and ensures that 
any activity that can be ``seen, heard, felt, or smelled'' within the 
White River SMA ``shall not preclude the activity or use outside the 
boundary'' of the SMA. We support this critical language, which 
protects the Enefit project from future claims that our energy 
development activities somehow are impairing the purposes of the SMA if 
they can be seen, heard, felt, or smelled. We urge the Committee to 
retain this vital language and again we stand ready to work with the 
Committee if there are any proposed changes to these provisions, in 
order to ensure a fair balance of conservation and responsible energy 
production in this region of Utah.
    Thank you for including these comments in the record and Enefit is 
happy to provide further information at the Committee's request.

            Sincerely,

                                              Ryan Clerico,
                                    Acting Chief Executive Officer.

                                 ______
                                 

  Prepared Statement of Friends of Cedar Mesa, in opposition to H.R. 
             5780, the ``Utah Public Lands Initiative Act''
    As a longtime participant in the Utah Public Lands Initiative (PLI) 
process, Friends of Cedar Mesa (FCM) submits the following written 
testimony regarding the Legislative Hearing on H.R. 5780, the ``Utah 
Public Lands Initiative Act'' that was held September 14, 2016.
    As a local, on-the-ground conservation group in San Juan County, 
Utah, we have long believed in a legislative solution to land use 
conflicts in southeast Utah and have showed our good faith in working 
toward a bill by attending every PLI meeting in San Juan County. We 
have worked hard to find common ground with our friends and neighbors, 
provided many constructive comments to the delegation on the bill, and 
been willing to compromise on many key provisions. Like many who spoke 
at the hearing in Washington, DC, we are grateful to the staff of 
Representatives Chaffetz and Bishop for their tireless hard work to 
include viewpoints from a variety of stakeholders, including those of 
FCM.
    After years of work on the PLI, we had hoped to support the 
legislation in Congress. Unfortunately, we were saddened to be 
compelled to oppose the PLI when it was formally introduced to the 
House on July 14, 2016. Please see our original letter to the Utah 
Delegation, attached as Exhibit A, which were also submitted to the 
record at the hearing by Representative Tsongas.
    Since the introduction of H.R. 5780, we have gained even more 
insight into the shortfalls of the Bill. Likewise, we are concerned by 
misinformation and political rhetoric that continues to undermine an 
objective analysis of the legislation. As such, this testimony aims to 
set the record straight on a couple of key issues raised at the 
September 14 hearing.
    Most importantly, Congress should know the truth about the serious 
problem of looting, grave robbing, and vandalism of cultural resources 
in southeastern Utah. At the hearing, a completely false statement was 
made that there has only been one serious incident of cultural resource 
damage in the Bears Ears area in the last 5 years. The truth is there 
have been at least 28 incidents on Bureau of Land Management land 
within San Juan County since 2011, with at least six so far in 2016. In 
May, the BLM confirmed it had a record of 25 incidents. However, we 
know of three more that have either happened since then or were 
unintentionally left of 25-incident compilation. These are only the 
incidents we are aware of on BLM lands and do not include State, Forest 
Service or Park Service managed lands in the County. Most of these 28 
incidents occurred within the Bears Ears area, as defined by the Inter-
Tribal Coalition National Monument proposal. For a list of specific 
incidents that occurred within the Bears Ears area, which we have seen 
with our own eyes, please see Exhibit B.
    We would happily host any Member of Congress to show them first 
hand sites that have been looted or vandalized within recent years.
    Besides the false information regarding the number of incidents, 
misleading comparisons were made between incidents of serious cultural 
resource damage in Bears Ears and law enforcement incidents in Grand 
Staircase Escalante Monument. Representative Hardy tried to suggest 
that 1200 law enforcement incidents that have occurred in Grand 
Staircase since 2011 were the same type of antiquities-related crime as 
the 28 incidents mentioned above. This kind of apples-to-oranges 
comparison is not constructive to public dialogue. Bubble gum on signs 
or graffiti in restrooms is not the same as grave robbing.
    Long-term preservation of sensitive cultural resources, which span 
a history longer than 14,000 years and represent connections to over 26 
Tribes and Pueblos, is the driving force of the movement to protect 
Bears Ears. In excess of 100,000 archaeological sites make this area 
exactly the kind of place the Antiquities Act was designed to protect.
    In our estimation, legislation would be a better method to protect 
the area than a Monument designation. However, the introduced bill 
undermines cultural resource protection by excluding many critical 
archaeological areas from the proposed Bears Ears National Conservation 
Area, including Allen Canyon, Chippean Ridge, the Dry Wash drainage, 
and many of the tributaries that run into White Canyon. Additionally, 
the PLI in its current form creates the potential to open up culturally 
sensitive areas to grazing after land managers have taken measures to 
close them to cattle for the express purpose of protecting 
archaeological sites.
    The September 14 hearing also highlighted our outstanding concerns 
regarding the proposed Utah State Institutional Trust Lands 
Administration (SITLA) land trades proposed in the bill. SITLA Director 
Dave Ure confirmed our fears that a large block of land just north of 
Bluff is being proposed for consolidation for expedited oil and gas 
drilling. After years of working toward a conservation solution that 
protects cultural resources in our backyard, no one was more surprised 
than us regarding this last-minute addition to the PLI bill. Large-
scale energy development right outside of Bluff and inside of the 
proposed Bears Ears National Conservation area would devastate our 
local tourism-based economy. We can only hope that Director Ure was 
genuine in his expressed commitment to working with local communities 
and conservation experts who have concerns about trades. Attached in 
Exhibit C is a memorandum sent to the Department of Interior on this 
problematic land trade.
    The Bluff Bench trade out is not the only worrisome SITLA position 
outlined in the bill. There are other problematic parts in Division B 
and the related maps, including SITLA's retention of ownership and 
mineral development rights or surface rights on Comb Ridge, Tank Mesa, 
Cottonwood Wash and Cedar Mesa within the proposed Bears Ears NCA. This 
would compromise the conservation intentions of the designation, and 
leaving these critical archaeological areas out of the pathway to 
protection makes our support for the current bill impossible.
    The third alarming issue raised at the hearing is the granting to 
the state of Utah primacy in oil and gas permitting in these seven 
counties. The state cannot be given undue authority on energy 
development on all available public lands. This circumvents the NEPA 
public process, puts an agency that already lacks transparency in the 
driver's seat, and undermines Master Leasing Plan processes that would 
be better win-win solutions balancing energy development, cultural 
resource protection, recreation and other land uses. MLPs are an 
inclusive tool that can ultimately prevent litigation, whereas giving 
the state primacy in permitting will likely lead to land being locked 
up in lawsuits. When testifying, BLM Director Neil Kornze warned that 
energy permitting by the state could be ``highly problematic'' and 
concerning. FCM agrees.
    We submit this written testimony with heavy hearts. Had this 
hearing occurred a year ago, there might be some chance of our 
substantial concerns being addressed in the legislative process. 
However, we agree with Representative Tsongas that H.R. 5780 has no 
realistic chance of becoming law in 2016. Contrary to statements by 
Representative Chaffetz, this bill is not a bi-partisan solution. 
Barring a miraculous overhaul of bill, we continue to support a 
Presidential declaration of a Bears Ears National Monument. Such action 
would protect an area that has been proposed for protection for 113 
years and is filled with antiquities worth preserving.

                               Exhibit A

See July 19, 2016 Letter to Congressmen Bishop and Chaffetz on page 73.

                               Exhibit B
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                             Exhibit C

                               MEMORANDUM

To: Secretary Sally Jewell, U.S. Department of the Interior

From: Josh Ewing, Executive Director

Subject: Problematic land trades near Bluff, Utah proposed by SITLA in 
connection with conservation proposals in southeastern Utah

Date: September 9, 2016

Background
Friends of Cedar Mesa has previously shared with your office our 
concerns about the proposed Public Lands Initiative (PLI) Legislation, 
which would impact DOI administered lands in San Juan County, Utah. 
This memo focuses on an important but little publicized portion of that 
legislation with new information.

The PLI proposes a very large land trade between the State of Utah and 
the United States government, exchanging SITLA lands for DOI lands. A 
similar land trade would likely be triggered by any use of the 
Antiquities Act to designate a National Monument in the Bears Ears 
region.

This memo highlights a specific geography of problematic trades 
proposed by SITLA, overlapping both the Bears Ears National 
Conservation Area that would be created by the passage of the PLI and 
the footprint of the National Monument proposed by the Bears Ears 
Inter-Tribal Coalition. The trades discussed are visualized on the 
attached map.

In general, the principle of consolidating land ownership is an 
excellent idea. Conservation areas are best managed when small 
dispersed Trust Land holdings are removed, providing continuity of 
management. Likewise, the Utah State Institutional Trust Lands 
Administration (SITLA) can accomplish its mission of maximizing returns 
for beneficiaries far more efficiently when lands under the Trust's 
management are consolidated away from sensitive cultural and natural 
resources.

Unfortunately, trades proposed in the Bluff area are highly problematic 
for the reasons outlined below. We have shared these concerns directly, 
in person, with SITLA leadership.
Conservation and scenic values of the area

Many of the lands proposed to be retained or acquired by SITLA in the 
Bluff area are highly scenic and contain important cultural resources. 
The Bluff Bench is a viewshed prized by the people of Bluff and the 
surrounding lands provide the gateway for tourists from around the 
world who come to Bluff to visit nearby Monument Valley, Valley of the 
Gods, Comb Ridge, and Hovenweep National Monument.

Although little of the area has been documented by rigorous 
professional surveys, local archaeologists have identified many unique 
archaeological sites, including ancient Ancestral Pueblo roads, shrines 
and pueblos. Importantly, this area contains what may be Utah's highest 
concentration of Navajo and Ute archaeology, including rare petroglyph 
panels.

This area has been involved in significant controversy over possible 
oil and gas leases, which were protested by the Hopi Tribe in the early 
2000s and most recently by the National Trust for Historic Preservation 
and Friends of Cedar Mesa in 2014. The Bureau of Land Management 
deferred leasing in this area in 2015 after this most recent protest. 
Significantly, this area is covered in the upcoming San Juan Master 
Leasing Plan boundaries, which will seek to balance cultural resource 
protection and oil and gas development.
Potential for development, privatization and extraction within proposed 
        conservation areas

As one can see from inspecting the attached map, SITLA is proposing to 
retain ownership of surface and mineral rights on significant lands 
within the Bears Ears National Conservation Area. This creates the very 
real scenario of oil drilling, residential/commercial development, or 
privatization of lands that are specifically proposed for conservation 
in the PLI. Even more lands are proposed to be acquired by SITLA within 
the boundaries of a National Monument proposed by the Bears Ears Inter-
Tribal Coalition.

Combined, the retention by SITLA of lands within the two proposed 
conservation areas and their proposed acquisition in the area creates 
the scenario of a major block of SITLA land in Bluff's backyard. The 
residents of Bluff are very concerned with the possibility of mass 
industrialization or even large-scale tourism development in this 
region. While perhaps not imminent due to current market conditions, 
future industrialization could dramatically impact Bluff's tourism-
based economy and devastate the way of life enjoyed by residents. Such 
industrialization could also have significant impacts on cultural 
resources in the area. Despite best efforts, subtle archaeology, such 
as many of the Ute sites in the area, are easily missed and damaged by 
work crews. And the ``setting'' of these sites, which is protected by 
the National Historic Preservation Act, would change forever.
Recommendations and conclusion

If a conservation designation is created in the area, be it NCA or 
Monument, Friends of Cedar Mesa recommends that federal land managers 
and SITLA work with local residents and conservation experts to 
identify lands more suitable for SITLA ownership outside of any 
designated areas. Proper thought should be given to not creating the 
scenario for development just outside of a designated area, which would 
certainly engender significant future controversy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              
                                 

  Prepared Statement of Hilda Madsen on behalf of herself and Colonel 
  John A. Watts, USA, Ret., Gayle and Gary Hunting, David Gunderson, 
              Helen Watts, and Ronald and Charlyn Dalebout
    H.R. 5780 is an important step to reaffirm the property rights of 
families in Scofield, Utah. We appreciate the work of Representatives 
Bishop and Chaffetz and the intent of the legislation. However, we ask 
the committee to eliminate the exclusion of the properties and persons 
described below from the relief otherwise offered by this legislation.
    Section 5.2(3)(B)(ii) of H.R. 5780 specifically excludes the 
families impacted by U.S. v. Dunn et al. (case described below). It is 
unclear why the legislation eliminates the promise of fair and 
equitable relief for the very families that were targeted by the 
Department of the Interior (DOI) for decades, but fought hard enough 
for the government to soften and reconsider taking additional private 
property to arrive at the point we are today. A just resolution to this 
issue must extend to the families that sacrificed to persistently fight 
the aggression of DOI--not just to their neighbors who watched and 
waited.
    We consistently maintained rightful ownership of this property as 
demonstrated by decades of faithful payment of property taxes to Carbon 
County over generations of progeny, improvements made to the land, and 
the facts described in the following paragraphs. We would be willing to 
pay reasonable costs of conveyance to resolve this matter once and for 
all.
    As you examine our request, please consider the following facts to 
demonstrate the violation of property rights by DOI. We have sacrificed 
decades of peace and substantial financial loss in the hopeless effort 
to match the unlimited legal resources of the Federal Government.
    From the 19th century, my grandfather settled the Scofield area and 
with his sons operated a large ranch. The title matters that affect 
this area are not simple, but our understanding of the back story is. 
When the Scofield dam was proposed, in order to cooperate, owners 
entered into various deeds to grant to governmental entities certain 
lands, and then those lands or use rights thereto in excess of the 
needs of the dam would be granted back to citizens. Certain lands to be 
permanently inundated would be lost by the resultant lake, but the 
representation was that, other than the lake, ultimate use and 
ownership rights would be unchanged.
    In that respect, in 1927, our family members received deeds back to 
tracts of lands in the vicinity of Scofield, Utah. Over the years, some 
of these lands were passed down through the generations, including to 
me. My (Hilda Madsen) properties at issue are described on Exhibit A to 
this letter.
    (It bears noting that this tradition of cooperation at Scofield has 
continued through the generations. We have consistently maintained a 
cooperative relationship with the state of Utah and its management of 
state interests within the Scofield Reservoir area, even contributing 
lands on the shore of Scofield Reservoir for use by the public. These 
lands are now known as Madsen Bay Campground within Scofield State 
Park.)
    In 1976, we were surprised to receive notification from E.G. 
Bywater, Asst. to the Regional Director, U.S. Department of Interior, 
Bureau of Reclamation, Upper Colorado Regional Office, that we were 
trespassing on such property. We hired an attorney. Jake Garn, then 
U.S. Senator for the state of Utah, involved himself in the matter on 
behalf of landowners, some his constituents and others not.
    Each of the landowners subject to the Dunn litigation described 
below received a letter dated May 6, 1977 from E.G. Bywater, Acting 
Regional Director, Bureau of Reclamation, Upper Colorado Regional 
Office, setting the date of May 17, 1977 for a settlement meeting. The 
meeting was held May 17, 1977 at 10:00 a.m. in Conference Room 7102, 
Federal Building in Salt Lake City, Utah. (We have a copy of the notice 
of meeting.) After some discussion, the attorney representing the 
United States' interests, Ron Staten, determined that the government 
had only a surface flood easement over this land and stated that he 
would be presenting his recommendation to the Department of the 
Interior in Washington, DC. The landowners left that meeting, well 
pleased with the resolution, and continued using the land and paying 
property taxes thereon for decades to come.
    In 1988, the same regional office of the Bureau of Reclamation 
again wrote saying that it had an interest in the property. We reminded 
the government about the events of 1977 and the matter again went away.
    In 2000, just months after the death of Della Madsen, the last 
witness to the events of 1977 and 1988, a complaint was filed against 
us by the government for trespass and quiet title. (U.S.A. v. Dunn et 
al., Case No. 2:99 CV 0145 G, District Court of Utah, Central 
Division.) Again we retained an attorney and were initially encouraged 
by the government's counsel that the case could settle.
    In the meantime, Alan Christensen, a representative of the Bureau 
of Reclamation, separately told (1) a Carbon County commissioner, Mike 
Melavich; (2) a neighboring land owner, John Woolsey, and (3) the mayor 
of Scofield, Utah, Mike Erkola, that once he won this property for the 
Bureau, he was ``going after'' the lands of everyone around Scofield 
Reservoir. There are numerous homes, agricultural and grazing interests 
and custom-lot developments surrounding Scofield Reservoir. At my 
deposition and in the presence of his U.S. Assistant Attorney, John 
Magnum, Christensen denied making any of these corroborated statements.
    Despite that we provided copies of the government's written notice 
of the 1977 meeting, the government denied that the meeting occurred, 
insisting that there are no files or records pertaining to the events 
and determinations made in the 1970s and that there are no files for 
Ron Staten. They denied any conclusions or assurances made by 
government attorneys or representatives at that time. We, however, 
relied on those assurances by continuing to use and pay property taxes 
on those lands for over the following decades. And ironically, during 
the course of the quiet title action, the government produced other, 
older documents, including a handwritten note from my father during his 
final months of terminal illness in 1949. Yet they insisted they had 
nothing from the 1970s or 1980s.
    In July 16, 2007, Judge Stewart issued his 26-page Findings of Fact 
and Conclusions of Law in this matter. He describes the deeds (dated 
from 1927) he found dispositive of the matter and reiterates, in point 
13, his 2006 finding that the language of the deeds is ambiguous as to 
whether they grant a use right over these disputed lands because the 
same right granted to other properties in said deeds was clearer. He 
goes on, however, to resolve the ambiguity in favor of me and my fellow 
defendants.
    I will not reiterate the 26 pages of Judge Stewart's findings here. 
A few highlights, however, include:

  1.  In 1986, Mr. Leon Mason, chief appraiser of the Upper Colorado 
            Region of the Bureau of Reclamation, performed an appraisal 
            of a portion of the property at issue for the expressed 
            purpose of acquiring the rights of the Madsen family for 
            use other than flooding as needed by the United States. He 
            stated: ``This appraisal involves an unusual situation 
            where the Federal Government has fee title to the land for 
            flooding purposes only. The theoretical underlying estate 
            of all uses other than flooding is the most useful.. . . 
            According to what the Appraiser can best determine fee 
            title to the subject tract is held in the United States, 
            subject to grazing and any other use except when inundated 
            by the Schofield [sic] Reservoir. This right to use the 
            subject parcel for other purposes is owned by the Madsen 
            family.. . . The [property] was originally acquired . . . 
            from the Madsen family, reserving to the Madsens the rights 
            to graze and use for any other use except when inundated.'' 
            [Emphasis added.]

  2.  In a letter dated July 21, 1989, BOR represented to Mike Jackson, 
            Superintendent of Scofield, Utah State Parks Department, 
            that the property was acquired in fee by the United States, 
            but that ``the deeds reserved the rights of the former 
            owners to retain grazing and other uses except when 
            inundated.'' [Emphasis added.] To the letter was attached a 
            1959 BOR map, indicating the property was held as ``Fee 
            title in the U.S. subject to grazing and any other use 
            except when inundated.''

  3.  Judge Stewart found that from 1927 to date, the property was used 
            and leased by me and my fellow defendants, and that 
            improvements were constructed thereon. He found that the 
            property was fenced continually since the 1950s, and that 
            ``no trespassing'' signs and locked gates were installed 
            and used.

  4.  Taxes have continually been paid.

  5.  At no time since the earlier of pertinent deeds (1927) have any 
            structures on the property ever been inundated by water.

    Judge Stewart determined that, based on the facts presented to 
resolve the ambiguity in the deeds, the evidence ``supports that it was 
the intent of [grantor] to grant the Madsens a use right on the 
[property].'' (This determination renders title akin to a homestead 
grant wherein fee is to the owner, subject to the government's right to 
use for purposes of mineral extraction; the two estates in the same 
property are understood and discernable.)
    We are now four generations further in time from those who were 
party to the events in 1927. However, with the exception of the brief 
events in 1977 and 1988 resolved in favor of the purported landowners 
and the 2000 action, no party--not the United States, not the state of 
Utah, grantees of easements for railroad, utilities and highways, 
municipal authorities, taxing authorities, neighboring landowners or 
the very parties in question--ever objected to or even questioned the 
ownership of these lands by the Madsen successors.
    In 2009, the 10th Circuit Court of Appeal applied a narrow 21st 
century reading to deeds written by legally unsophisticated ranchers in 
1927 and determined that the deeds were not ambiguous and therefore did 
not consider the facts that Judge Stewart found so compelling.

    Please consider the following observations:

  1.  This property was part of a large ranch operation of my father, 
            his father and his uncles from at least the early 20th 
            century. From the time I was a child, I heard about the 
            building of the dam, and the flurry of property transfers 
            made to allow the reservoir and the continuing use of the 
            property by the Madsens. It makes complete sense to me that 
            the deeds are not as clearly drafted as they might be if 
            prepared by a sophisticated modern law firm with plenty of 
            time and capital. These people were ranchers; they were not 
            sophisticated lawyers. But at no time did they, their 
            grantors, or anyone operating the reservoir thereafter, 
            question their right to continue to use the property as 
            they saw fit.

  2.  There is no way my father, grandfather or uncles would have paid 
            taxes on property they did not think they owned. I have 
            reviewed year after year of records showing that when taxes 
            were due, the family had to mortgage the properties to pay 
            the taxes prior to lambing season. Once lambing season was 
            successfully over, monies were used to pay off the 
            mortgages. It was a tight business. They did not have extra 
            capital to spend on taxes for properties they had no right 
            to use. Further, it is my understanding that though fee 
            title might have been in the U.S., the broad use right 
            would have been superior and entirely taxable as fee 
            ownership.

  3.  Were this a matter of private landowner versus private landowner, 
            this issue would have been settled long ago in favor of the 
            Madsens by virtue of the doctrine of adverse possession. 
            All elements were met again and again over the decades, and 
            taxes were paid. Quiet title would have been resolved 
            without question in favor of the Madsens. But because the 
            questioning party is the United States of America, the 
            equitable doctrine is unavailable to us.

  4.  The government knew, over and over, for decades, that the Madsens 
            were using and improving the property. Indeed, they 
            affirmatively acquiesced to the same. A private landowner 
            ought to be able to hold the government to assurances and 
            outward manifestations of assent to ownership. The 
            government should be estopped from disavowing its own prior 
            contrary findings that were relied upon by the party 
            damaged by the later disavowal.

  5.  I find it very difficult to stomach that this matter ultimately 
            turned on a scholarly panel's interpretation of deeds when 
            over eight decades of outward manifestations to the 
            contrary were unopposed.

    After all of this, it would be inequitable in the extreme to 
perpetuate the damage inflicted upon us as selective targets of the 
Interior and to specifically target us for exclusion from the relief 
offered by this legislation. It is our sincere hope that the committee 
will see that denying the equal protection of the legislation's 
umbrella from the very properties and citizens that have been 
championing this cause for decades is unjust and inequitable.
    Again, we appreciate your work in this endeavor and looking forward 
to working with you to amend this legislation.

                               EXHIBIT A

                       HILDA M. MADSEN PROPERTIES

Parcel No. 2A-80-3 in the Official Records of the Carbon County, Utah 
Recorder's Office, described as: The West \1/2\ of the Southeast \1/4\ 
of the Southwest \1/4\ of Section 10, Township 12 South, Range 7 East 
of the Salt Lake Meridian.

AND

An undivided 25% interest in Parcel No. 2A-80-4 in the Official Records 
of the Carbon County, Utah Recorder's Office, described as:

Beginning at a point 895 feet North and 330 feet East, more or less, 
East of the Southwest corner of Section 10, Township 12 South, Range 7 
East, Salt Lake Base and Meridian, a point which is in the Paul Mancina 
South fence line and on the High water line, and running thence 
Northwesterly 250 feet, more or less, along the high water line to a 
point in the Paul Mancina North fence line; and running thence North 
175 feet, more or less to the forty line; thence West 590 feet, more or 
less to the North west corner of the forty line, thence South 425 feet, 
more or less; thence East 300 feet, more or less to the point of 
beginning.

and

Beginning at a point 447.5 feet, more or less, North of the Southwest 
corner of Section 10, Township 12 South, Range 7 East, Salt Lake Base 
and Meridian, and running thence East 430 feet, more or less, to the 
State Road right-of-way; thence Northeasterly along the State Road 
right-of-way to the Paul Mancina South fence line; thence West 430 
feet, more or less, to the forty line; thence South 447.5 feet, more or 
less, to the point of beginning. (Less the State Road right-of-way.)

and

Beginning at a point 447.5 feet North and 430 feet East of the 
Southwest corner of Section 10, Township 12 South, Range 7 East, Salt 
Lake Base and Meridian; thence East 890 feet to the forty line; thence 
North 722.5 feet; thence West 630 feet, more or less; thence 
Southwesterly along the State Road right-of-way to the point of 
beginning, less the State Road right-of-way and the railroad right-of-
way.

                                 ______
                                 

        Natural Resources Defense Council    ***    Sierra Club

                   Southern Utah Wilderness Alliance


                                                 September 14, 2016

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Tsongas:

    We write to express our opposition to H.R. 5780, the Utah Public 
Lands Initiative on the occasion of the bill's hearing on September 14, 
2016.
    Our groups were once optimistic that this bill could be crafted 
into something that would help bring meaningful protections to Utah's 
superlative wilderness lands, and worked diligently toward that goal. 
But over the course of the bill's drafting it has instead morphed from 
an earnest effort at compromise to an unacceptable, lopsided pro-
development bill that rolls back existing lands protections, unleashes 
excessive dirty fuels development in the era of climate change, sets in 
motion unprecedented giveaways of public lands, and fails in its 
efforts to protect the 1.9 million-acre region known as the Bears Ears.
    We address each of these concerns below.
The PLI is a step backward for conservation in Utah.
    The PLI fails to adequately protect the nearly 4.4 million acres of 
remarkable wilderness-quality lands managed by the Bureau of Land 
Management (BLM) in southern and eastern Utah. The PLI removes existing 
wilderness management on BLM lands and fails to protect 62% of 
inventoried lands that qualify and deserve wilderness protection. In 
doing so, the bill rolls back existing protections for over 100,000 
acres of wilderness study areas (WSAs) and at least 70,000 acres of 
BLM-managed natural areas (i.e., areas managed by the BLM for the 
protection of wilderness values).
    Rep. Bishop claims that the PLI designates 4.6 million acres of 
public land ``for conservation,'' when in fact the PLI substitutes 
weakened ``national conservation areas'' (NCAs) and ``special 
management areas'' for landscapes deserving of wilderness protection. 
These so-called ``conservation designations'' enshrine the unacceptable 
Bush-era management plans that designated thousands of miles of off-
road vehicle routes, allow designation and development of new motorized 
trails, green-light deforestation projects (such as pinyon-juniper 
clear cuts), prioritize and entrench livestock grazing (even where 
cultural resources are at risk), prohibit future wilderness protection 
in these areas, and limit federal land managers' ability to protect 
natural and cultural resources. The PLI also artificially inflates 
``conservation'' acreage by over 1.3 million acres. The bill does so 
by, in part, including wilderness in already-protected national parks, 
double counting acres where wilderness falls within NCAs, and 
encompassing currently designated areas such as Natural Bridges 
National Monument and the Dark Canyon Wilderness.
The PLI is a climate change nightmare.
    At a time when our nation and the world are struggling to seriously 
address climate change, the PLI works in the opposite direction. The 
PLI seizes authority from public land managers and instead gives the 
State of Utah control over the permitting and regulation of all forms 
of energy development on millions of acres of federal lands. In doing 
so, the PLI will fast-track dirty energy development on public lands 
and will likely eviscerate meaningful energy leasing reform such as the 
recently completed Moab Master Leasing Plan. The PLI also unleashes a 
carbon bomb by transferring large blocks of federal land to the State 
of Utah for tar sands, oil shale, potash, coal, oil, and gas 
development. These blocks are located in the remote Book Cliffs, in 
high value scenic and recreation lands near the Green River west of 
Moab, on Hatch Point bordering Canyonlands National Park, near the 
world-renowned San Rafael Swell, and in the Uintah Basin.
The PLI is a public lands giveaway.
    The PLI grants thousands of miles of disputed R.S. 2477 rights-of-
way to the State of Utah while allowing for continued litigation over 
R.S. 2477 routes within areas designated as wilderness, NCAs, and 
recreation areas. The PLI furthers the State of Utah's land grab 
efforts by transferring thousands of acres of federal land to the 
state, without compensation, for development and increased motorized 
and non-motorized recreation. The PLI permanently establishes livestock 
grazing as a priority and would result in both increased and new 
grazing in areas currently closed by federal land agencies due to 
natural and cultural resource damage. The PLI bestows inordinate 
authority to county and state officials by requiring federal land 
managers to submit a report to Congress if they fail to follow the 
demands of local politicians. And it undermines the Antiquities Act by 
including a companion bill that would remove the president's authority 
to protect deserving landscapes in southern and eastern Utah.
The PLI fails to protect the Bears Ears Region.
    An historic coalition of Native American Tribes is asking President 
Obama to proclaim a 1.9 million-acre Bears Ears National Monument in 
southeastern Utah and provide them with co-management authority to 
protect their ancestral homelands. Containing over 100,000 cultural 
sites, the Bears Ears is the most significant unprotected cultural 
landscape in the U.S. The PLI ignores Tribal recommendations by failing 
to protect well over half a million acres of the Bears Ears region as 
proposed by the Inter-Tribal Coalition; diminishing the Coalition's 
voice by creating a 10-member advisory committee with only one tribal 
representative for a reduced-size Bears Ears ``national conservation 
area;'' promoting motorized recreation (which puts cultural sites at 
increased risk); authorizing grazing in currently closed areas like 
Grand Gulch, Fish, Owl, and Arch Canyons; and prohibiting the 
Department of the Interior from protecting hundreds of thousands of 
wilderness-quality lands as wilderness.
    For these reasons, we strongly urge to you oppose the Public Lands 
Initiative, and we respectfully request that our statement be entered 
into the record.

            Sincerely,

        Sharon Buccino, Director, 
        Land and Wildlife Program     Athan Manuel, Director, Lands 
                                      Protection Program
        Natural Resources Defense 
        Council                       Sierra Club

        Scott Groene, Executive 
        Director,
        Southern Utah Wilderness 
        Alliance


                                 ______
                                 

     Prepared Statement of Russell Begaye, Navajo Nation President
    On July 14, 2016, Congressman Rob Bishop (R-UT) introduced H.R. 
5780, the Utah Public Lands Initiative Act (UPLI), which designates 
specified Federal lands for certain uses within the San Juan County 
area as well as other provisions. The bill was co-sponsored by 
Congressman Jason Chaffetz (R-UT) and was referred to the House Natural 
Resources Subcommittee on Indian, Insular and Alaska Native Affairs, 
and House Natural Resources Subcommittee on Federal Lands on August 4, 
2016.
    As it stands now, the Navajo Nation cannot support the bill for 
three reasons: (1) the negative impact it would have on Navajo Nation 
royalty revenues from oil and gas fields located on the Navajo 
reservation; (2) its negative effects on the resources within the Bears 
Ears region; and (3) the lack of tribal consultation on key provisions.
    In the first instance, H.R. 5780 stands to reduce the Navajo Nation 
revenues. The bill would decrease the Navajo Nation's royalty revenues 
from its oil and gas leases located in the Aneth extension on the 
Navajo reservation from 62.5 percent to 37.5 percent. These revenue 
sources provide essential funds for government services, programs and 
projects that benefit the members of the Navajo Nation. In addition, we 
are unclear as to why a provision on the McCracken extension, located 
on the Navajo reservation, has been included in the language. Although 
the sponsors may have had public meetings in Utah, the Navajo Nation 
has not been consulted on the inclusion of these provisions in the 
bill. Therefore, because these provisions directly impact the Navajo 
Nation, they should not be included without the consent of the Navajo 
Nation and proper consultation with the Nation.
    Second, H.R. 5780 would not provide enough protection of the Bears 
Ears as it would open the surrounding areas to recreation, public use 
and mining. Many Southwestern Native American tribes, including the 
Navajo, Hopi, Zuni, Acoma, Zia, Jemez Pueblos, the Ute Mountain, 
Southern and Uintah Ouray Utes, the San Juan, Kaibab, and Utah Paiute 
tribes and the Jicarilla Apache assert affiliation, ancestry, 
occupation and enduring use of the Bears Ears and surrounding areas. 
The region is also rich in cultural, scenic, ecological, archaeological 
and paleontological resources. It has many archaeological sites from 
multiple indigenous cultures that inhabited the region for more than 
12,000 years. In fact, the Bears Ears region is the birthplace of the 
Navajo headman Manuelito. The region has many historic landmarks, 
historical trails, ruins, petroglyphs and paleontological resources. 
Members of the Navajo Nation and other tribes use the region and its 
plants and wildlife to sustain their traditional livelihood and their 
spiritual and cultural practices. As such, protection of the Bear Ears 
region is of paramount importance to the Navajo Nation and the 
neighboring tribal nations and the UPLI will not offer the same level 
of protection for the region as a national monument designation.
    The UPLI may also introduce more uranium mines into the regions 
surrounding the Bears Ears. The Navajo Nation has a long history of 
suffering from the negative consequences of uranium extraction. During 
the cold war, uranium was mined from Navajo, which contaminated the 
water table with radioactivity and affected tribal communities from 
uranium tailings that traveled downwind on the Navajo Nation. Many 
Navajo miners and other Navajos living within the mining areas suffered 
from the ill effects of radiation. Navajos are still dealing with the 
ill effects from uranium mining.
    Because of the negative impact on our revenue, the lack of 
consultation, and the potential intrusion on the sacred area of Bears 
Ears, the Navajo Nation opposes the UPLI. The Federal Government has 
trust and treaty obligations to the Navajo Nation to protect its 
resources and the UPLI, in its current form, would undermine these 
obligations. There may have been many meetings leading to the 
development of the UPLI, however the language of the UPLI has only been 
recently presented to the public and there have been very few meetings 
to discuss its meaning, effects and alternatives. Along with the other 
supporting tribes of the Bears Ears Coalition, the Navajo Nation still 
supports the designation of Bears Ears as a national monument. The UPLI 
legislation has not changed this position. Therefore, we ask that you 
not support the UPLI. Thank you.

                                 ______
                                 

            Prepared Statement of The Pew Charitable Trusts
    The U.S. Public Lands program at The Pew Charitable Trusts seeks to 
preserve ecologically and culturally diverse U.S. public lands through 
congressionally designated wilderness, the establishment of national 
monuments, and administrative protections. We appreciate the 
opportunity to submit these views for the record.
H.R. 5780--the Utah Public Lands Initiative Act
    More than 3 years ago, The Pew Charitable Trusts joined a public 
process begun by Representatives Rob Bishop and Jason Chaffetz aimed at 
ending three decades of uncertainty over whether to protect or develop 
public lands in eastern Utah. The initiative was an attempt to find 
common ground between conservation and development interests. All sides 
recognize that this special place needs to be preserved for future 
generations.
    On July 14, the Utah Public Lands Initiative Act (H.R. 5780) was 
introduced. At the time, Pew outlined our concerns about the bill in a 
letter to the bill's sponsors. Since we are not aware of any revisions 
made to H.R. 5780 in the interim to improve the bill or otherwise 
address our concerns, they remain unchanged. We therefore attach a copy 
of our July 14 letter here and respectfully request that it be included 
in this hearing's public record, noting that the time remaining for 
Congress to act to protect these areas is rapidly expiring.
H.R. 5781--the Utah Public Lands Initiative Partner Act
    Pew is opposed to any legislation, including H.R. 5781, that would 
remove or weaken the President's authority to use the Antiquities Act 
to protect important cultural, natural, and recreational resources on 
lands owned by the American people for the benefit of future 
generations.
    We appreciate the opportunity to submit these views for the 
subcommittee's consideration.

                               ATTACHMENT

                         The Pew Charitable Trusts,
                                             Washington, DC

                                                      July 14, 2016

Hon. Rob Bishop,
Hon. Jason Chaffetz,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Congressmen Bishop and Chaffetz:

    The Pew Charitable Trusts has supported the fundamental premise of 
the Utah Public Lands Initiative (PLI) from its beginning: the pairing 
of new wilderness and other conservation designations with broadly 
supported land exchanges between the federal government and Utah. The 
virtues of such an exchange include permanent protection for some of 
Utah's most spectacular places for future generations, a significant 
funding stream for Utah's schoolchildren, and diverse new economic 
opportunities for rural Utah communities provided by wilderness 
designations. The introduction of the Utah Public Lands Initiative Act 
(H.R. 5780) is an important step toward realizing such an exchange.
    Utah's redrock country is virtually unmatched worldwide in its 
sublime combination of scenic vistas, recreational opportunities, 
biological values, and archeological treasures. H.R. 5780 would protect 
some of its most spectacular places. While we are generally supportive 
of the conservation gains envisioned by the bill, we continue to have 
concerns with some of the provisions in the bill that must be addressed 
in order to achieve a durable legislative outcome for southeastern 
Utah's public lands.
    Pew is opposed to the Recapture Canyon right-of-way provisions in 
Section 817. While we appreciate the elimination of the Seep Ridge Road 
corridor from Grand County in Title VI, we remain concerned that future 
developments of the road might endanger the Book Cliffs region. We also 
feel that the management language in the NCA and Wild and Scenic 
sections could be improved so that the areas are adequately protected 
in a manner that is consistent with the goals and values of the 
National Landscape Conservation and National Wild and Scenic Rivers 
Systems and will enjoy management--particularly with regards to 
grazing--that is more protective than existing management, not less. We 
have concerns with the mechanics of the land exchange process in Title 
I of Division B; in particular the NEPA and FLPMA compliance provisions 
found in Section 105. By preemptively determining that these 
conveyances are in the public interest, the bill undermines regular 
order and limits critical checks and balances that ensure that the 
American taxpayer receives the best possible return for the conveyance 
of public property. Likewise, the RS 2477 provisions in title XII of 
Division B are beyond the scope of this bill, and improperly pre-empt 
court proceedings currently underway to resolve these claims. In 
addition, section 204(m) of Division A is so broadly written as to 
potentially limit agencies' authority to make a wilderness 
recommendation or other administrative designations in the management 
planning process. In fact, language throughout the bill significantly 
and unnecessarily constrains the ability of the Secretaries of the 
Interior and of Agriculture to manage these lands for the value for 
which they've been designated. We also support adjusting the boundaries 
of the Bears Ears NCA to include the recreationally and 
archaeologically valuable lands within the White Canyon drainages and 
the Allen, Chippean, and Dry Wash Canyons. Finally, we have concerns 
about the energy language in Title XI of Division B.
    Because Pew believes the legislative process can achieve a solution 
that honors recommendations from numerous public land users, we are 
committed to working with you on the legislation in a manner that would 
enable the Senate to act favorably on this legislation and the 
President to sign H.R. 5780 into law. However, time remaining in the 
114th Congress is very short. Pew's continued support for the PLI 
process depends on a clear demonstration that a measure is moving 
forward and can be enacted by this Congress before the House recesses 
at the end of September.
    If such progress cannot be shown, Pew believes that President Obama 
should use his authority, granted by Congress under the Antiquities 
Act, to protect the Bears Ears area as a national monument. These 
places are under imminent threat, there is strong support among Native 
American tribes for their preservation, and protecting them would 
confer economic benefits to the communities of Bluff, Blanding, 
Monticello, and beyond. While we would prefer to see a good bill passed 
into law, we know from experience with the Grand Staircase-Escalante 
National Monument that a designation under the Antiquities Act can also 
successfully replicate the premise underlying this bill: the 
conservation of land coupled with subsequent consolidation of SITLA 
parcels for lands outside the conservation units to eliminate 
checkerboard ownership and provide a revenue stream to Utah's permanent 
State School Fund.
    We are sincerely grateful for the effort you and your staff have 
put into this bill, which is vastly improved from the draft we saw in 
January. We look forward to working with you on this legislation.

            Sincerely,

                                       Mike Matz, Director,
                                                 U.S. Public Lands.

                                 ______
                                 

                             Summit County Council,
                                            Coalville, Utah

                                                 September 21, 2016

Hon. Tom McClintock, Chairman,
Hon. Niki Tsongas, Ranking Member,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock and Ranking Member Tsongas:

    The Summit County (Utah) Council respectfully writes to provide its 
input and experience relating to H.R. 5780, the Utah Public Lands 
Initiative Act or PLI. The Summit County Council requests that this 
letter be included in the hearing record.
    Summit County was actively involved for a year and a half in 
creating a proposal for the PLI, utilizing an interest-based process 
with local, State and Federal stakeholder groups. That consensus 
process included ranchers, grazers, recreation representatives, elected 
officials, environmentalists, representatives from Utah State agencies, 
Forest Service representatives and citizens at large. We were proud to 
present a full-consensus proposal to Congressman Rob Bishop for Summit 
County. The focus was on watershed management for conservation and 
restoration and multi-use, and included an expansion of the High Uintas 
Wilderness, protection of grazing, and improved access for landowners 
and recreation.
    Summit County does not support H.R. 5780 as currently constituted. 
Summit County has worked diligently with Congressman Bishop's staff 
over the past nine months to conform the PLI to our proposal. 
Unfortunately after repeated assurances from Congressman Bishop's 
Office that the PLI will fully reflect our proposal, we find the 
current draft varies greatly from our proposal's intent.

    Areas of the PLI that are unacceptable include the following:

    <bullet> Contradicts critical elements of the Wilderness Act, 
            including provisions regarding water development.

    <bullet> Contradicts critical elements of the Federal Land Policy 
            and Management Act, National Forest Management Act, and 
            National Environmental Policy Act.

    <bullet> Disregards term that were highly negotiated among all 
            stakeholders concerning proposed management for the 
            expansion of the High Uintas Wilderness, Little West Fork 
            Blacks Special Management Area, and Widdop Mountain and 
            East Fork Smiths Fork Watershed Management Areas, which are 
            critical watersheds for the Bear River and Colorado River 
            Basins.

    <bullet> Permits over-snow and off-road vehicle use or other 
            motorized access to areas currently designated roadless or 
            deemed sensitive due to critical watershed resources. 
            Section 1302--Bighorn Sheep does not comport with our 
            proposal to allow local stakeholders to develop workable 
            solutions.

    Additional areas of the PLI are of significant concern due to 
environmental impacts to the State as a whole, although they do not 
immediately affect Summit County or its proposal, and include:

    <bullet> Concerns that land exchanges may not be adequately vetted 
            and/or of equitable resource value.

    <bullet> Circumvents the Bureau of Land Management and National 
            Forest Service's primacy for energy development permitting 
            on lands under their control through Title IX Long-term 
            Energy Development.

    <bullet> Provides for a companion bill to restrict the President's 
            ability to utilize the Antiquities Act in counties 
            participating in the PLI.

    <bullet> Does not provide appropriations for additional Federal 
            and/or State management requirements.

    <bullet> Mandates grazing at current levels regardless of 
            consistency with current laws and/or condition of landscape 
            to support current levels.

    While the proposal recognizes the critical need to protect scenic 
and sensitive public lands in Utah, places like the High Uintas 
Wilderness and Bears Ears region in San Juan County, it fails to focus 
on areas of collaborative agreement between stakeholders in Summit 
County and other counties, and instead imposes unacceptable and 
controversial provisions. We remain committed to the consensus 
contained in the Summit County proposal and to permanent protection of 
deserving public lands in Utah through whatever process can 
successfully secure those protections.
    Thank you for considering our response to this legislation.

            Sincerely,

                                           Roger Armstrong,
                                                             Chair.

                                 ______
                                 

                          Uintah County Commission,
                                               Vernal, Utah

Hon. Tom McClintock, Chairman,
House Subcommittee on Federal Lands,
Washington, DC 20515.

    Dear Chairman McClintock:

    On behalf of Uintah County, Utah, we the Board of Uintah County 
Commissioners provide the following comments regarding H.R. 5780, the 
Utah Public Lands Initiative Act (``PLI'') which will greatly impact 
our County and our citizens. We support the process and concepts 
utilized to develop this grassroots public lands process.
    Located in the Uinta Basin of Eastern Utah, Uintah County is home 
to world class energy and mineral resources as well as some of the most 
unique and wild places in the United States. Uintah County is fortunate 
to contain the snow packed peaks of the High Uinta Mountains, 
prehistoric remnants in Dinosaur National Monument, banks of the Green 
River in Desolation Canyon, the first steps down the remote Book 
Cliffs, billions of barrels of recoverable oil, trillions of cubic feet 
of natural gas, as well as minerals that are vital to our nation. 
Balancing the competing interests of stakeholders and citizens across 
these landscapes is complex, delicate, and requires a great deal of 
hard, face to face work with all interests.
    Uintah County commends Congressmen Bishop and Chaffetz and their 
staff for the thousands of hours of work and dedication to this effort. 
This has been a long and trying process attempting to achieve perhaps 
the most difficult balancing act in public policy. Uintah County has 
been proud to participate in this process and we have conducted 
numerous public meetings ourselves and conducted hundreds of meetings 
and conversations with citizens and stakeholders. We support this 
process and look forward to working with the Committee and the Utah 
Congressional Delegation to resolve remaining issues within our County.
General Comments:
    National Forest--It is important to note the historical and current 
management of certain lands addressed in the PLI. The national forest 
lands have been managed as a federal timber reserve and forest for over 
100 years. These are public lands reserved for the public purpose of 
timber resources. It is part of the Ashley National Forest, managed by 
the United States Forest Service.
    This area is enjoyed by many of the residents of Uintah County and 
the general public. It includes beautiful alpine lakes, lush meadows, 
high peaks over 12,000 feet in elevation. This area also provides one 
of the few areas with Uintah County where open snowmobiling can occur 
with regularity. This is an important public use which must be 
protected. Of great importance is the water which flows from these 
mountains provides the drinking and irrigation water for almost 30,000 
residents of Uintah County. The trailhead of the Highline Trail begins 
at the eastern boundary of this area. This trail traverses much of the 
spine of the High Uintas.
    Bureau of Land Management--This area of Uintah County has a long 
and storied history. In the northern part of the County these public 
domain lands have been used for grazing, hunting, rock hounding, and 
motorized and nonmotorized recreation. Particularly around Dinosaur 
National Monument these public lands constitute a very important 
component of the Uintah Sage Grouse Management Area. As such, access 
must be preserved to further the habitat projects and wildlife counts. 
This area is also very import to our hunting community and select roads 
must remain open to provide public access to use and enjoy this public 
land.
    In the southern part of Uintah County resides a great expanse of 
public lands managed by the Bureau of Land Management. This area has a 
very rich history being public domain lands, public lands reserved as a 
temporary Indian reservation, then returned to the public domain by an 
1894 Act of Congress. Numerous mineral patents were issued in these 
lands and some homesteading occurred in the early 1900s.
    When Utah became a state in 1896, Congress granted four sections of 
land in each township to Utah and created permanent endowments to 
support public education. These parcels could only be given to the 
State of Utah from unreserved lands. Much of the $2 billion Permanent 
School Fund managed by the State of Utah School and Institutional Trust 
Lands Administration has been generated by the State parcels in 
southern Uintah County.
    In 1948 Congress passed Public Law 440 (An Act To define the 
exterior boundary of the Uintah and Ouray Indian Reservation in the 
State of Utah). This Act extended the exterior boundary of the Uintah 
and Ouray Reservation from ``lands in the former Uncompahgre Indian 
Reservation.'' It also provided for the State of Utah to have the right 
to make selections in lieu thereof outside of the [extension] . . . 
from the vacant, unappropriated . . . public lands, within the State of 
Utah.'' Most of these selections were made in the public domain lands 
in southern Uintah County.
    The remaining public lands have been continuously managed by the 
federal government as public lands. In 1976, Congress passed the 
Federal Land Policy and Management Act which subjected these lands to 
multiple use mandates of that Act and the planning provisions set forth 
therein. Currently all of these public lands are managed by the Bureau 
of Land Management under the 2008 Resource Management Plan. It is from 
these lands, the federal, state and local governments enjoy mineral 
lease funds. These lands contain the areas described in the PLI as 
White River SMA, Desolation Canyon Wilderness Area, and the Book Cliff 
Sportsman Area.
Division A
Title I--Wilderness
    In consideration of the Long Term Energy Development Certainty 
provisions in the Act and also bringing final resolution to Class B and 
D roads within the county, Uintah County provides the following 
comments regarding wilderness designations within our county:

    High Uinta: Uintah County supports this designation and the 
currently depicted boundaries.
    Dinosaur National Monument: During the many months of discussions 
and negotiations, Dinosaur National Monument has been the subject of 
numerous proposals including wilderness designation, expansion, park 
designation, road issues, and management issues. Throughout those 
discussions Uintah County has sought to be mindful of those who live, 
recreate, and work in this part of the County. As you are well aware, 
there is a long history of promises made, promises broken and 
management creep from the National Park Service. Some of the families 
who continue to ranch in this area were on the land prior to the 
monument designation. Because of this history, there remains a high 
level of mistrust of the National Park Service by ranchers, 
recreationists, and other businesses within our County. At this time, 
due to the input from our constituents, we cannot support wilderness 
designation within Dinosaur National Monument. We are happy to continue 
these discussions with your offices and certainly with our concerned 
citizens. We understand the difficulties this may cause as you attempt 
to balance the complex nature of the PLI so we certainly want to 
continue to work through these issues and hopefully resolve them in a 
manner that serves the citizens of our County. If wilderness is 
designated within the Monument it must avoid those areas where 
development has occurred or will foreseeably occur to accommodate 
visitor use and enjoyment.
    Desolation Canyon: Uintah County supports the proposed wilderness 
designation within a portion of Desolation Canyon inside of our county 
boundaries. We spent a great deal of time resolving conflicts in this 
area and crafting a wilderness boundary that protects the most critical 
portions of the canyon within our county and avoided conflicts with 
energy development and existing roads. While we are supportive of the 
current boundaries of the Desolation Canyon Wilderness, we urge the 
Utah Delegation to insure these boundaries do not expand and that the 
road and energy resources surrounding this Wilderness area are 
protected.
    Management Provisions: Uintah County applauds the inclusion of 
strong management language that will preserve grazing, state water 
rights, existing uses as well as the air shed language on these 
landscapes, and excludes buffer zones.
Title II--National Conservation Areas
    In consideration of the Long Term Energy Development Certainty 
provisions in the Act and also bringing final resolution to Class B and 
D roads within the county, Uintah County agrees to the following 
conservation designations:
    Beach Draw, Diamond Mountain, Docs Valley, Stone Bridge Draw, and 
Stuntz Draw NCAs: Uintah County supports the designation of these areas 
as National Conservation Areas and appreciates the specific language 
preserving our efforts to manage for greater sage grouse. We are 
concerned that several roads within the Diamond Mountain NCA will be 
closed by the Bureau of Land Management and these roads should be 
specifically protected in the language.
    Management Provisions: Uintah County applauds the inclusion of 
strong management language that will preserve grazing, state water 
rights, existing uses on these landscapes, and excludes buffer zones.
Title III--Watershed Management Areas
    Ashley Spring and Dry Fork Watershed Management Areas--Uintah 
County supports these provisions as they will help protect our water 
resources that supply irrigation and drinking water to the 20,000+ 
residents of Ashley Valley.
Title IV--Special Management Areas
    In consideration of the Long Term Energy Development Certainty 
provisions in the Act and also bringing final resolution to Class B and 
D roads within the county, Uintah County agrees to the following 
special management designations.

    High Uintas: Uintah County supports the current boundaries and 
management language of this designation. Specifically, the over snow 
vehicle language is important to our recreation community.
    White River: Uintah County has supported the designation of a 
Special Management Area along the White River provided there continues 
to be access to the minerals underlying the area and the designation 
would not cause conflicts with other uses in the area. We appreciate 
the adjustment of the boundaries of this area in order to avoid the 
world class oil shale resources in the area that are under current 
development. We urge the Committee and the Utah Delegation to not 
expand these boundaries, retain the language prohibiting the creation 
of a buffer zone around the SMA and preserve access to the minerals 
under the White River SMA.
    Book Cliffs Sportsmen: Uintah County supports designation of this 
area but would like to work with the Committee and the Utah Delegation 
to insure that existing roads in this area are cherry stemmed out of 
the designation or language is included that specifically preserves 
these roads that are vital for recreational access.
Title VII--Wild and Scenic Rivers
    In consideration of the Long Term Energy Development Certainty 
provisions in the Act and also bringing final resolution to Class B and 
D roads within the county, Uintah County supports designation of the 
Green River as a Recreational River south of the Pariette Draw Road to 
the county line but does not support Wild and Scenic designation within 
Uintah County.
Title VII--Ashley Karst National Geologic and Recreation Area
    Uintah County supports this designation which will protect the 
critical water supplies for the city of Vernal and surrounding 
communities. The karst system which feeds Ashley Creek is critical for 
the protection of these water resources. We would request the inclusion 
of language to prohibit the Forest Service for charging recreation fees 
excepting for developed camp grounds. Uintah County also supports and 
respectfully requests that the federal minerals be withdrawn from the 
BLM managed lands within the County's Ashley Spring Protection Zone.
Division B
Title VI--Land Conveyances
    Ashley Spring: Uintah County supports this land conveyance which 
will allow the County to protect the supply of drinking water for 
Vernal City and will insure that mineral development will not impact 
the flows and quality of Ashley Spring.
    Seep Ridge Utility Corridor: Uintah County supports this provision 
as it is critical to the future economic growth of the Uinta Basin. The 
Basin is an isolated area without rail service requiring utility 
corridors to move energy and products to markets. There is currently 
not a path to move utilities south out of the County to the Interstate 
70 corridor which makes this provision of vital importance. We look 
forward to working with the Committee and Delegation in the mapping 
process to insure it reflects a route that will accomplish the goals of 
this conveyance, consider engineering and construction restrictions, 
and avoids environmental conflicts where possible.
Title VIII--Recreation Zones
    Red Mountain, Jensen Hills, Bourdette Draw, and Devils Hole 
Recreation Areas: Uintah County supports the designation of these areas 
which will enhance the opportunities for our citizens to recreate on 
public lands in Uintah County.
Title X--Long-Term Native American Economic Development Certainty
    Uintah County supports legislative actions to assist the Ute Tribe 
in its efforts to provide economic development for its Members and the 
Tribe's success is important to the Uinta Basin. As the Committee well 
appreciates, the long history of tribal issues in the Uinta Basin is 
complex, emotional, and very important to the future of all citizens in 
the Basin.
    Given recent actions and positions taken by the Ute Tribe, Uintah 
County requests that this section be deleted from the text and that the 
Secretary of Interior, the Utah Congressional Delegation, the Governor 
of Utah, the Ute Tribe and Uintah County and other affected counties 
and cities craft a more global solution to issues raised by the Ute 
Tribe and it neighboring governments. Decades of litigation have left 
many issues unresolved and we request the Committee's assistance in 
bringing parties together to resolve all Tribal and jurisdictional 
issues in the Basin. We do not believe the current PLI legislation is 
the appropriate venue for this conveyance at this time.
Title XI--Long Term Energy Development Certainty
    In consideration of the wilderness and special designation areas in 
this Act, Uintah County requires the following to provide more 
certainty to our economy.
    Uintah County initiated the concept of an energy zone which would 
insure that the management priority for certain lands within the County 
be managed for the specific purpose of producing energy and mineral 
resources. Just as conservation designations insure that environmental 
management is the primary purpose of managing wilderness and national 
conservation areas, we believe energy and mineral development on lands 
not otherwise designated for conservation purposes should be newly 
evaluated for mineral and energy potential. On lands of mineral 
character, BLM should manage those lands to responsibly and effectively 
develop these resources. We have developed various iterations of 
language over approximately two years through discussions with the Utah 
Delegation and negotiations within the conservation community. Uintah 
County requests that the PLI language reflect these efforts and adopt 
language that will require the BLM to manage the mineral and energy 
resources within our County. While we appreciate the intentions of the 
current language which would provide for State primacy in permitting 
actions, we do not believe the concept will achieve the progress in 
Uintah County that is necessary to fully develop our enormous oil, gas, 
and mineral resources.
    Uintah County would like to continue to work with the Committee and 
the Delegation to craft language that achieves the goals and needs of 
the County.
Title XII--Long Term Travel Management Certainty
    In consideration of the wilderness and special designation areas in 
this Act, Uintah County requires the following to provide more 
certainty to our economy and further the provisions of the Act.
    We commend the Utah Congressional Delegation for its willingness to 
resolve the long standing issues of ownership of our Class B and D 
highways. We support the concept of bringing final resolution to this 
longstanding dispute which has eluded resolution for over 40 years. 
Uintah County has provided language that would resolve all Class B 
roads claimed by Uintah County, all Class D roads where the County's 
Travel Management Plan and the Bureau of Land Management Resource 
Management Plan agree. Additionally we need the legislation to address 
public access to and into specific designated areas. These additional 
18 Class D roads are needed to ensure the purpose of each area can be 
fully realized.
Title XIII--Long-Term Grazing Certainty
    Uintah County supports Title XIII as grazing is vital to our 
economy, our citizens, and our culture. While we believe the individual 
grazing provisions associated with Wilderness or other conservation 
designations is the first priority, this provision will insure that 
grazing will continue on lands not otherwise designated for 
conservation purposes under the Act.
Division C--Local Participation
    Title I--Local Participation and Planning--Uintah County supports 
the establishment of Federal Advisory Committees to achieve greater 
participation and transparency in the Federal management of the lands 
affected by the PLI legislation.
Conclusion:
    Uintah County appreciates the opportunity to participate in the PLI 
process and to submit these comments for the hearing record. Uintah 
County believes in a collaborative process to resolve public lands 
issues and that all parties should be heard and considered. We also 
believe that elected officials closest to the people, the land, and the 
natural resources be given priority consideration in these public 
policy debates. We are elected by the people to protect and advocate 
for their interests and we will continue to do so as part of the PLI 
process and we are invested in this effort in the long term. We are 
happy to provide any further information that would be useful to the 
Committee.

            Sincerely,

                                           Mark D. Raymond,
                                                          Chairman.
                                        William C. Stringer

                                           Michael J. McKee

                                 ______
                                 

  Prepared Statement of the Ute Indian Tribe of the Uintah and Ouray 
                              Reservation
    The Ute Indian Tribe appreciates the opportunity to provide this 
testimony to the Committee on Natural Resources' Subcommittee on 
Federal Lands on H.R. 5780, the Utah Public Lands Initiative. 
Unfortunately, H.R. 5780 is an attack on our Uintah and Ouray 
Reservation homelands that conflicts with more than 100 years of 
Federal Indian law and policy. We respectfully request that the 
Subcommittee, Committee and House of Representatives not take further 
action on the bill without additional hearings, a full airing of the 
numerous issues in the bill and substantial revisions.
                              introduction
    The Ute Indian Tribe of the Uintah and Ouray Reservation strongly 
opposes H.R. 5780, the Utah Public Lands Initiative. The bill is 
promoted as a local solution to difficult Federal land management 
issues in eastern Utah. Unfortunately, nothing could be further from 
the truth. In fact, much of H.R. 5780 was built on the back of the Ute 
Indian Tribe and our 4.5 million acre Uintah and Ouray Reservation 
without our knowledge or consent. Overall the bill would affect more 
than 370,000 acres within our Reservation.
    Most important, the bill proposes to take more than 100,000 acres 
of our Reservation lands for the state of Utah. This proposal would 
take Federal Indian policy back to the late 1800s when Indian land 
grabs and the taking of tribal resources for the benefit of others was 
common. This modern day Indian land grab cannot be allowed to stand. 
Unprecedented in over 100 years, Congress and Administration long ago 
rejected these devastating policies in favor of tribal self-
determination and restoring and protecting tribal homelands.
    Even worse, the proposal to take our lands was developed behind our 
backs. After 4 years and, apparently, more than 1,200 meetings with 
stakeholders, the Tribe first learned of this proposal about 8 months 
ago when a discussion draft of the bill was released on January 20, 
2016. Over these 4 years, the Congressmen never invited the Tribe to a 
meeting or came to our Reservation to discuss their proposal to take 
our lands. In meetings since the discussion draft was released, nearly 
all of the Tribe's proposals and revisions were rejected. H.R. 5780 was 
developed without tribal consultation and defies the Federal 
Government's trust responsibility to the Tribe.
    The development of H.R. 5780 even defies common sense. The bill 
involves seven counties in eastern Utah. Our 4.5 million acre 
Reservation overlaps these seven counties and makes up 26 percent of 
the total land area covered by the bill. Representing more that a 
quarter of these eastern Utah lands, the Tribe and our Reservation 
should have been a major participant in the development of any bill to 
address problems in Federal land management. We were not.
    Proposals for moving H.R. 5780 also defy regular order and will not 
allow for a full airing of all the proposals in the bill. We understand 
that the Congressmen plan for only one subcommittee hearing on this 
215-page bill including about 129 individual land management proposals. 
Normally each one of these land management proposals, or no more than 
three or four at a time, would get their own hearing in the 
subcommittee. In addition, the bill includes significant proposals for 
Indian lands and resources and should get a separate hearing before the 
Subcommittee on Indian, Insular and Alaska Native Affairs.
    Finally, even the witness table for today's hearing defies logic. 
While the Tribe agrees that each of today's witnesses should be given 
the opportunity to present their views and supports their 
participation, most of the bill's key supporters and those most 
affected are not included here. At the bill's only hearing the 
Committee and the Subcommittee should also hear from the Ute Indian 
Tribe and the seven counties. The Tribe asks that members of the 
Committee and Subcommittee demand additional hearings and a full airing 
of the proposals included in H.R. 5780.
               h.r. 5780 is a modern day indian land grab
    H.R. 5780 is a modern day Indian lands grab. Not since the late 
1800s has Congress authorized the taking of Indian land for the benefit 
of others. In the late 1800s Congress passed a series of acts that 
divided up or allotted tribally held lands to individual Indians. The 
primary allotment act was the General Allotment Act of 1887. Tribal 
lands not assigned to individual Indians were to be sold to non-Indians 
as surplus lands. The primary effect of the General Allotment Act was a 
reduction in Indian-held land from 138 million acres in 1887 to 48 
million in 1934.
    Recognizing the disastrous effects of the loss of tribal and Indian 
held lands, Congress passed the Indian Reorganization Act of 1934 
(IRA). The IRA ended the allotment of Indian lands and restored trust 
status to remaining Indian lands. In addition, ever since the passage 
of the IRA, Congress has pursued a policy of tribal self-determination 
and affirmation of tribal authority over lands and resources within 
Indian reservations.
    H.R. 5780 is a return to those failed policies of the late 1800s. 
The Congressmen buried the taking of Indian lands in a section entitled 
``Innovative Land Management and Recreation Development.'' However, 
even reading this section does little good. Readers are directed to 
reference a map entitled ``State and Federal Land Exchange Map.'' 
Finally, this map, which does not show the boundaries of our Uintah and 
Ouray Reservation, reveals the taking of more that 100,000 acres of 
Reservation lands for the state of Utah. A return to the failed 
policies of the 1800s is hardly ``innovative.''
    It is also important to note, that these 100,000 acres inside our 
Reservation are in an area known as the Uintah Basin. The Uintah Basin 
is a prolific oil and gas resource that has been producing for the past 
70 years. Once described by Utah Territory officials as a 
``wasteland,'' the state now seeks congressional action to diminish our 
Reservation and take our most valuable resources.
                    proposal to restore tribal lands
    Instead of taking 100,000 acres of our lands for the benefit of 
others, the Ute Indian Tribe asked Congressman Bishop to include a 
provision in H.R. 5780 that would direct the Secretary of the Interior 
to restore our lands to trust status and management by the Bureau of 
Indian Affairs (BIA). Currently, these lands are managed by the Bureau 
of Land Management (BLM) as surplus lands within an Indian reservation. 
As such, the Secretary should be directed to restore our lands under 
existing authority in Section 3 of the IRA which provides:

        The Secretary of the Interior, if he shall find it to be in the 
        public interest, is authorized to restore to tribal ownership 
        the remaining surplus lands of any Indian reservation 
        heretofore opened, or authorized to be opened, to sale, or any 
        other form of disposal by Presidential proclamation, or by any 
        of the public-land laws of the United States: . . .

25 U.S.C. 463(a). Restoration of these lands to trust status would 
increase local control, promote energy development and help to resolve 
nearly 100 years of improper Federal land management stemming from the 
allotment acts. This is exactly the kind of proposal that should have 
been included in a bill promoted as ``a locally-driven effort to bring 
resolution and certainty to some of the most challenging land disputes 
in Utah.''

    The 100,000 acres that H.R. 5780 would give to the state is in the 
eastern half of our Reservation that has been mismanaged by the Federal 
Government for more than 100 years. The eastern half of our current 
Uintah and Ouray Reservation is also known as the Uncompahgre 
Reservation. The Uncompahgre Reservation was established by President 
Chester A. Arthur in a January 5, 1882 Executive Order. Like other 
reservations, the Uncompahgre Reservation was subject to Acts of 
Congress attempting to allot reservation lands and provide for non-
Indian homesteading. However, as the Tenth Circuit Court of Appeals has 
conclusively determined, these Acts never diminished nor disestablished 
the Uncompahgre Reservation.
    Even though the Uncompahgre Reservation was never diminished nor 
disestablished, over the last 80 years the Bureau of Land Management 
(BLM) gradually assumed management of lands within the Reservation. 
First, in 1933, relying on authority applicable to Executive Order 
reservations, Section 4 of the Act of March 3, 1927 (44 Stat. 1347), 
the Secretary of the Interior set aside most of the Uncompahgre 
Reservation as a grazing reserve. Then, under a 1935 agreement, the 
grazing reserve was to be jointly managed by the BIA and the BLM for 
the benefit of Indian and non-Indian stockmen. However, BLM field 
officers made decision after decision benefiting non-Indian stockmen 
and over-running our Reservation lands.
    In 1948, Congress passed the Act of March 11, 1948 (62 Stat. 72) to 
settle tensions between Indian and non-Indian grazing interests within 
the Uncompahgre Grazing Reserve. This Act extended the boundaries of 
the Uintah and Ouray Reservation to include an area known as the Hill 
Creek Extension. The Act canceled the grazing reserve created by the 
Secretary in 1933, but did not affect the January 5, 1882 Executive 
Order setting aside the Uncompahgre Reservation. Nevertheless, BLM 
moved quickly under the 1948 Act to gain control of most of the lands 
within Uncompahgre Reservation.
    BLM's actions were incorrect. As the Tenth Circuit Court of Appeals 
would later hold, the 1948 Act ``in no way changed the character of the 
region. In fact, it preserved its Indian character.'' Ute Indian Tribe 
v. Utah, 773 F.2d 1087, 1099 (10th Cir. 1985) (en banc), cert. denied, 
479 U.S. 994 (1986) (Ute III). In other words, by revoking the 1933 
Order withdrawing the Uncompahgre Reservation as a grazing reserve, the 
1948 Act returned the lands within the Uncompahgre Reservation to their 
status pre-1933. The lands were once again surplus lands within an 
Indian Reservation. Such lands are eligible for restoration to trust 
status under the IRA. At a minimum, H.R. 5780 should not attempt to 
legislatively take the very same lands that the Tribe is currently 
seeking to have restored to trust status by the Secretary.
  h.r. 5780 attempts to overrule 30 years of 10th circuit and supreme 
                             court case law
    H.R. 5780 is an attempt to over-rule 30 years of litigation in the 
Tenth Circuit Court of Appeals and the Supreme Court. For 30 years the 
state of Utah has attempted to challenge the boundaries of our 
Reservation in a series of cases known as Ute Indian Tribe v. Utah. 
After yet another loss in the state's endless litigation, the state now 
asks Congress to legislatively take title to Indian lands and take 
authority over Reservation roads and resources.
    The status of the Uncompahgre Reservation was definitively resolved 
when the United States Supreme Court denied certiorari after Ute Indian 
Tribe v. Utah, 773 F.2d 1087 (10th Cir. 1985) (en banc), cert. denied, 
479 U.S. 994 (1986) (Ute III). In Ute III, the Tenth Circuit analyzed 
the history of the Uncompahgre Reservation and held ``that the opening 
of the Uncompahgre Reservation was never formally or informally 
negotiated between the Federal Government and the Tribe of Indians [and 
that t]here was never an understanding on the part of the Tribe that 
they would lose their reservation as a result of the 1897 Act.'' The 
Court then expressly concluded: ``Therefore, we hold that the 
Uncompahgre Reservation has not been disestablished or diminished.'' 
Ute III at 1093.
    In both Ute Indian Tribe v. Utah, 114 F.3d 1513 (10th Cir. 1997) 
(Ute V), and Ute Indian Tribe v. Utah, 790 F.3d 1000 (10th Cir. 2015) 
(Ute VI), the Tenth Circuit reiterated and reaffirmed this holding. In 
Ute VI, after again reaffirming that the Uncompahgre Reservation was 
neither disestablished nor diminished, the Tenth Circuit bluntly 
stated: ``we hope this opinion will send the same message: that the 
time has come to respect the peace and repose promised by settled 
decisions.'' Ute VI, 790 F.3d at 1013. Thus, on three separate 
occasions over the past 30 years, the Tenth Circuit held that Congress 
did NOT take, remove or eliminate the Tribe's title to the land in 
question. In addition, the Supreme Court has denied rehearing of these 
cases twice.
    H.R. 5780 would conflict with this settled law and attempt to 
legislatively over-rule these decisions. Rather than resolve land 
management issues, the bill would result in decades more litigation. 
The bill would also subject the United States to a claim for taking the 
Tribe's lands and resources without just compensation.
    Contrary to the conflict H.R. 5780 would create, the only remaining 
issue is whether the United States holds the Uncompahgre Reservation in 
fee or in trust for the Tribe. The Tribe has been working with the 
Department of the Interior regarding this question, and to date the BLM 
has not been able to locate any documentation which transferred the 
Uncompahgre Reservation from trust to fee title. Until that issue is 
resolved, it is inappropriate for Congress to attempt to transfer any 
Uncompahgre Reservation lands to the state.
              illegal transfer of jurisdiction over roads
    In a similar challenge to the Tribe's Reservation and related 
tribal jurisdiction, the bill proposes to transfer jurisdiction over 
roads within the Reservation. In a section deceptively titled ``Long-
Term Travel Management Certainty,'' the bill proposes to undermine 
settled Federal law regarding the Tribe's jurisdiction over roads 
within the exterior boundaries of the Reservation. The bill would 
actually increase uncertainty for jurisdiction over these roads and 
subject the United States to a claim for taking a right-of-way across 
tribal lands without just compensation.
    As above, authority over these roads was conclusively determined in 
the Ute Indian Tribe v. Utah series of cases. With regard to the 
Tribe's Reservation overlapping Uintah County, the Tenth Circuit 
conclusively determined that that part of the Tribe's Reservation was 
neither diminished nor disestablished. Again, the Supreme Court twice 
refused to rehear this decision.
    As a result, that portion of the Reservation is Indian Country as 
defined by 18 U.S.C. 1151. This long-standing criminal statute 
recognizes Federal and tribal jurisdiction over Indian Country to the 
exclusion of state and local governments.
         conflicts with federally reserved indian water rights
    In numerous places throughout H.R. 5780, the bill conflicts with 
the Ute Indian Tribe's water rights and Federal Indian water rights law 
generally. For example, the bill designates approximately 69.5 miles of 
the Green River within the boundary of our Reservation as a ``scenic 
river'' and approximately 13.34 miles as a ``wild river.'' The Tribe is 
the beneficial owner of this portion of the Green River and was never 
consulted on this designation. In contrast, the Wild and Scenic Rivers 
Act provides that ``lands owned by an Indian tribe . . . may not be 
acquired without the consent of the appropriate governing body thereof 
. . . .'' 16 U.S.C. Sec. 1277(a). We do not consent.
    Further, if the Tribe did consent, we would have to be compensated. 
The designation of portions of the river as wild and scenic would 
constitute a taking of the Tribe's beneficial ownership in the riverbed 
and a taking of the a mile buffer zone on both sides of the river. The 
Wild and Scenic Rivers Act imposes certain restrictions on water 
resource projects and certain requirements with regard to how the 
rivers are managed. We oppose the bill because it will likely lead to 
challenges and limitations to our existing regulatory control over that 
portion of the river.
    Overall, we reject any provision in the bill that interferes with 
our jurisdiction over our historic, current, and future reserved water 
rights, and the authority to administer, regulate, and enforce our 
rights under Federal and tribal law. We oppose any attempts in the bill 
to place any restrictions on our Federal and tribal rights as a 
sovereign to govern and regulate our waters.
    In another example, there are provisions related to the bill's 
designation of the High Uintas Special Management Area and the Ashley 
Karst National Geologic and Recreation Area that require the Secretary 
to follow the procedural and substantive requirements of State law to 
obtain and hold water rights. As above, these provisions totally ignore 
the Tribe's federally recognized reserved water rights, which are held 
by the United States in trust for the Tribe.
 h.r. 5780 proposes changes in management to reservation lands without 
                              consultation
    H.R. 5780 also proposes to make land management changes to more 
than 200,000 acres of lands within the Reservation. Among other things, 
the bill proposes a ``Utility Corridor,'' ``Special Management Areas,'' 
``Wildernesses'' and ``Wilderness Study Areas,'' ``Recreation Areas'' 
within our Reservation. These changes would directly affect our ability 
to exercise tribal self-determination and manage our Reservation lands 
for the benefit of our members.
                               conclusion
    Despite 4 years and, apparently, 1,200 meetings with stakeholders, 
the Congressmen never discussed these proposals with the Ute Indian 
Tribe prior to the release of the discussion draft in January 20, 2016. 
Over these 4 years, the Congressmen never visited our 4.5 million acre 
Reservation in eastern Utah to meet with us, discuss these proposals, 
and ask the Tribe what could be included in the bill to improve Federal 
management of our lands. Since the release of the discussion draft, the 
Tribe has worked hard to provide proposals that would benefit the Tribe 
as well as the state of Utah. We have also worked to provide revisions 
that would make the bill consistent with modern Federal Indian law. The 
vast majority of these proposals and revisions were rejected by the 
Congressmen.
    The Ute Indian Tribe opposes H.R. 5780 as a modern day Indian lands 
grab. Not since the late 1800s has Congress attempted to take Indian 
lands for the benefit of others. H.R. 5780 attempts to legislatively 
over-rule Federal case law and diminish tribal authority. All of 
Congress should oppose attempts to rollback modern and successful 
policies that protect Indian lands and promote tribal self-
determination. We appreciate the subcommittee's consideration of this 
testimony.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --  National Monuments and National Conservation Areas: A 
            Comparison in Light of the Bears Ears Proposal, 
            September 9, 2016, Wallace Stegner Center, White 
            Paper No. 2016-02.

                                 <all>
</pre></body></html>
